<html>
<title> - THE GLOBAL ENGAGEMENT CENTER: LEADING THE UNITED STATES GOVERNMENT'S FIGHT AGAINST GLOBAL DISINFORMATION THREAT</title>
<body><pre>[Senate Hearing 116-275]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 116-275

                THE GLOBAL ENGAGEMENT CENTER: LEADING 
                 THE UNITED STATES GOVERNMENT'S FIGHT 
                 AGAINST GLOBAL DISINFORMATION THREAT

=======================================================================

                                HEARING

                               BEFORE THE

                         SUBCOMMITTEE ON STATE
                          DEPARTMENT AND USAID
                       MANAGEMENT, INTERNATIONAL
                       OPERATIONS, AND BILATERAL
                       INTERNATIONAL DEVELOPMENT

                                 OF THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              MARCH 5, 2020

                               __________

       Printed for the use of the Committee on Foreign Relations
       
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 


                   Available via the World Wide Web:
                      http://www.govinfo.gov                     
                      
                                __________                               

41-862 PDF                  WASHINGTON : 2020                     
          
--------------------------------------------------------------------------------------



                 COMMITTEE ON FOREIGN RELATIONS        

                JAMES E. RISCH, Idaho, Chairman        
MARCO RUBIO, Florida                 ROBERT MENENDEZ, New Jersey
RON JOHNSON, Wisconsin               BENJAMIN L. CARDIN, Maryland
CORY GARDNER, Colorado               JEANNE SHAHEEN, New Hampshire
MITT ROMNEY, Utah                    CHRISTOPHER A. COONS, Delaware
LINDSEY GRAHAM, South Carolina       TOM UDALL, New Mexico
JOHN BARRASSO, Wyoming               CHRISTOPHER MURPHY, Connecticut
ROB PORTMAN, Ohio                    TIM KAINE, Virginia
RAND PAUL, Kentucky                  EDWARD J. MARKEY, Massachusetts
TODD YOUNG, Indiana                  JEFF MERKLEY, Oregon
TED CRUZ, Texas                      CORY A. BOOKER, New Jersey
DAVID PERDUE, Georgia
              Christopher M. Socha, Staff Director        
            Jessica Lewis, Democratic Staff Director        
                    John Dutton, Chief Clerk        




           SUBCOMMITTEE ON STATE DEPARTMENT AND USAID        
           MANAGEMENT, INTERNATIONAL OPERATIONS, AND        
              BILATERAL INTERNATIONAL DEVELOPMENT        

                JOHN BARRASSO, Wyoming, Chairman        
TODD YOUNG, Indiana                  CORY A. BOOKER, New Jersey
RAND PAUL, Kentucky                  EDWARD J. MARKEY, Massachusetts
ROB PORTMAN, Ohio                    JEFF MERKLEY, Oregon
MARCO RUBIO, Florida                 TOM UDALL, New Mexico

                              (ii)        



                          C O N T E N T S

                              ----------                              
                                                                   Page

Portman, Hon. Rob, U.S. Senator From Ohio........................     1

    Prepared Statement...........................................     3

Booker, Hon. Cory, U.S. Senator From New Jersey..................     4

    Prepared Statement...........................................     6

Gabrielle, Lea, Special Envoy and Coordinator of the Global 
  Engagement Center, U.S. Department of State, Washington, DC....     8
    Prepared Statement...........................................    10

Blumenthal, Daniel, Director of Asian Studies and Resident 
  Fellow, American Enterprise Institute, Washington, DC..........    31
    Prepared Statement...........................................    33

Polyakova, Alina, President and CEO, Center for European Policy 
  Analysis, Washington, DC.......................................    39
    Prepared Statement...........................................    40

              Additional Material Submitted for the Record

Responses of Ms. Lea Gabrielle to Questions Submitted by Senator 
  Robert Menendez................................................    58

Responses of Ms. Lea Gabrielle to Questions Submitted by Senator 
  Cory Booker....................................................    66

The Committee Received No Response From Mr. Daniel Blumenthal for 
  the Following Questions by Senator Cory Booker.................    68

Responses of Dr. Alina Polyakova to Questions Submitted by 
  Senator Cory Booker............................................    69

                                 (iii)

  

 
                 THE GLOBAL ENGAGEMENT CENTER: LEADING 
  THE UNITED STATES GOVERNMENT'S FIGHT AGAINST GLOBAL DISINFORMATION 
                                 THREAT

                              ----------                              


                        THURSDAY, MARCH 5, 2020

                               U.S. Senate,
        Subcommittee on State Department and USAID 
Management, International Operations, and Bilateral 
                         International Development,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:23 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Rob Portman 
presiding.
    Present: Senators Portman [presiding], Young, Paul, Rubio, 
Booker, Markey, Merkley, and Udall.
    Also Present: Senator Murphy.

            OPENING STATEMENT OF HON. ROB PORTMAN, 
                     U.S. SENATOR FROM OHIO

    Senator Portman. Okay, let us get started. First of all, I 
want to thank my colleagues for being here.
    Ranking Member Booker, thank you very much for being here, 
and I particularly want to thank Chairman Barrasso because he 
graciously allowed us to both have this subcommittee hearing 
and for me to be able to chair it. This is a discussion that is 
really important to all of us who are here and so many of our 
colleagues.
    Information is power today, and we see it all over the 
globe and when it is used improperly, it is used as a weapon. 
Democracies like ours require a well-informed electorate to 
function properly, but our enemies are increasingly trying to 
undermine that principle through so-called disinformation 
campaigns designed to mislead voters and, in doing so, 
delegitimize our democratic elections.
    Malign actors, like Russia, systematically exploit social 
media, radio, television, and print to twist facts to suit 
their needs and distort the truth to an unsuspecting populace. 
It is not just about elections. We see it today with regard to 
the coronavirus and misinformation that is being spread.
    It is an interesting tactic because it is inexpensive and 
yet can be very effective. It has a high degree of deniability. 
It is anonymous almost always. And again, if left unchecked, it 
can be devastatingly effective.
    In 2016, Senator Chris Murphy, who is here today, and I 
established this organization within the United States 
Government through legislation. The idea was to have an 
interagency group that could help lead this global 
disinformation effort and work with international partners for 
a unified response.
    The bipartisan legislation, the Global Engagement Center 
within the State Department, is now law. It has taken a while, 
frankly, to get it up and going. We are going to hear a lot 
more about that today. But we are pleased that we are making 
progress.
    The mission of the GEC is to, and I quote, ``lead, 
synchronize, and coordinate efforts of the Federal Government 
in countering foreign state and foreign non-state propaganda 
and disinformation efforts.''
    So it is a broad and important mandate. It is the central 
nexus of our work to create this effective shield against the 
falsehoods that threaten the integrity of our democracy and 
other democracies.
    We are pleased to have Lea Gabrielle here with us as our 
first witness. She is the Special Envoy of the GEC. She is a 
former human intelligence operations officer, a Defense foreign 
liaison officer, a U.S. Navy program director, a Navy F-18 
fighter pilot, and a national television news correspondent and 
an anchor. She has done all that within her short life. So it 
is very impressive.
    She is well experienced in combatting disinformation 
campaigns. We are glad to have her leading in this initiative. 
We look forward to hearing how she has staffed the Center to 
meet the mission. We look forward to the assessment of the 
emerging threats we face and the budgetary requirements moving 
forward.
    I think it is critical that we resource the GEC to meet 
this important mission, and therefore, I support the Fiscal 
Year 2021 President's budget request of $138 million. That is 
an increase of about $76 million over last year's budget. It is 
more than a doubling of the current funding. And I think that 
is important, and again, we will hear more about why that is so 
important.
    Our second panel will have Dr. Alina Polyakova. I am going 
to try this again. I always call her Alina so I do not have to 
worry about the last name. But Alina Polyakova from the Center 
for European Policy Analysis, and then Dan Blumenthal from the 
American Enterprise Institute. Those serve as our expert 
witnesses as we have a frank and serious discussion about the 
global weaponization of information and the U.S. Government's 
response.
    Dr. Polyakova and Mr. Blumenthal have testified before this 
and other committees, and are highly regarded for their work. 
We look forward to hearing their insights.
    Today, we will also aim to examine the threat posed to 
democracies by the deliberate and intentional state-sponsored 
spread of inaccurate information to inflame societies. There 
are numerous examples of this happening again in just the past 
few years.
    Here in the United States, we have extensive documentation 
that Russia conducted a coordinated interference campaign in 
our 2016 elections, something we are working hard to prevent 
this election cycle. Elsewhere, Ukraine has been the subject of 
a sustained Russian disinformation campaign in response to its 
efforts to break free of Moscow's influence since the 2014 
Revolution of Dignity.
    We are seeing a rise in these tactics from China, both in 
the Indo-Pacific and in Europe. This is truly a global problem, 
again, that requires an integrated global response.
    I was recently at the Munich Security Conference with some 
of my colleagues here, and we had a robust discussion about 
this and about the U.S.-European partnership in fighting 
disinformation. Today, I want to dig deeper into that subject 
as well.
    With regard to the Indo-Pacific region, there has been a 
strong relationship between the GEC and the INDOPACOM Command 
that is, I think, a model for others to follow. We look forward 
to hearing more about how this works and how the PRC 
manipulates or blocks information that does not meet their 
desired narratives.
    Lastly, I think it is important that the U.S. continue to 
be a world leader in efforts to combat this disinformation. 
Where the United States goes, other countries tend to follow. 
Through the GEC and other agencies, we have established a close 
and effective relationship with some of our European 
counterparts, and our joint efforts are beginning to gain 
traction elsewhere.
    The topic of disinformation is now a topic of discussion 
across the globe, as we saw at the conference in Munich. To 
continue our leadership on this issue, we have got to have an 
effective organization within the Federal Government to 
coordinate our response. This hearing will address how we can 
understand the issue better and also make the GEC even more 
effective.
    The problems caused by deliberate state-sponsored 
manipulation of information are going to be here for a long 
time. They are not leaving us. The tactics are inexpensive, 
deniable, highly effective, and it is critical we understand 
the dangers they present and the best way to seize the 
initiative in this arena.
    [The prepared statement of Hon. Rob Portman follows:]

                 Prepared Statement of Hon. Rob Portman

    Ranking Member Booker, fellow members of the Subcommittee, it is my 
pleasure to chair this hearing on the Global Engagement Center and its 
role in leading the fight against disinformation. I'd like to thank 
Chairman Barrasso for graciously permitting me to lead this discussion 
on a subject that is very important to me personally.
    In today's world, information is not only power--when used 
improperly, it is a weapon. Democracies like ours require a well-
informed electorate to function properly, but our enemies are 
increasingly trying to undermine this principle through so-called 
`disinformation campaigns' designed to mislead voters and, in doing so, 
delegitimize our democratic elections. Malign actors like Russia 
systematically exploit social media, radio, television and print to 
twist facts to suit their needs and distort the truth to an 
unsuspecting populace. This tactic is inexpensive, has a high degree of 
deniability and, if left unchecked, can be devastatingly effective.
    In 2016, my colleague Senator Chris Murphy and I recognized the 
need to establish an organization within the United States government 
to lead the interagency fight against these global disinformation 
efforts and work with our international partners on a unified response. 
The resulting legislation we passed through Congress on a bipartisan 
basis led to the creation of the Global Engagement Center within the 
State Department. The mission of the GEC is to ``lead, synchronize, and 
coordinate efforts of the Federal Government in countering foreign 
state and foreign non-state propaganda and disinformation efforts.'' 
It's the central nexus of our work to create an effective shield 
against falsehoods that threaten the integrity of our democracy.
    Today, we are pleased to have Special Coordinator of the GEC Lea 
Gabrielle as our government witness. Special Coordinator Gabrielle is a 
former Human Intelligence Operations Officer, Defense Foreign Liaison 
Officer, U.S. Navy Program Director, Navy F/A-18C Fighter Pilot, and 
national television news correspondent and anchor. She is well-
experienced in combating disinformation campaigns and we're glad to 
have her leading this important initiative. We look forward to hearing 
how Special Coordinator Gabrielle has staffed the Center to meet her 
mission, her assessment of the emerging threats we face and her 
budgetary requirements are moving forward. It is critical we resource 
the GEC to meet its mission and I strongly support the FY 2021 
President's budget requested $138 million dollars in funding for the 
center. That is an increase of $76 million over last year's budget, 
more than a doubling of the current funding.
    In our second panel, we will have Dr. Alina Polyakova (paul-YA-ko-
vuh) from the Center of European Policy Analysis and Dan Blumenthal 
from the American Enterprise Institute to serve as our expert witnesses 
as we have a frank and serious discussion about the global 
weaponization of information and the U.S. government's response. Dr. 
Polyakova and Mr. Blumenthal have testified before are highly regarded 
for their work on this issue, and I look forward to hearing their 
insights.
    Today we'll also aim to examine the threat posed to democracies by 
the deliberate and intentional state-sponsored spread of inaccurate 
information to influence societies. There are numerous examples of this 
happening just in the past few years. Here in the U.S., we now have 
extensive documentation that Russia conducted a coordinated 
interference campaign in our 2016 elections, something we're working 
hard to prevent this election cycle. Elsewhere, Ukraine has been the 
subject of a sustained Russian disinformation campaign in response to 
its efforts to break free of Moscow's influence since its 2014 
Revolution of Dignity. We are seeing a rise of these tactics from 
China, both in the Indo-Pacific and in Europe. This is truly a global 
problem that requires an integrated, global response. I recently 
attended the Munich Security Conference and we had robust discussions 
about the U.S.-European partnership in fighting disinformation--today I 
hope to dig deeper into that subject as well.
    Regarding the GEC's efforts in the Indo-Pacific region, there has 
been a strong relationship between the GEC and the Indo/PACOM command 
that is a model for others to follow. I look forward to hearing about 
how this and also how the People's Republic of China manipulates or 
blocks information that does not meet their desired narratives.
    Lastly, it is important that the U.S. continues to be a world 
leader in our efforts to combat disinformation. Where the United States 
goes, other countries will follow. Through the GEC and other agencies, 
we have established close and effective relations with our European 
counterparts, and our joint efforts are starting to gain traction. The 
topic of disinformation now a topic of discussion across the globe, 
when it was not only a few years ago. To continue our leadership on 
this issue, we must have an effective organization within the federal 
government to coordinate our response, and this hearing will address 
how we can understand the issue and ultimately make the GEC more 
effective.
    The problems created by deliberate, state-sponsored manipulation of 
information are not leaving us. The tactics are cheap, deniable, and 
highly effective and it is critical we fully understand the dangers 
they present and the best way to seize the initiative in this arena.
    I look forward to hearing from our witnesses and from the other 
members of this committee. I'll now turn it over to Ranking Member 
Booker for his opening remarks.

    I look forward to hearing from our witnesses in a moment 
and from the members of the committee. I now turn to Ranking 
Member Senator Booker for his opening remarks.

                STATEMENT OF HON. CORY BOOKER, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Booker. Thank you very much, Mr. Chairman.
    It is incredible to be able to be sitting here today next 
to you. You, frankly, not only helped to get this hearing done, 
but you and Senator Murphy, your extraordinary leadership in 
drafting the legislation that authorized the GEC, if I 
understand it correctly, you took it from an executive order at 
the whims of a president to really something that was 
established.
    And it is incredible that you are here, and I want to thank 
Senator Murphy for his continued leadership in many ways as a 
more junior member on this committee, in many ways just being a 
friend and a mentor.
    I am disappointed, though. I just want to say this is a 
very bipartisan hearing. I mean, this is legislation that the 
two of you wrote together. It is something that bonds us all, 
the concerns and the mission of this organization. But the 
State Department refused to provide the committee with the 
witness it requested, and that is unacceptable to me. It is not 
the way we should be doing business.
    We all have a shared interest and shared values and a 
shared understanding of the growing and more sophisticated 
threats. It is just unacceptable to me. It is not helping us to 
do business of the people of this country and protecting us and 
keeping us safe.
    And that brings me to where my thoughts are for the moment, 
which is in the aftermath of September 11th, the U.S. created 
the GEC with the goal of reducing the influence and 
effectiveness of terrorist and violent extremist groups that 
were seeking to harm Americans. Today, the scope of the GEC's 
work is incredible to me. It extends beyond terrorists, violent 
extremist groups, and state-sponsored propaganda and 
disinformation. It is really growing to be an incredibly 
critical mission, given the complex challenges from our 
adversaries.
    As we are sitting here in this hearing, there are actors 
seizing on widespread concern regarding the coronavirus to 
intentionally spread disinformation at a time when people are 
worried and vulnerable and willing to believe what they are 
reading, often. And we understand that in the context of this, 
FDR's words are very profound. ``We have nothing to fear, but 
fear itself.'' Well, we have a real threat and then the 
additional threat of fear.
    The Washington Post has been reporting on this, talking 
about the use of social media and the conspiracy theories being 
spread that put us at danger. The report revealed evidence of a 
coordinated inauthentic activity, which was responsible for 
pushing these dangerous falsehoods.
    One conspiracy theory is seeking to attack people in this 
country, blame them. In this case, Bill and Melinda Gates.
    As people in the U.S. and across the globe are turning to 
social media for information about this looming threat, they 
find these lies, the malicious actors who are trying to really 
prey upon our vulnerability and put us more at danger. And so 
this intentional desire to muddle the facts, to undermine our 
security and our safety, to make us doubt our institutions, to 
make us doubt each other, will weaken the bonds of our 
democracy, as well as put people at risk.
    And this brings us to the GEC's work. Their work at getting 
to the bottom of disinformation around the coronavirus is 
exactly why it was created by Congress, led by the gentlemen on 
my either side. But I have some questions about why both the 
GEC and the State Department have so far refused to comment 
about the report and about the reliable news outlets that are 
seeking to expose this disinformation.
    And so I hope to have that conversation as this goes on. I 
am also hoping to get to the bottom of important information 
that the GEC themselves have uncovered about those who are 
spreading the falsehoods, for what purposes they see, and what 
effects it is already having.
    Russian interference in the 2016 elections demonstrated the 
dangers posed by this misinformation. And we now know that the 
Russians and other countries are trying to get better and 
better and more sophisticated at what they are doing. This is 
their playbook, targeting democracies, sowing discord through 
misinformation, and attempting to weaken relationships between 
allies.
    There is no reason for us to believe that they are not 
going to continue to employ this playbook, to get better at it, 
to come at the coming elections and to seize any opportunities 
like the coronavirus to undermine our safety, security, and our 
very bonds here in the United States of America.
    While the State Department does not have the authority over 
the homeland, through the data and analysis that the GEC 
collects on Russian techniques and practices, we know a lot 
more about what they may do to meddle in this year's election 
and to meet a lot of the challenges that they present. I want 
to know how this is being shared with relevant agencies, 
including the Department of Homeland Security, FBI, and more.
    And while the U.S. recently has begun to see these Russian 
threats more broadly, Russia's democratic and pro-Western 
neighbors have had to contend with Russia's attempts to reverse 
democratic gains for years.
    We also know these Russian efforts are not limited to 
Europe and the United States. As in Europe, we are seeing this 
now growing in Africa. Moscow's engagement enables autocrats 
and fosters corruption, especially in already-fragile African 
countries. We know the Kremlin's activities are designed in 
part to weaken the U.S.'s leadership in that region, but to 
undermine the very ideals of our democracy and others.
    Last year, Facebook identified accounts targeting eight 
African countries, saying although the people behind these 
networks attempted to conceal their identities in coordination, 
our investigation connected these campaigns to entities 
associated with a specific Russian oligarch, who was described 
as the architect of Russia's interference in the 2016 election.
    China, too, has rapidly increased the use of influence 
tactics in the information space. The near peer competition is 
clearly playing out in the misinformation space as well.
    And so, to me, the GEC's task is considerable, to lead 
interagency efforts to counter propaganda and disinformation 
from international terrorist organizations and foreign 
countries. I look forward to hearing from both panels about how 
we, as Congress, can continue to strengthen our work to make 
sure we are meeting what I believe is a growing threat tactic 
and techniques being used by our adversaries to undermine this 
country, as well as critical allies, as well as the stability 
and strength of free peoples all around the country.
    Thank you again for being here, and Mr. Chairman, I turn it 
back to you.
    [The prepared statement of Hon. Cory Booker follows:]

                 Prepared Statement of Hon. Cory Booker

    Thank you to the witnesses for being here today.
    I want to thank Senator Portman for guest chairing this 
subcommittee's hearing.
    Senator Portman along with Senator Murphy were instrumental in 
drafting the legislation that authorized the Global Engagement Center 
or GEC so there's no better person to lead this oversight panel and I'm 
thankful for his leadership in advocating for this hearing.
    I also want to thank Senator Portman's staff for working so closely 
with my team in a bipartisan effort to bring attention to the threat 
posed by disinformation and how the United States must respond.
    I am, however, disappointed that the State Department refused to 
provide the Committee with a witness it requested from the East Asia 
and Pacific or Europe Bureaus for this hearing despite having weeks of 
notice. It's just not the way we should be doing business and it's 
certainly not helpful to our efforts to strengthen and bolster the GEC.
    Which brings me to the issue at hand today.
    In the aftermath of September 11th, 2001, the sought to reduce the 
influence and effectiveness of terrorist and violent extremist groups 
that sought to harm the U.S. and its allies.
    Today, the scope of GEC's work extends beyond terrorist and violent 
extremist groups to state sponsored propaganda and disinformation.
    Right now, as we sit here in this hearing, there are actors seizing 
on widespread concern regarding the coronavirus to intentionally spread 
disinformation, at a time when people are worried, vulnerable, and 
willing to believe anything.
    Over the weekend, the Washington Post reported that roughly 2 
million tweets spread conspiracy theories about the coronavirus, based 
on an unreleased, unclassified GEC report it obtained.
    That report revealed evidence of ``inauthentic and coordinated 
activity'' which was responsible for pushing these falsehoods.
    One conspiracy theory suggested that the virus had been created by 
the Bill and Melinda Gates Foundation.
    Another claimed that the U.S. Department of Defense created the 
virus in order to target China.
    As people here in the U.S. and across the globe turned to social 
media for information about this looming threat, they instead found 
lies from malicious actors preying on the vulnerability of innocent 
people.
    What is the objective of peddling these dangerous false narratives? 
To muddle the facts, to make the truth so questionable that nothing can 
be trusted, and to create an environment that is ripe for exploitation.
    The GEC's work on getting to the bottom of misinformation around 
the coronavirus is exactly why it was created by Congress in the first 
place--but I have questions about why both the GEC and State Department 
refused to comment about the report to a reliable news outlet seeking 
to expose the disinformation. Ms. Gabrielle, I hope you'll be able to 
speak to this issue.
    I also am hoping to get to the bottom of the important information 
that the GEC uncovered, for example, who was responsible for spreading 
these falsehoods, for what purpose, and what effect has it had.
    Russian interference in the 2016 U.S. election demonstrated the 
dangers posed by misinformation campaigns.
    We know now that this is the Russian playbook--targeting 
democracies, sowing discord through misinformation, and attempting to 
weaken relationships among allies.
    And there is no reason to believe they won't employ this same 
playbook in the coming U.S. Presidential election. While the State 
Department does not have authority over the homeland, through the data 
and analysis that the GEC collects on Russian techniques and practices 
we know a lot more about what they may do to meddle in this year's 
election.
    I want to know how that is being shared with relevant agencies 
including the Department of Homeland Security, the FBI and our 
intelligence agencies so that protecting our election is indeed a whole 
of government effort.
    And while the U.S. just recently woke up to Russia's disinformation 
efforts, Russia's democratic and pro-Western neighbors have had to 
contend with Russian attempts to reverse democratic gains for years. I 
saw this firsthand when I traveled to Ukraine in 2017, which Russia has 
used as a testing ground to perfect misinformation methods and 
techniques and then used elsewhere.
    We also know these Russian efforts are not limited to Europe and 
the United States. As in Europe, in Africa, Moscow's engagement enables 
autocrats, and fosters corruption especially in already-fragile African 
countries. We also know the Kremlin's activities are designed in part 
to weaken U.S. leadership in the region.
    Late last year, Facebook identified accounts targeting eight 
African countries, saying ``Although the people behind these networks 
attempted to conceal their identities and coordination, our 
investigation connected these campaigns to entities associated with 
Russian financier Yevgeniy Prigozhin'' who is described as the 
architect of Russia's interference in the 2016 election.
    China, too, has rapidly increased the use of its influence tactics 
in the information space.
    The near peer competition is clearly playing out in the information 
space.
    A recent report by the International Republican Institute (IRI) 
says that China seeks to ensure a positive ``China story'' and protect 
its growing investments in developing countries by suppressing 
criticism of Chinese activities within their borders.
    The GEC's task is considerable--to lead interagency efforts to 
counter propaganda and disinformation from international terrorist 
organizations and from foreign countries.
    I look forward to hearing from Ms. Leah Gabrielle, the Director of 
the GEC about how the GEC is poised to execute its mandate, and I hope 
you'll be forthcoming with us about what additional resources you need 
or authorities you lack in order to carry out your mission.
    I also look forward to hearing from our expert witnesses, Dr. Alina 
Polyakova and Mr. Daniel Blumenthal who will discuss the intent and 
methods of Russian and Chinese disinformation, emerging trends in state 
sponsored disinformation, and where we need to focus our energies.
    Thank you all again for being here.

    Senator Portman. Thank you. I appreciate those statements. 
We look forward to getting into more of those issues as we move 
forward.
    And again, our first witness is Ms. Lea Gabrielle. We spoke 
about her impressive background earlier, but she is the Special 
Envoy and Coordinator of the Global Engagement Center for the 
U.S. Department of State.
    And Ms. Gabrielle, all of your written record will be 
printed in its entirety in the record. We would ask you that 
you limit your oral remarks this morning to 5 minutes, and we 
look forward to your testimony and then the opportunity to ask 
some questions.
    So, Ms. Gabrielle, your opening statement.

 STATEMENT OF LEA GABRIELLE, SPECIAL ENVOY AND COORDINATOR OF 
    THE GLOBAL ENGAGEMENT CENTER, U.S. DEPARTMENT OF STATE, 
                         WASHINGTON, DC

    Ms. Gabrielle. Thank you, Chairman Portman, Ranking Member 
Booker, and members of the subcommittee.
    Thank you for inviting me to testify before you today. I am 
pleased to be here to talk about the Global Engagement Center's 
work. This is an important topic with serious implications to 
U.S. national security, and I appreciate the subcommittee 
devoting this time to it.
    The GEC is dedicated to the mission of leading and 
coordinating the U.S. Government's efforts to decisively expose 
and counter foreign state and nonstate disinformation and 
propaganda. Secretary Pompeo has called upon the GEC to employ 
a broad suite of tools to stop America's adversaries from 
weaponizing information and using propaganda to undermine free 
societies.
    Since becoming the Special Envoy of the GEC just over a 
year ago, my team and I have made significant progress towards 
building international partnerships, executing dynamic 
programs, and deploying robust analytical capabilities globally 
to address foreign propaganda and disinformation. I have worked 
to ensure my team has the necessary tools and resources to do 
the job given to it by Congress.
    At the State Department's recent Chief of Mission 
Conference, I spoke with our U.S. Ambassadors who represent us 
around the world. I shared our threat assessments on 
disinformation and propaganda, and I listened to their 
perspectives on how developments are playing out on the ground. 
We at the GEC recognize the crucial role that our missions and 
our public diplomacy officers play on the front lines of this 
information battleground.
    My teams are working with embassies overseas and with the 
Department's regional bureaus daily to execute and to 
coordinate activities. Today, I will outline how we view the 
disinformation the Kremlin and the Chinese Communist Party are 
propagating, what we are doing to counter each, and the role 
that data and analytics play in our work.
    I will also describe the GEC's role in coordinating a whole 
of U.S. Government effort to respond to foreign propaganda and 
disinformation. I am also available to answer any of your 
questions about how the GEC counters propaganda from terrorist 
organizations like ISIS, as well as disinformation from the 
Iranian regime.
    Let us start with the Kremlin. The intent, scope, and style 
of disinformation and propaganda spread by the Kremlin and the 
Chinese Communist Party are distinct from one another. The 
Kremlin swamps the media environment with a tsunami of lies. 
Outside of Russia, the Kremlin seeks to weaken its adversaries 
by manipulating the information environment in nefarious ways, 
by polarizing political conversations, and attempting to 
destroy the public's faith in good governance, independent 
media, and democratic principles.
    To counter the Kremlin's disinformation, the GEC is 
creating strategic partnerships with foreign governments to 
enable the information sharing and the coordinating that allows 
us to get ahead of the Russian government's information 
operations. The GEC is also providing support to our missions 
abroad and our international partners for a wide range of 
efforts to counter the Kremlin's disinformation.
    These include supporting civil society groups in Central 
and Eastern Europe that build resiliency in their local 
communities. These also include running joint communications 
campaigns with allies to counter Russian historical revisionism 
and to empower fact-checkers in Latin America to stem the surge 
of Russian disinformation in that region.
    With increased funding, we intend to provide more of this 
type of support to additional allies and partners globally so 
that they can increase their own ability to resist these 
Russian tactics. The investments we have made have also allowed 
us to expose elements of the Russian government's information 
operations ecosystem. This exposure inoculates audiences 
against this threat, and it is critical.
    Now while Moscow wants to disrupt the current world order, 
the Chinese Communist Party seeks to shape it to Beijing's 
advantage. Beijing is pursuing a comprehensive and coordinated 
influence campaign to advance its interests and to undermine 
the United States. But when you take a closer look, it is clear 
that many of the CCP's actions in the economic, security, and 
human rights space are built on propaganda.
    The GEC's programs are focused on puncturing those false 
narratives. Our efforts to counter CCP propaganda include 
increasing awareness of the problematic aspects of the Belt and 
Road Initiative, increasing awareness of the problematic 
aspects of human rights abuses in Xinjiang and elsewhere in 
China, as well as Beijing's abuse of open research in academic 
environments to achieve its military objectives.
    We also have programs to build global resilience to PRC 
disinformation through media training and support to 
investigative journalists and to map PRC influence in the 
information environment to guide current and future approaches. 
Beijing also wants to shape third country perspectives of U.S. 
foreign policy. In order to restrict the space where CCP 
propaganda can take root, the GEC partners with our missions 
overseas on efforts that provide accurate information about 
U.S. policies and the contributions of U.S. businesses to the 
local communities.
    In all of this, our success depends on leveraging 
analytical tools as well as networks of credible partners and 
local voices overseas, capabilities we are refining and 
expanding each day.
    My team and I are committed to the mission that Congress 
has tasked to the GEC. In our modern age, the Russian 
government, the PRC, and other adversaries have clearly found 
ways to leverage new technologies to deepen and to accelerate 
the impact disinformation and propaganda can have. As has 
always been the case, free nations must unite and work together 
to defeat this threat.
    I am here today to report that we are making progress. We 
are building up the GEC's capabilities for crafting strategies 
tailored to the specific approaches of our adversaries. And 
most importantly, we are regaining the initiative.
    Again, thank you very much for the opportunity to testify 
here today. I truly appreciate the subcommittee's support for 
the GEC's mission, and I look forward to answering your 
questions.
    [The prepared statement of Lea Gabrielle follows:]

                  Prepared Statement of Lea Gabrielle

    Chairman Portman, Ranking Member Booker--Thank you for inviting me 
to testify before your Subcommittee about the Global Engagement 
Center's (GEC) work to lead and coordinate U.S. government efforts to 
counter state-sponsored and non-state propaganda and disinformation. 
This is an important topic with potentially grave implications to U.S. 
national security interests which this Administration is prioritizing 
confronting. I appreciate the Subcommittee devoting time to it.
    The GEC is dedicated to the mission of leading and coordinating the 
interagency to decisively expose and counter foreign state and non-
state disinformation and malign propaganda.
    Consistent with the FY 2017 National Defense Authorization Act, and 
in support of the President's National Security Strategy Information 
Statecraft efforts the GEC works to ``direct, lead, synchronize, 
integrate, and coordinate efforts of the Federal Government to 
recognize, understand, expose, and counter foreign state and foreign 
non-state propaganda and disinformation efforts aimed at undermining or 
influencing the policies, security, or stability of the United States 
and United States allies and partner nations.''
    We have the full support of Secretary Pompeo who is committed to 
deploying a broad suite of tools to stop America's adversaries from 
using disinformation, malign propaganda, and other tools to undermine 
free societies.
    Since I became the Special Envoy and Coordinator of the GEC just 
over 1 year ago, my team and I have made significant progress towards 
building international partnerships, executing dynamic programs and 
deploying robust analytical capacities globally to address the serious 
threats we face from malign influence and propaganda. To achieve this 
success, I have worked to ensure my team has the necessary tools and 
resources to do the job given to us by Congress.
    Although this hearing is focused on countering Russian government 
and Chinese Community Party (CCP) disinformation and propaganda, as 
well as propaganda from foreign terrorist organizations, the GEC also 
counters Iranian disinformation and I am happy to provide information 
on those efforts.
    At the State Department's Global Chiefs of Mission Conference last 
week I had the chance to speak with U.S. Ambassadors representing us 
around the world. I shared updates on our threat assessments and 
listened to their perspectives on how developments are playing out on 
the ground. We at the GEC recognize the crucial role that our Missions 
and Public Diplomacy Officers play as our representatives on the front 
lines of this information battleground. My teams are working with 
Embassies overseas daily to execute and coordinate activities.
    In my testimony today, I'll outline how we in the GEC view the 
disinformation the Kremlin and the CCP are propagating and what we are 
doing to counter each. I will also highlight how we use analytics and 
technology in our efforts, how we have approached resourcing issues, 
and the role of the GEC in coordinating a whole of USG effort to 
respond to foreign propaganda and disinformation.
                               the threat
    The intent, scope, and style of the disinformation and malign 
propaganda spread by the Kremlin and the CCP are distinct from one 
another.
    The Kremlin often swamps the media environment with a tsunami of 
lies. Outside of Russia, the Kremlin seeks to weaken its adversaries by 
manipulating the information environment in nefarious ways, polarizing 
domestic political conversations, and attempting to destroy the 
public's faith in good governance, independent media, and democratic 
principles.
    The Kremlin wants the world to think of Russia as the other global 
superpower, but those days are long gone. Lurking behind the Kremlin's 
bravado and rhetoric is a fundamental weakness across almost all 
measures of national power in Russia--a stagnant economy, a continuous 
brain drain, and a demographic shift that leaves the country vulnerable 
to its eastern neighbors.
    Another reason the Kremlin spreads its lies is to try to hide the 
truth of its activities to enrich a small circle of cronies at the 
expense of the welfare of the Russian people. As part of this effort, 
the Kremlin seeks to create a fictitious ``enemy''--the West more 
broadly, and the United States more specifically--of the Russian nation 
and Russian people, and to discredit the ``enemy's'' form of governance 
and actions at every turn in order to justify the system in place in 
Moscow and distract from any troubles inside Russia.
    The Russian government directs and supports these propaganda 
activities globally, but especially targets and seeks to nurture the 
most extreme or divisive elements of society in the United States, 
Europe, and other regions in which they operate. We see in many Western 
Hemisphere countries the same tactics used by the Kremlin and its 
proxies. These include cyber-enabled disinformation operations; 
propaganda campaigns that seek to rewrite history; coordinated social 
media swarms that inflame existing fault lines of societies, and an 
array of other actions that fall within the scope of their malign 
information operations.
    We have seen these tactics time and time again, from right here at 
home to the streets of the capital cities of our allies. The Kremlin 
does this to hide its own role in tragic events, such as the downing of 
Malaysia Airlines Flight 17 (MH17) and the nerve-agent poisoning of UK 
citizens in Salisbury, England. They do this in support of the 
murderous Assad regime by smearing credible voices on the ground in 
Syria with false information. They do this to prop up the regime of 
Nicolas Maduro in Venezuela and suppress legitimate democratic voices, 
and they do this in attempt to weaken solidarity within NATO.
    While the Kremlin seeks to chaotically disrupt the current world 
order to accomplish its goals, the CCP seeks to deliberately shape it 
to Beijing's advantage. Beijing is pursuing a comprehensive and 
coordinated influence campaign to advance its interests and undermine 
the United States. The CCP is employing a whole-of-government approach, 
using political, economic, military, and information tools to advance 
its influence.
    The CCP's propaganda apparatus is a critical component in promoting 
and maintaining the Communist Party's narrative domestically and 
globally. Its efforts to use censorship, intimidation, coercion, 
economic incentives, and propaganda to control the information space 
are a significant component of the CCP's attempts to expand its 
influence worldwide. This information control actively seeks to 
downplay concerns regarding the PRC's state abuse and surveillance of 
Tibetans, Uighurs and members of other ethnic minorities.
    It also seeks to downplay the risks of One Belt One Road Initiative 
projects, the dangers of CCP-entwined ownership structures like that of 
Huawei, criticism leveled against the PRC's provocations in areas like 
the South China Sea, and other examples which counter the pro-CCP 
narrative. Importantly, this effort to counter and silence criticism is 
paired with a push to portray the PRC as a benign, positive, and non-
interventionist power.
    CCP efforts to silence criticism can be seen in its influence 
operations targeting Hong Kong last summer. Twitter identified nearly 
1,000 accounts originating from within mainland China that were 
``deliberately and specifically attempting to sow political discord in 
Hong Kong, including undermining the legitimacy and political positions 
of the protest movement on the ground.'' This was one of the first 
times Beijing had been identified as using techniques to manipulate 
information across mainstream international social media platforms.
    Even more recently, the novel Coronavirus (COVID-19) outbreak in 
Wuhan, China also provides an example of how Beijing attempts to censor 
the sheer extent of this global public health crisis--from downplaying 
the number of casualties, limiting criticism of the CCP's response, and 
silencing Dr. Li Wenliang's initial red flags about the deadly 
outbreak. These actions underscore Beijing's sensitivity to being 
portrayed as anything other than a responsible actor at home and 
abroad.
    Over the last decade, the CCP has used its information tools to 
silence criticism and project a narrative favorable to Beijing and its 
interests. We know that the PRC spends billions of dollars developing 
and expanding its international information infrastructure and the 
global footprint of its state-run malign propaganda machine. The CCP 
also mobilizes front groups and leverages its economic influence to 
promote Beijing's global vision.
    These efforts include the CCP's attempts to leverage ties to local 
businesses and businessmen to gain political advantage with regional 
and national governments. As you may know, Secretary Pompeo just spoke 
at the National Governors Association about these concerns. As he said, 
``the Chinese government has been methodical in the way it's analyzed 
our system, our very open system, one that we're deeply proud of. It's 
assessed our vulnerabilities, and it's decided to exploit our freedoms 
to gain advantage over us at the federal level, the state level, and 
the local level.'' This is not just happening in the United States. It 
is a tactic they are using widely around the world, often employing 
corrupt, coercive, and covert methods to gain that advantage.
    Now, I will describe some specific examples of our work to counter 
Russian and PRC influence operations abroad.
                        overview of gec approach
    The GEC's approach to taking on these challenges is focused on 
building an international network of partners best positioned to 
counter malign influence operations emanating from Russia and the PRC.
    Broadly speaking, the GEC's initiatives include:

  1)  Deploying data analytics tools to provide early warnings of 
        foreign disinformation to our Allies, partners, and domestic 
        stakeholders;

  2)  Analyzing the attempts by our adversaries to target susceptible 
        foreign audiences and sharing that information with 
        stakeholders; and

  3)  Building the technical skills of civil society organizations, 
        NGOs, journalists, and other local actors best positioned to 
        shine a light on, and counter, the spread of disinformation.
                specific gec counter kremlin initiatives
    The GEC is actively working with Allies and partners in Europe to 
identify, recognize, and expose Russian disinformation, and to counter 
such disinformation with accurate messages about the United States and 
our Allies and partners in the pursuit of freedom, prosperity, and 
security.
    The GEC has been working closely with the U.S. European Command 
(USEUCOM) and the Bureau of European Affairs (EUR) and other partners 
via the Russia Influence Group on coordinated lines of effort to 
counter Russian disinformation, moving from ``studying'' the problem to 
actually ``addressing'' the problem.
    We have also partnered with select European partners to establish 
an operational working group that actively shares insights on Russian 
disinformation tactics and coordinates on countermeasures.
    The GEC has kicked off a number of initiatives related to Russia. 
These include:

  <bullet> A 2-year project to build resistance to disinformation in 
        the most vulnerable European societies by increasing direct 
        person-to-person engagement on this issue.

  <bullet> Creating strategic partnerships with foreign governments to 
        enable the information sharing and response coordination that 
        allows us to get ahead of Russian information operations.

  <bullet> The GEC is providing support to our missions abroad and 
        international partners for a wide range of efforts to counter 
        Russian disinformation. These include supporting civil society 
        groups in Central and Eastern Europe that build resiliency in 
        their local communities, running joint communications campaigns 
        with allies to counter Russian historical revisionism, and 
        empowering fact checkers in Latin America to stem the surge of 
        Russian disinformation in that region. With increased funding 
        we intend to provide these types support to additional allies 
        and partners so they can quickly and effectively increase their 
        own ability to resist these Russian tactics.

  <bullet> We continue to administer the Information Access Fund, 
        utilizing the authority provided by Congress in the FY 2017 
        NDAA, via a capable implementing partner. Working with an 
        established implementing partner allows the GEC to be faster 
        and more flexible in executing grants to respond quickly to new 
        priorities and opportunities as they arise.

  <bullet> The investments we have made have also allowed us to expose 
        elements of the Russian information operations ecosystem, 
        helping inoculate audiences against this threat.

    A good example of the synthesis of multiple lines of our effort 
came last fall, when we worked with other State colleagues and the UK 
and Baltic States governments on a joint campaign to celebrate the 30th 
anniversary of the Baltic Way, a milestone on the road to the breakup 
of the Soviet Union. We knew that the Kremlin was attempting to re-
write the history of this occasion. We worked with our partners to 
ensure that the truth was heard before the Kremlin could attempt to 
fill a vacuum with its messages. The GEC's ability to coordinate 
campaigns like this helps to drown out Russian propaganda and present a 
united front with allies.
                  specific gec counter prc initiatives
    The GEC has significantly expanded our work on the PRC problem set 
with programs to counter CCP influence over the last year. Not only do 
we compete in the information space in the East Asian and Pacific 
region, but our operations, activities, and investments are global in 
scope and continue to pick up momentum through FY 2020.
    Our approach and priorities are driven by our ongoing collaboration 
with the NSC and regional and functional bureaus, all of whom have 
identified specific priorities in efforts to counter CCP information 
operations. We routinely coordinate with the China Desk in the Bureau 
of East Asian and Pacific Affairs (EAP), regional and functional public 
diplomacy teams, our missions abroad, and relevant interagency partners 
to coordinate strategies and responses to this problem set.
    Beijing has used direct and indirect methods to invest heavily in 
the global information architecture, whether that's underground cables 
or media outlets in third countries. It has matched those investments 
with a willingness to use economic coercion and political pressure to 
silence criticism and promote a narrative of its inevitable rise with 
``win-win'' benefits for its partners.
    Our efforts to counter CCP propaganda include increasing awareness 
of the problematic aspects of the One Belt One Road Initiative, human 
rights abuses in Xinjiang and elsewhere in China, as well as Beijing's 
abuse of open research and academic environments to achieve its 
military objectives. We also have programs to build global resilience 
to PRC disinformation through media training and other support to 
investigative journalists; and to map PRC influence in the information 
environment to guide current and future approaches.
    Recognizing Beijing's efforts to shape third-country perspectives 
of U.S. foreign policy, the GEC also supports efforts to provide 
accurate information about U.S. policies and the contributions of U.S. 
businesses to local communities to restrict the space where CCP 
propaganda can take root. In all of this, our success depends on 
leveraging analytical tools as well as networks of credible partners 
and local voices overseas, capabilities we are refining and expanding 
each day.
                          analytics & research
    At the GEC, we have an emphasis on making sure we are data-driven. 
There is an increasing demand from our U.S. government and foreign 
partners for data analytics and targeted advertising technologies to 
counter propaganda and disinformation. To that end, the GEC created an 
Analytics & Research Team comprised of analysts, subject matter 
experts, and data scientists. I am pleased to report that the GEC's 
data-driven approach to understanding and addressing the problem of 
disinformation has been well received. The demand for GEC analytic 
support from the interagency community and our foreign partners has 
boomed.
    Today the GEC's Analytics and Research team enables the GEC with 
some unique capabilities, such as:

  <bullet> Capture disinformation-focused, threat-based analytics at 
        the unclassified level of any given information environment;

  <bullet> Discover coordinated adversarial campaigns;

  <bullet> Analyze public opinion outside of the United States.
                      information-sharing platform
    To support and enable our work, the GEC has also been hard at work 
building an online analytics and information-sharing platform. This 
platform provides the GEC, the U.S. interagency, and select foreign 
partners with the open-source tools and capabilities they need to 
understand how foreign adversaries are pushing disinformation and 
propaganda in their countries. The platform also enables a coordinated 
a response by international partners.
    The Analytics and Research team has deployed this platform to 
dozens of foreign partners in the past 6 months. It has also provided 
training on how to utilize the platform's tools so that our partners 
can conduct their own data analysis and identify disinformation and 
propaganda in their local environment. These partners are now part of 
our analytic community--a community which is building a shared 
understanding of our adversaries' malign influence efforts through 
shared analytical approaches.
    These capacity building measures enable a large number of our 
foreign partners to be increasingly self-sufficient and proactive in 
this fight, and that is no small feat. Recently one foreign partner 
used this online platform to analyze disinformation narratives in the 
lead up to their elections to help protect the integrity of their 
democratic process, a capability they did not previously have.
                               technology
    The GEC also has a Technology Engagement Team (TET) which is tasked 
with facilitating the use of a wide range of technologies and 
techniques in our efforts. TET does this by fostering the sharing 
expertise among federal departments and agencies, leveraging expertise 
from external sources, and implementing best practices.
    Since May 2018, the GEC has hosted 29 ``Tech Demos'' of more than 
62 technologies aimed at addressing the problems of disinformation and 
malign propaganda and tested over 124 technologies. The GEC has 
implemented a technology Testbed, which enables the rapid 
identification and testing of particular tools to identify and counter 
disinformation and propaganda campaigns. The Testbed runs structured 
short-duration experiments to understand potential tech uses against 
specific operational challenges. Consistent with the GEC's mission to 
coordinate efforts of the federal government in this area, the GEC has 
run tests in support of the Departments of State and Homeland Security, 
the U.S. Agency for Global Media (USAGM), the Census Bureau, and other 
U.S. government departments and agencies.
    To date, TET has evaluated and tested technologies including: 
blockchain-based content validation tools, counter censorship tools, 
web-enabled literacy training tools, dark-web monitoring tools, social 
listening tools, crowd-source content assessment tools, and web 
annotation tools.
    The GEC has also run Tech Challenges, whereby the GEC convenes 
workshops with international partners, foreign tech companies, and 
other stakeholders to understand, assess, and implement tech solutions 
tailored to local environments in foreign countries. In 2019, the GEC 
held a joint Tech Challenge with the UK where the GEC awarded a grant 
to a Czech-based data analytics company advancing our work with the 
UK's counter-Russia efforts. Just last month, the GEC held a similar 
Tech Challenge in Taipei, Taiwan and later this year, the GEC is 
planning a Tech Challenge in Nairobi, Kenya.
    The GEC has established the U.S. government's online repository for 
information about technologies for use against disinformation and 
malign propaganda, at www.disinfocloud.com. With over 335 government 
users currently, the GEC has brought together interagency partners, 
tech partners, private industry, and academics from around the world. 
In addition to U.S. government users, external pages have been viewed 
by audiences in more than 30 countries.
    Finally, in December 2019, the GEC deployed a full-time liaison to 
Silicon Valley. The TET's strategic focus on Silicon Valley engagement 
will accelerate the implementation of the Global Engagement Center's 
overall mission. The GEC's aim is to identify novel technologies and 
approaches, in close coordination with other USG-Silicon Valley 
relationships. This effort seeks to leverage and utilize respective 
technical capacities and information streams in order to accelerate 
momentum for solutions around countering malign propaganda and 
disinformation.
                               resources
    Fortunately, as we have made progress toward executing our mission 
we have also, in part, seen the GEC's resources increase in kind.
    In FY 2016, the GEC's base budget was approximately $20.2 million, 
in FY 2017 it was approximately $35.8 million, in FY 2018 it was 
approximately $55.3 million, and in FY 2019 it was approximately $55.4 
million. In addition to its base budget, the GEC received $20 million 
from DoD in FY 2018, and $5 million from DoD in FY 2019.
    In a tight Public Diplomacy budget landscape, the GEC's FY 2020 
budget has increased to $64.3 million which represents an incremental 
but significant increase of $8.9 million over FY 2019. With that said, 
the Administration is requesting a greater increase for the GEC budget 
in FY 2021 to a total request of $138 million to match the growing 
challenge of countering foreign propaganda and disinformation. The 
Administration's request specifically provides funding to alleviate the 
need for future transfers from the Department of Defense. We hope that 
Congress will support this requested increase in the GEC's budget for 
FY 2021.
    With additional funding, the GEC will be able to apply the best 
practices in countering Russian and PRC disinformation and propaganda 
from its existing programs and expand those effort to new countries and 
regions beyond where the GEC is already operating.
    Additionally, the GEC seeks to leverage the resources and expertise 
of other State Department bureaus, including EUR, EAP, the Bureau of 
Intelligence and Research (INR), the Bureau of Global Public Affairs 
(GPA), and interagency partners such as USAID and USAGM. For example, 
my team is also collaborating closely with the Bureau of Educational 
and Cultural Affairs (ECA) which receives direct appropriations for 
programs specifically designed to counter disinformation. The GEC also 
works closely with the Department of Defense's Combatant Commands and 
components to inform and leverage their information operations efforts.
    The GEC is seeing strong growth on the personnel front. In early 
2017, the GEC had a staff of approximately 83 personnel, a mixture of 
Civil Service employees, Foreign Service Officers, detailees, and 
contractors. Today, the GEC employs 118 personnel, a roughly 40% 
increase from the 2017 levels. The GEC is also currently in the process 
of recruiting and hiring Personal Services Contractors within budgetary 
constraints, an authority granted to the GEC by Congress in the FY 2017 
NDAA.
                     a whole of government response
    Before I conclude my testimony, it is also important to note some 
of the many other activities the U.S. Government undertakes in relation 
to the overall effort to counter foreign malign propaganda and 
disinformation.
    For example:

  <bullet> The GEC, in coordination with the Department of State, works 
        with Allies and partners to build collective resilience, share 
        best practices, and communicate and impose costs on actors that 
        carry out Russia's and the PRC's malign influence campaigns.

  <bullet> The Department of Justice has aggressively pursued cases 
        against PRC and Russian spies.

  <bullet> USAGM's mission is to inform, engage, and connect people 
        around the world with accurate, objective, comprehensive 
        journalism in support of freedom and democracy, which is 
        obviously a key component to all of this.

  <bullet> The U.S. Agency for International Development (USAID) 
        promotes informational integrity in its partner countries by 
        designing activities that enable access to credible information 
        and counter disinformation. USAID also supports objective, 
        fact-based media outlets, which produce credible news and 
        information, and advances initiatives which increase citizen 
        awareness of and demand for professional journalism, including 
        media literacy programs which increase resilience to 
        disinformation and propaganda.

  <bullet> The Department of State's suite of public diplomacy and 
        public affairs activities and programs convey truthful 
        information to foreign audiences daily about U.S. policies and 
        values.

  <bullet> The DoD conducts military information support operations and 
        promotes fact-based narratives about U.S. military activities.

  <bullet> The National Counterintelligence and Security Center (NCSC) 
        advises and informs decision makers about foreign intelligence 
        threats to the U.S. and, helps U.S. government partners to 
        identify approaches to counter those threats.

    This is just a sampling of the various efforts underway, and while 
a lot has been done, we can always do more.
    The GEC also spends significant time working to ensure that these 
efforts are well coordinated across the U.S. government interagency. 
Our coordination efforts are focused on ensuring U.S. government 
activities are complimentary and align with the overall U.S. strategy 
to counter propaganda and disinformation. To that end, the GEC is 
expanding its footprint of interagency detailees who work to ensure the 
U.S. government's counter disinformation efforts are streamlined across 
the interagency and duplication is minimized.
                               conclusion
    Both the Russian government and the CCP view censorship, media 
manipulation, and propaganda as appropriate tools to control public 
opinion. Both exploit open, democratic societies to further their own 
ends while tightening controls around their own countries.
    In our modern age, the Russian government and the PRC have clearly 
found ways to leverage new technologies to deepen and accelerate the 
impact these tactics can have. As has always been the case, free 
nations must unite and work together to defeat this threat to our 
societies and institutions, including by coming up with new and 
innovative approaches of our own, while building upon the lessons of 
prior generations of public servants who faced novel challenges of 
their own from America's adversaries.
    Like any of the world's great challenges, these ones are complex 
and constantly evolving, but I am pleased to report that we are making 
progress--in building up the GEC's capabilities, in crafting strategies 
tailored to the specific approaches of our adversaries, and, most 
importantly, in regaining the initiative.
    Working closely with the State Department's regional and functional 
bureaus and across the interagency, the Global Engagement Center is 
honored to have a key role in this important effort.
    Thank you for the opportunity to testify today, and I look forward 
to any questions you may have.

    Senator Portman. Thank you, Ms. Gabrielle, and appreciate 
your opportunity to share with us in more detail some of the 
things you have addressed in your opening statement.
    I have got three colleagues here, all of whom have 
scheduling conflicts, and a couple of Republicans I hope will 
be able to come back. So what I am going to do is just take a 
minute now and then have the opportunity to ask some more 
questions after they have a chance to ask theirs before they 
have to leave.
    And the one I want to talk about is coronavirus and that 
that is such a hot topic. In fact, in this very room, we had a 
hearing earlier today, a briefing I guess you would call it, 
with some of the nation's experts on the issue.
    There has been some discussion already in our opening 
statements about the fact that there is disinformation out 
there, unfortunately, including groundless conspiracy theories 
that are being promoted. And there is an analysis I saw that 
you all believe that there is ``evidence of inauthentic and 
coordinated activity'' concerning mostly the social media posts 
and tweets.
    Can you just briefly talk about the work GEC has done on 
this subject already, the spread of disinformation on the 
coronavirus and the conclusions you have come up with regarding 
the role of state actors and others in propagating these 
falsehoods?
    Ms. Gabrielle. Absolutely, and thank you for raising this 
important issue.
    The coronavirus is an example of where we have seen 
adversaries take advantage of a health crisis, where people are 
terrified worldwide, to try to advance their priorities. The 
GEC has a robust analytics and research capability, and we also 
work with partners so that we can use the highest level of 
technology and the latest data science tools to be able to 
assess the information environment. So we have been watching 
the narratives that are being pushed out, false narratives 
around coronavirus.
    Unfortunately, we have been able to assess that accounts 
tied to Russia, the entire ecosystem of Russian disinformation 
have been engaged in the midst of this world health crisis. One 
of the best practices in countering propaganda and 
disinformation is exposing it. So decreasing the 
vulnerabilities in audiences that are targeted and increasing 
their resiliency requires exposing examples of disinformation.
    This is an example where the GEC works with Public 
Diplomacy and Public Affairs at the State Department so that we 
could get the word out, and we actually engaged with a media 
organization to share some analysis that we had on what we were 
seeing in terms of coronavirus. We saw the entire ecosystem of 
Russian disinformation at play. Russian state proxy websites, 
official state media, as well as swarms of online false 
personas pushing out false narratives.
    Exposing it by working with the media has built awareness 
around this issue that there is a lot of disinformation, and 
right now, I hope that all actors will act in the most 
responsible manner to support people who are scared around the 
world in the midst of this crisis.
    Senator Portman. Thank you. Exposing it is obviously 
critical. Also providing the counter narrative, which is the 
factual narrative and the scientifically-based narrative.
    So we thank you for that, and again, we will have 
opportunity to talk more about that and other issues.
    Senator Booker.
    Senator Booker. I am just going to defer to Senator Murphy 
again and express my gratitude for his leadership on this and 
looking forward to hearing his line of questioning.
    Senator Murphy. Thank you very much, Senator Booker. Thank 
you to both you and Senator Portman for convening this hearing.
    And thank you, Ms. Gabrielle, for what I think has been 
very able leadership, and I congratulate you with a fairly 
skimpy budget having extended the reach of the GEC 
substantially during your time.
    Listen, we have been complaining forever about the fact 
that we are fighting asymmetric wars all over the world, 
predominantly with Russia. That is where you hear that term 
used the most, but with China as well. And of course, asymmetry 
is a choice, right? It is not an inevitability. We have made a 
choice over the years to not equip our forces and our foreign 
policy infrastructure overseas with the capacities they need to 
compete, and the GEC is an attempt to fill what for too long 
had been a vacuum, a vacuum on our side of the ledger with 
respect to the ability to fight and combat disinformation.
    And yet the reach of the GEC is, frankly, meager compared 
to the need that is out there today, and I am glad to see an 
increase in funding being proposed by the President and hopeful 
that we can get that through.
    Ms. Gabrielle, with respect to funding, I think it is 
important to note--and you can tell me if I am wrong--that the 
President's budget request is requesting funding within the 
State Department for the GEC. At the very beginning, we were 
forced to do a transfer of funds from the DoD to the State 
Department in order to get the GEC up and running, but that is 
a cumbersome process that is unnecessary given the fact that we 
now all agree on the efficacy of your work.
    So can you just speak to the importance of having the GEC 
funded through the State Department rather than through 
transfer funds?
    Ms. Gabrielle. Yes, Senator Murphy, and thank you very much 
for raising this important issue.
    The GEC is focused on our mission of countering foreign 
propaganda and disinformation. So what we are requesting and 
what is reflected in the President's budget request to Congress 
is an increase to allow us to expand the scope and the scale of 
our activities to counter foreign propaganda and disinformation 
and to bring all the different tools to bear and to focus our 
team on the mission rather on process.
    We truly appreciate the work from Congress on finding 
mechanisms to assist in providing funding for the GEC in the 
past. Over the past year, we have seen the process of trying to 
obtain funding from a different agency to be extremely 
cumbersome. Although we worked very closely with the combatant 
commands and have built very strong relationships with the DoD, 
we do assess that the best practice and the best process would 
be direct funding for the GEC at the State Department.
    Senator Murphy. So your report on coronavirus 
misinformation has gotten a lot of attention. I am glad that 
you have produced it. Tell us a little bit about your ability 
to be able to communicate with the social media companies that 
are transiting a lot of this information, whether you have that 
capacity today, whether that is something that you envision 
being able to do more robustly and more effectively with 
additional resources.
    Ms. Gabrielle. So I think it is important to understand 
that right now what we are seeing are these ecosystems where 
disinformation and propaganda is being pushed out across 
platforms. The relationships are very important, and we are 
working to build relationships. We have an LNO from the GEC now 
in Silicon Valley, and we are doing a lot of outreach with tech 
companies to understand some of the technologies that are being 
developed to counter propaganda and disinformation, but also to 
be able to have those open lines of communications.
    But I do want to be clear here. The GEC works for the 
American people. Social media companies are companies. So the 
GEC is going to be focused on best practices to serve the 
American people in countering foreign propaganda and 
disinformation.
    So sometimes that means sharing information. Sometimes it 
means exposure through the media. That relationship is 
important, but I am going to be focused on the best practices 
and not looking at any specific individual accounts, but rather 
the overarching principle of what is happening and how we can 
counter it.
    Senator Murphy. So I also have a question, and maybe I am 
bleeding into this question about sort of what lanes different 
parts of the Federal Government occupy here. And maybe you are 
starting to give me an answer to this question.
    There is this important question of identifying sources of 
propaganda, identifying foreign actors that are putting 
propaganda online. There are some platform companies that are 
more willing to take those actors off their platform. There are 
others that are not as discriminating.
    Are you saying that that is not primarily your role to 
identify those sources and have that communication with the 
platform companies, that there are other elements in the 
Federal Government that are better suited to do that?
    Ms. Gabrielle. I think the social media companies have a 
tremendous challenge with protecting their consumers in terms 
of what is happening on their platforms. But the point I am 
trying to make is that it is not just about the individual 
platforms. It is the overall big picture that we are seeing 
develop and how adversaries are using the social media 
landscape to push out false narratives.
    So we focus on--I think there is a misunderstanding out 
there about how to counter disinformation. There is an 
understanding that it is just taking down specific personas 
online or that it is point and counterpoint. And that is not 
best practices.
    The GEC has put a lot of focus on working with our partners 
in the interagency, in the intelligence community, our partners 
worldwide, working with the academic community to really 
understand how you do this. And it is about sensitizing 
audiences. It is getting out in front of the problem rather 
than reacting to it.
    Senator Murphy. And also trying to focus on sources rather 
than specific content, right? Because it is hard to chase one 
lie after another. You have to actually go after the source and 
expose the source as illegitimate or untrustworthy. Is that 
right?
    Ms. Gabrielle. That is correct.
    Senator Murphy. And then, lastly, tell me about the 
relationship with the different State Department posts, right? 
You have got embassies all over the world that have political 
officers that are also working on this question of 
disinformation, have relationships with local objective 
journalists who are trying to do the right thing.
    I imagine at current staffing levels, it is hard to be able 
to have a hand into all the embassies in the places that we 
care about on the periphery of China and Russia. Is that 
something that you can do more of with additional resources?
    Ms. Gabrielle. There is so much that we can do more of with 
additional resources. As my team has said to me, we would like 
to really get the ``G'' in the GEC, meaning global. So posts 
are critical. Working with regional bureaus is critical, and we 
have been doing a good job of that.
    Just to give you an understanding of sort of how the GEC is 
broken down, disinformation and propaganda is being used to 
undermine U.S. security and our best interests and that of our 
allies and partners worldwide every day, all the time. So we 
have to focus our resources on the adversaries that are having 
the most effect, and that is the way we have broken it down so 
far.
    So we have divided into threat teams. Russia, China, Iran, 
and we continue to stay focused on the violent extremist 
organization threat. And then we have also built cross-
functional teams. We have a tech engagement team that is out 
there working with tech companies to identify the best 
technologies being developed in this space to counter 
disinformation and propaganda.
    And what is very critical is we have an analytic and 
research team that supports all of the teams. This is where we 
can put a lot of resources to make sure that we are staying up 
with the latest technologies so that we can do those 
assessments of the information environment and apply those best 
practices.
    Our analytics and research team has around 25 data 
scientists who are experts in things like ad text, semantic 
text analysis, natural language processing, social media, and 
traditional media monitoring. They have all the tools. They 
know how to use the tools that are available on the market. 
They have also written their own algorithms and their own codes 
so that they can build programs that we can share with our 
partners and allies.
    Another thing that we have done is we have built the first 
of its kind--I think that noise may be my mic too far away.
    Senator Murphy. No, that is votes.
    Ms. Gabrielle. Something different? Okay. So that is votes, 
all right.
    So I want to talk about this information-sharing platform 
that our analytics and research team has developed. It is the 
first of its kind where we are sharing these tools and these 
capabilities to do analytics and research with our partners 
worldwide not just so that they can see our analysis and use 
our tools, but also so that they can be a force multiplier, and 
they can do their own assessments and be providing and feeding 
back into it.
    So this large coordination is a big part of what we are 
doing. Resources will help, and we definitely need to take this 
issue global.
    Senator Murphy. Well, I am grateful to do this work with 
Senator Portman. Thank you for his leadership, and thank you 
for being here at the hearing.
    Thanks, Senator Portman.
    Senator Portman. Thank you, Senator Murphy. We look forward 
to continuing this conversation in a minute, but those were 
really important points you raised.
    Senator Merkley.
    Senator Merkley. Thank you very much.
    And I wanted to get a better understanding of how much work 
you are doing in-house and how much work you are contracting 
out. Do you have a way of kind of employee equivalence or 
funding that goes outside, inside, so forth? Try and get a 
picture of how you are structured.
    Ms. Gabrielle. At the GEC, we have 118 people as of today. 
That is a 42 percent increase since we received the expanded 
mission in Fiscal Year 2017. But with this global problem that 
we are facing, I think it is clear that we have to be a force 
multiplier, and that is really what we aim to do.
    So since I have been onboard, I have been very focused on 
building a team with the expertise that we need. That means 
regional expertise, analytics and research expertise, people 
who understand information operations, people who come from an 
advertising background. So expertise in building the team has 
been critical.
    I have been focused on making sure that the team has the 
resources they need to be able to execute on this, and then we 
have been very focused on building a strategy. And our strategy 
really has three main lines of effort.
    The first one is to lead and execute countering propaganda 
and disinformation campaigns. So that is bringing into 
alignment what we are learning from the experts, what we are 
doing within the interagency, what we coordinate with the NSC 
from a policy perspective and other policy guidance, and then 
what we coordinate with our international partners. So really 
being a force multiplier and taking countering propaganda and 
disinformation campaigns globally.
    And then the other thing that we have been doing is we have 
been having the opportunity to put program funding where they 
can have high-impact solutions. So in building this big picture 
of essentially what everybody else is doing in this space, 
coordinating it, and bringing it into strategic alignment, we 
also can see where there is opportunities to have high impact, 
and that is where we put funding. And that is where we can work 
with third-party implementers who have unique expertise, 
ability, and know-how in different parts of the world.
    But I think to give you a picture, we really see ourselves 
as a data-driven mission center that should be energizing the 
network worldwide of our partners and allies that counter 
propaganda and disinformation.
    Senator Merkley. Okay. So my question was pretty simple, 
which was what proportion of your operation is in-house and 
what proportion is outside? And you have not answered that. Can 
you just give me an answer?
    Ms. Gabrielle. It is difficult to do an apples-to-apples 
comparison on that. Again, we have 118 people with a worldwide 
problem. So we are a force multiplier.
    I would say that the work that we are doing worldwide and 
working with our allies and partners is much greater than the 
sum of its parts.
    Senator Merkley. So your in-house vending, is it 20 percent 
of your budget? Is it 80 percent of your budget? Just trying to 
get a basic understanding here.
    Ms. Gabrielle. Well, the in-house spending, I want to get 
back to you with an exact number, but I would say it is closer 
to around 75 percent, maybe 70 percent. But I have to make sure 
that you understand, a big portion of this is creating those 
analytics and research capabilities.
    We are data driven. We do not want to be using anecdotal 
evidence to try to attack this problem. So to recognize, 
understand, expose, and counter foreign propaganda and 
disinformation, it starts with data. It starts with having the 
right experts in-house and having those capabilities to then 
drive and push out solutions.
    [The Committee Received the Following Response From Ms. Lea 
Gabrielle]

                    Response From Ms. Lea Gabrielle

    The GEC's total FY 2020 budget, which includes $5 million from the 
Counter Chinese Influence Fund and American salaries is $65 million. Of 
that amount, $50 million (77 percent is spent ``in-house'' and $15 
million (23 percent) is spent ``outside.'' ``Outside'' spending 
includes contracts with third party vendors but the majority of these 
staff work physically on-site at the GEC's offices in Washington, DC.

    Senator Merkley. So if I go back 2 years ago, it was 
reported that the in-house team that was working on Russian 
propaganda did not have any Russian speakers. I am guessing 
that by now that has completely been corrected?
    Ms. Gabrielle. Yes, it has.
    Senator Merkley. How many Russian speakers do you have now?
    Ms. Gabrielle. I want to make sure I get you a correct 
number, and we will make sure that we report back to you on 
that, but I know that my Deputy is a Russian speaker.
    [The Committee Received the Following Response from Ms. Lea 
Gabrielle]

                    Response From Ms. Lea Gabrielle

    The GEC currently has nine employees who speak Russian. It is 
important to keep in mind that the bulk of the Kremlin's disinformation 
is spread in languages other than Russian, to include English, French, 
German, Spanish, Serbo-Croatian, and Arabic.

    Senator Merkley. But if your team is working on Russian 
propaganda, are they all Russian speakers?
    Ms. Gabrielle. No, they are not all Russian speakers. And 
as a former human intelligence operative, I can tell you that 
oftentimes, when you are working in different environments, you 
use linguists and others to help you to understand the 
information environment.
    Senator Merkley. Okay. But you are able to get the talent 
you need? You are pretty satisfied that you have the--yes, 
okay. You can follow up and get me details on that, if you 
would?
    So, in 2019, one of the reasons I was asking about how much 
is done out of house is once you contract with outside groups, 
sometimes it is hard to keep control over exactly what they are 
doing. We had at least one case where I think things got a 
little out of hand with the Iran disinformation project and 
which they were putting out essentially disinformation rather 
than being the counter disinformation, including attacking and 
smearing some U.S. citizens.
    And I know you cut off funding to them, or your predecessor 
did. I am not sure just when you came in. Can you just fill us 
in a little bit on that, and how are you developing strategies 
so we are not funding groups that actually are engaged in 
disinformation rather than countering disinformation?
    Ms. Gabrielle. Thank you for raising that important issue. 
I was the special envoy and coordinator when that issue arose, 
and I will tell you that within hours of learning about the 
fact that one of our implementers had gone outside the scope of 
their agreement--it was never intended for them to be 
addressing U.S. domestic audiences. As soon as we found out 
that they had gone outside the scope of the agreement, I 
immediately suspended that particular project. And then we 
conducted an internal review and ultimately decided to end that 
contract--to end that agreement.
    We did have some lessons learned from that. We have teams 
monitoring social media of our implementers. I have been very 
focused on implementing measures of effectiveness and 
monitoring and evaluation in all of our programs. We have an 
M&E team.
    We follow the latest research as we are approaching these 
problems so that we can make sure that we are using respected 
organizations that are vetted. We have a vetting process at the 
State Department, and we have regular oversight as well as 
reporting from each of these organizations. So we have a very 
robust effort to put in place to make sure that any 
implementers are staying within the scope of work and that they 
are properly spending taxpayer dollars. That is critical.
    Senator Merkley. Thank you.
    I am down to 30 seconds. So I wanted to ask you in regard 
to the specific efforts of Russia to spread the disinformation 
on the U.S. regarding the coronavirus that came out of our lab, 
you mentioned that there was a lot of messages being generated. 
How much are they now using people in buildings to tweet?
    How much of those messages are being generated by botnets? 
What are we seeing in terms of the pattern of the technology 
they are employing?
    Ms. Gabrielle. What we are seeing, as I mentioned before, 
is an entire ecosystem. So if you look at the spectrum of 
Russian disinformation, it includes Russian state-funded media, 
official accounts, proxy news sites that spin conspiracy 
theories under the guise of journalism, and then legions of 
false social media personas. Many of those were not bots, but 
we saw thousands pushing out false information.
    Senator Merkley. Thousands of people or false----
    Ms. Gabrielle. False personas.
    Senator Merkley. That were not bots. So they were people 
generated? Okay. So we are seeing more reliance on human 
operations than on botnets in this regard?
    Ms. Gabrielle. It continues to be a mix.
    Senator Merkley. Okay, thank you.
    Senator Portman. Thank you. Senator Booker.
    Senator Booker. Thank you, Mr. Chairman.
    First of all, thank you. I cannot express to you the kind 
of patriotic duty you are doing in our country, and as this 
whole area was not even imaginable 10 years ago, I am very 
understanding that this is something that we are all continuing 
to learn.
    I have friends who founded some of these companies that you 
are working closely with, and a lot of things are moving fast. 
The challenges are oncoming, the developing and the like, and 
your presence, your leadership, your dedication, your 
commitment is incredible.
    I just want to get to some specific understanding. So the 
report that you have on the coronavirus specifically, you did 
not make that public. Is there classified data in there? Is 
that what was a concern?
    Ms. Gabrielle. We have done a number of reports on 
coronavirus that are intended to inform our partners and our 
allies, both inside the interagency as well as the IC, as well 
as our partners worldwide, on what we are seeing around false 
narratives. Sometimes it makes sense to share those reports, 
and sometimes it does not. Again, this goes back to best 
practices.
    I think the reports that you have been referencing, there 
are some that have been out in the press. There was an alleged 
report that was leaked to the media. I have not seen what it is 
that they are talking about, but it does talk about some of 
what we have been seeing.
    The reporting I have seen accurately depicts what we have 
been seeing. We did actually share one of our analysis, one of 
our report analysis with a media organization, specifically 
around Russian disinformation and the narratives that we have 
seen, and that was specifically to address our best practices 
in countering disinformation, which is exposing it.
    Senator Booker. And I guess that is my point. If we are 
trying to expose this, would it not make sense for all the 
reports, unless there is some kind of classified information, 
you are trying to protect sources, methods, et cetera, why not 
get that information out there? Does that not help to discredit 
the activities, in and of themselves?
    Ms. Gabrielle. I think what is important is exposing and 
showing enough supportive data or supportive analysis to expose 
the problem. But what we do not want to do is we do not want to 
share our tradecraft with our adversaries.
    Senator Booker. And therefore, you are saying to me that 
the reports that you and I are talking about that are not 
public, were not intentionally public, have tradecraft in them 
that we want to protect?
    Ms. Gabrielle. That is true. And I am not saying that it is 
classified tradecraft, I am saying this is methodologies that 
we have been developing. We have intentionally made a lot of 
these reports at an unclassified level so that we can share 
them with our partners and allies, which is important in 
exposing.
    But the zeroes and ones of how we are doing the work, that 
is not important in terms of best practices in countering 
disinformation and the exposure we are trying to do, and we do 
not want to give our adversaries the opportunities to get ahead 
of us.
    Senator Booker. I respect that. And so do you see it as 
part of your mission, though, in releasing information that you 
are trying to dispel it, undercut it, kneecap what is going on 
out there?
    Ms. Gabrielle. Best practices are not point/counterpoint. 
It is rather to decrease vulnerability and increase resilience 
by exposing. That is what we are trying to do.
    Senator Booker. Forgive me for interrupting. So, yes, I 
understand. I get that. But I guess also with this specific 
challenge of the coronavirus, there could be that dual purpose, 
right? Best practices helping to empower other folks, but when 
you are exposing this, it diffuses the strength of the 
misinformation as well. Am I correct?
    Ms. Gabrielle. That is correct, and that is exactly why we 
did it.
    Senator Booker. Thank you. And to the extent that you are 
seeing this, you said here, which was one of my first questions 
is that specifically the Russians and their growingly 
sophisticated networks are trying to put out disinformation 
about the coronavirus that puts our country and our people at 
risk. Is that correct? Definitively correct?
    Ms. Gabrielle. We saw the entire Russian ecosystem of 
disinformation pushing out false narratives around coronavirus. 
That is correct.
    Senator Booker. And you have released that officially in 
your reports?
    Ms. Gabrielle. We have shared the analysis of one of those 
reports with a media organization who accurately reported on 
that. We have answered questions that were provided to us 
through Public Diplomacy and Public Affairs. I think it is well 
known at this point that there are false narratives out there 
around coronavirus, and that is very helpful for people who are 
scared right now in the midst of this crisis to understand that 
they need to go to accurate sources of information, like the 
World Health Organization and the CDC, for the accurate 
information on how to protect themselves.
    Senator Booker. Right. And then I guess this is a big 
frustration I have is that we still have people in positions of 
authority in our country that are denying the growing 
sophistication of the Russians and their ecosystem, as you call 
it, which seems to give strength to them if we, in ourselves, 
are denying that the Russians are doing this kind of activity.
    Is my concern that Government officials would be denying 
the strength, sophistication, the ecosystem, as you put it, 
that the Russians are using to try to undermine, whether it is 
this or election security, is that not problematic in itself? 
If the goal, as you said, is to diffuse this by exposing it, to 
have counter narratives coming from positions of authority, 
denying that the Russians are even doing this kind of activity, 
does that not just again make us more vulnerable and muck up 
the water, so to speak, with us, our ability to expose and 
diffuse those very Russian activities?
    Ms. Gabrielle. I can only speak to what I have seen and the 
support I have received. And I have seen full support from this 
administration to the Global Engagement Center and its efforts 
to counter foreign propaganda and disinformation reflected by 
the $138 million budget request to Congress, which I truly hope 
Congress will support, sir.
    Senator Booker. I appreciate that. And clearly, I do not--
as a representative of the Administration, I do not expect you 
to say specifically. I just was saying to talk about any--this 
Administration specifically, allow me to do that, I have no 
problem.
    But I am just saying to you as an actor, it is problematic 
if positions of authority are undercutting the very point that 
you have made, which is that this is a threat to the United 
States that the Russians are growing in sophistication. They 
have established an ecosystem.
    That, in itself, in an academic way is a simple yes or no 
question. It is very problematic, yes or no, if we as a country 
are speaking with multiple voices, some saying that this is not 
a problem, that they are not doing this, and others are? It 
only gives strength to the Russians themselves. Is that 
correct?
    Ms. Gabrielle. The Kremlin's goal is to separate and divide 
us. It is classic subversion. So the more we can all work 
together, bipartisan, nonpartisan, working together on 
countering propaganda and disinformation, the better we will be 
as a country.
    Senator Booker. Hallelujah, amen. That is exactly what 
their tactic is, which is to try to divide us, to try to 
undermine our trust of our agencies, trust of our intelligence 
apparatus to directly approach this, and it is very frustrating 
to me when you see folks that should be working in tandem 
publicly giving the same message undermining this--the truth 
and this simple truth that you are putting forward there, and I 
appreciate that response.
    And I will yield to my chairman here, who has a much better 
haircut than me.
    Senator Portman. Well, first of all, it was dark hair 
before I got involved in this issue, disinformation.
    Senator Booker. Well, Mr. Chairman, I used to have a big 
afro, as I was saying earlier behind there, too. So I pulled 
all mine out.
    Senator Portman. Yes. Listen, I am very encouraged with 
what I hear today, and I want to thank you for coming. I am 
going to follow up on a few issues, but I think Senator Booker 
is correct that the more information we can get out there, the 
better, in the context of coronavirus as to what some of the 
false narratives are. The exposure is part of the best 
practices you talked about.
    And by the way, we have done it this morning. And what you 
said this morning is pretty powerful. What you have not done is 
provide any specific examples. There was a mention earlier of 
Bill Gates. I am not sure people understand what that meant, 
but I will give you a chance, if you would, to just play out 
maybe one or two of these false narratives that have been out 
there with regard to coronavirus, so people can be aware of 
them.
    Ms. Gabrielle. I want to be careful with my words here 
because repeating false narratives actually reinforces them. We 
have learned from social science that oftentimes people believe 
the first version of a story that they hear, and then it is an 
uphill battle to undo that.
    If you would like for me to identify certain disinformation 
narratives, I can. I would prefer not to.
    Senator Portman. Okay. Well, let me do it since it was 
mentioned earlier, which is that somehow Bill Gates and his--
and some lab started the coronavirus, which is an absolute 
falsehood, and there is absolutely no basis for it. Since it 
was mentioned earlier, I wanted to clarify that.
    But that is an example of the kind of thing that for the 
person watching today who is not an expert on what 
disinformation and propaganda means, that is an example of 
something that is meant to try to divide us. You mentioned 
polarization earlier. We are already a polarized country in so 
many respects, to further polarize us and to create, as you 
said earlier and my colleagues have said, distrust in our 
institutions, particularly our institutions of government here 
in a democracy like ours, so where that is so important.
    So I think your role is incredibly important. You know, we 
talked a lot about the budget, and I just want to put a finer 
point on that, if I could. My understanding is that you 
requested $76 million and were appropriated $60 million for 
this fiscal year, and now you are asking for $138 million, 
which is, again, more than a doubling of what you are currently 
receiving.
    Fiscal discipline is important, but when you look at the 
mission and the importance of this mission and the fact that, 
increasingly, as a former military officer yourself, 
increasingly, our battle is not kinetic, it is, as some say, 
hybrid. But specifically, it is this battling of 
disinformation.
    So my hope is that we can support the mission more strongly 
and be sure it is spent wisely. And I think Senator Merkley's 
question to you is an important one, to be sure that we do not 
have contractors who are misrepresenting what you want to do, 
and I am glad that you acted quickly with regard to the Iranian 
issue that had been in the media.
    But if you could talk just a little more about our new 
approach here. The DoD transfer to you we thought was necessary 
to, frankly, get you up and going and to kick start. I agree 
with what you have said today and what was implied at least by 
what Senator Murphy said that that was not a successful 
endeavor.
    It took, frankly, too much of your time and other people's 
time to try to work through the bureaucracy and the red tape, 
despite the fact that the Secretaries of Defense were always 
supportive, when they talked to me at least, and they were, I 
believe. But it took a while for the bureaucracy to respond to 
that, and also that your Secretary of State right now, 
Secretary Pompeo, and his previous Deputy, Deputy Secretary 
Sullivan, and current Deputy, Deputy Secretary Biegun, are very 
supportive. And I think that is why you see these bigger 
numbers being requested.
    So we do not want to go back to the DoD focus. What we do 
want to do is be sure that we can justify the budget increase 
that you are asking for. So what would you say is the best way 
to do that?
    You have a mix of Foreign Service officers, civil servants, 
contractors, some folks, we understand, are interagency 
detailees. You have got to have technical experts, as you 
talked about, who can do these algorithms, and these are highly 
paid individuals because you have got to get them from the 
private sector. I am sure you cannot compete directly on a 
monetary basis, but they are probably happy to serve their 
country in this respect.
    What would you think is the main reason that we need to 
more than double the budget?
    Ms. Gabrielle. There is a very simple answer, and it is 
because we need more of everything to be able to execute this 
mission on a global scale. So I think you are wanting some 
specific examples of initiatives, and I will go further. I 
think that we need to be focused on the continent of Africa, 
and we should be shifting some focus there. We are seeing 
Russian disinformation campaigns on the continent. We are also 
seeing Chinese malign influence there.
    We have programs ready to go that could build capacity that 
work with local leaders across the board. We just do not have 
the resources to do that right now. We have got to continue to 
stay ahead in terms of the capabilities out in the tech 
industry.
    Some examples of initiatives that we have are we plan and 
implement coordinated campaigns. That takes sending people to 
travel, building partnerships with other countries. It 
sometimes means bringing funding to the table and being able to 
lead on those initiatives.
    We are developing repeatable tradecraft that we can share. 
I mentioned this platform, this online information-sharing 
platform that we are sharing with partners now as worldwide. 
That is critical.
    We are conducting analysis to understand and craft 
solutions to be data driven in this approach. That takes money. 
Our analyzing the attempts of adversaries. Again, those tech 
solutions take money.
    And then here is another place that it is really important. 
Supporting those non-U.S. Government efforts on the ground who 
have unique expertise in their regions to understand the 
problem and to push back with effective solutions. It all takes 
money. We have got to put the ``G'' back in the GEC and make it 
global.
    Senator Portman. Well, I think that is very helpful to have 
that list of specific priorities and initiatives that do 
require resources. And one I will add that you mentioned 
earlier is to be proactive, and I think this is something that, 
as you said, is consistent with best practices. It is also 
going to require some resources and not always U.S. Government 
resources, as you have indicated, including enlisting our 
allies, partners.
    We talked about journalists earlier and objective 
professional journalists to counter. So I think getting ahead 
of the curve is more important than ever.
    Thank you for mentioning Africa. I could not agree with you 
more. A trade agreement with Kenya, keeping some troops there 
to help the French and others in West Africa, this issue. I 
mean, I think there is a lot we can do right now with Africa to 
counter what is clearly a target for other actors, including 
Russia and China.
    My final question has to do with keeping us up to speed. 
There was a briefing recently that was conducted with 
congressional staff, and this hearing itself is really an 
opportunity for you to brief us. We would like to do more of 
that, and I think, honestly, if we had done this a couple of 
years ago, it would have been difficult because you did not 
have your feet under you at that point. You did not have the 
resources. You did not have the personnel, and it takes a 
little while to get the organization up and going.
    You are now up and going, obviously, with some interest in 
growing further. But would you commit today to continuing to 
send your staff up here on a more regular basis to consult with 
and brief interested staff and members and share the analysis 
of what you are doing?
    Ms. Gabrielle. Absolutely, Senator. I can tell you that my 
staff tremendously enjoyed the opportunity recently to come up 
and brief. We are very proud of the work we are doing, and I 
think it is a wonderful opportunity to interact and also to 
highlight the great leadership and the great thinking that is 
coming from my team at the Global Engagement Center.
    Senator Portman. Excellent. Senator Booker, any other 
questions?
    Senator Booker. I just want to dig into Africa for a 
second. Just your general strategic approach. And by the way, I 
think that that was a great testimony to the need for more 
resources, and from what I have been reading, the expansive 
attempts of Chinese and Russians on that continent to engage in 
I think the global science term is ``mishegoss'' there.
    So can you just give a little bit more description of your 
strategic approach to that problem?
    Ms. Gabrielle. I can tell you that this is a perfect 
example of where we really need more resources. Right now, we 
are launching a program that networks international China 
experts with local African voices to exchange insights and 
better understanding of CCP influence operations in Africa.
    We are also really emphasizing technology. So we actually 
are sending a team to Kenya in a couple of months for what we 
call a ``tech challenge.'' It is where we are convening tech 
experts, local government experts, NGOs, as well as members of 
our team, to look at and assess different technologies that are 
being developed on the continent that counter propaganda and 
disinformation.
    So it not only serves to provide an opportunity to give a 
little bit of funding to some of those companies that are 
trying to make their technologies work, and that could be 
effective in this space. But even more importantly, it is 
important in building resiliency and decreasing vulnerability 
in the populations by exposing them and bringing them together 
as a community of interest on this challenge.
    But there is so much more that we could be doing, and so 
that is why I think it is really important that we have the 
funding and the direct funding that we are requesting.
    Senator Booker. And besides China and Russia, are there 
other sort of powers that are at work there?
    Ms. Gabrielle. Well, of course, we can never take our eye 
off of violent extremist organizations and the terrorist 
threat. One of the ways that the GEC has really been executing 
on its mission is in the CT space. So I am a co-lead on the 
Communications Working Group of the Global Coalition to Defeat 
ISIS, and my team has built a resiliency campaign to counter 
ISIS ideology in the core that we have worked through the 
interagency. It has been supported by the NSC, and we have now 
taken it to the Global Coalition, working with S/SECI to 
sensitize the 82 members of the Global Coalition on this 
campaign to bring us all into strategic alignment.
    This campaign would start in the core, but then it can also 
be applied to places in Africa where we are seeing the CT 
threat become hotter. So I think we have to continue to keep 
our eye on the ball. There is a number of threats there. China 
and Russia, of course, are at the top and as well as the 
violent extremist organization threat.
    Senator Booker. And the last thing real quickly, the power 
of diversity--I have seen this here in the Senate--how are you 
doing? Senator Menendez, Senator Cardin, and I have been 
talking a lot about diversity in general at the State 
Department.
    But I would love to see some numbers as you build up your 
team about gender and race diversity in your department, and 
frankly, I just know from watching folks trying to deal with 
the misinformation on social media that might be targeting 
certain groups that having diverse staff with lived experiences 
can often pick up and notice things that others cannot.
    Ms. Gabrielle. I agree with you that diversity is very 
important. Bringing a number of different ideas, expertise, 
backgrounds to this is critical. I talked about the different 
levels of expertise that we have, and I know I have made the 
GEC more diverse as its leader.
    Senator Booker. Great. Well, I would love to, if you can, 
help me get just a picture of where you are--you are probably 
not prepared to do that right now--on race, gender diversity 
within your agency, as well as religious diversity as well.
    Ms. Gabrielle. We would be happy to share that information 
with you.
    [The Committee Received the Following Response from Ms. Lea 
Gabrielle]

                    Response From Ms. Lea Gabrielle

    The following information reflects diversity information about the 
State Department direct-hire employees working in the GEC. There are a 
significant number of contract personnel, detailees, and liaison 
officers from other agencies who work for the GEC and for whom we do 
not have demographic data and they are therefore not included. 
Similarly, the Department does not collect religious affiliation 
information about its staff and so none can be provided in response to 
your question:
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]



    Senator Booker. Thank you very much.
    Senator Portman. Again, I really appreciate your being here 
today, and it was reassuring to me. One of the challenges that 
I think is apparent to all of us from hearing you today is you 
have a very broad mandate, and the mission is critical. The 
resources are limited. And thus, having performance measures 
and understanding what the mission is, is important.
    I am not going to ask you today to give us your specific 
measures of effectiveness, but that is something I would like 
to follow up on and just be helpful to you, including if we 
need to do anything on the legislative side in terms of 
reauthorization of GEC as, you know, how can we really focus on 
and target what is essential, given the broad mandate.
    So thank you much, and we will stay in touch.
    Senator Booker. And I just want to echo and just say thank 
you again. You are literally trying to do a startup operation 
in a sense, learn to build a plane and fly it at the same time. 
So I am just grateful for your commitment to country and the 
patriotism you have shown throughout your entire career.
    Thank you very much for being here with us today.
    Ms. Gabrielle. Thank you very much. I am so proud of my 
team and the work they are doing, and we truly thank you for 
this opportunity.
    Senator Portman. Thank you, Ms. Gabrielle.
    We will go ahead with our second panel now. We have two 
experts, as I say, who are going to join us, and I will let 
them come up to the front.
    First, we have Mr. Daniel Blumenthal. Mr. Blumenthal is the 
Director of Asian Studies and a resident fellow at the American 
Enterprise Institute. As I said, he has testified before 
Congress before on this topic, and we are impressed with his 
testimony.
    And then Dr. Alina Polyakova. Dr. Polyakova is president 
and CEO of the Center for European Policy Analysis. Again, she 
is a true expert in this area. I had the opportunity to see her 
in action at the Munich Security Conference, talking to some of 
our international partners and NGOs.
    With her today is her mother, Irina. So I want to recognize 
you as well. I know you must be very proud.
    Senator Booker is going to join us in a second. He has seen 
the testimony. So I am going to ask you all to go ahead. Your 
written testimony will be printed in the record in its 
entirety. So I ask you to keep your oral testimony under 5 
minutes, and then we will have chance for some give-and-take.
    And I will ask Mr. Blumenthal if you would go first?

 STATEMENT OF DANIEL BLUMENTHAL, DIRECTOR OF ASIAN STUDIES AND 
 RESIDENT FELLOW, AMERICAN ENTERPRISE INSTITUTE, WASHINGTON, DC

    Mr. Blumenthal. Yes, absolutely. Thank you, Senator Portman 
and Senator Booker, when he comes back, for holding this very 
important hearing.
    As you have heard, the disinformation, censorship, and 
propaganda threat is one of the greatest challenges we face. I 
think when you are talking about China and the Chinese 
Communist Party, you have to put it under the rubric of China 
is committing and engaging in political warfare against us, and 
information, disinformation, and censorship are one key pillar 
of that political warfare. They have been doing so for many, 
many years, and we have just started to engage that fight. 
Political warfare meaning trying to undermine our position in 
the world, our alliances, our own democratic system through all 
means other than actual military warfare.
    As I outlined in my written testimony, there are an 
unbelievable number of organizations in China that are involved 
in propaganda, censorship, harassment of media, Western and 
internal. At least 10 that I mentioned and even more than that. 
That is all to say that it is a feature of the Chinese 
Communist Party system. It is not a bug. The system is built on 
lies and is afraid of the truth.
    So the truth, even when it comes to talking about the 
coronavirus, part of the reason I think that we are facing a 
greater virus is because there was a coverup in China for a 
matter of almost 2 months. And as we now know, people who try 
to tell the truth in China, doctors and journalists and so on, 
were punished, detained, and arrested.
    China goes after these people because the Chinese Communist 
Party cannot live with the exposure of any kind of 
mismanagement or corruption or injustice. But the entire 
panoply of Chinese activities in the censorship space is just 
humongous. So they go after Western media. As we have seen 
recently, they have kicked out Wall Street Journal journalists 
who were--because of an op-ed that they did not like that was 
on the Wall Street Journal opinion page.
    They have recently arrested the Hong Kong tycoon and 
freedom fighter Jimmy Lai because of an op-ed he wrote in the 
Wall Street Journal recently. I guess if you want to stay in 
China, do not write an op-ed in the Wall Street Journal is one 
lesson.
    So that is on the media. In my testimony, I would say China 
has an innovative strategy because of the lure of the market to 
shut down the free speech of Westerners. So if you look at the 
case this year of the National Basketball Association, if you 
look at the case of Hollywood, there are at least six more 
organizations in China that censor content coming from 
Hollywood, and the themes are very clear.
    Americans probably know very well that they have never seen 
a Chinese villain in a Hollywood movie. The themes are always 
the U.S. is decadent and cowardly and does wrong in places like 
Africa and so forth, and the Chinese are brave and ascendant 
and so forth.
    There are, again, probably 16 organizations that go through 
the content of movies in China before they are allowed to be 
shown. So the free speech rights, they are trying to block 
access to the market and shut down people's ability even to say 
things like we support the Hong Kong protests.
    As I say in my written testimony, Taiwan has been ground 
zero in terms of attempted election interference. But Taiwan 
actually fought back and gives us good lessons. It fought back 
in working with social media, in sending out memes right away, 
humorous memes to combat the kind of disinformation they were 
putting out.
    Of course, the Taiwanese people went to the polls and 
resoundingly voted for the party that China did not want to 
elect. So a lot of lessons to be learned there.
    In terms of what we should do about all this, I think we 
got some of it. But I would add that we need to be more on 
offense. So we obviously need to continue doing what we are 
doing and treating Chinese media personas as foreign agents 
because that is what they are. There is no free media. They are 
foreign agents of the Chinese Communist Party. We need to keep 
kicking them out and putting caps on them and making them 
register as foreign agents.
    But we could do a lot more offensively in terms of going 
into China with Mandarin speakers, telling our story, telling 
the story of successful places that are like Taiwan that are 
Chinese language speaking and culture that are democratic. 
Putting China more on defense because the people of China are, 
from what we know, extremely fed up with the rule of the 
Chinese Communist Party.
    We need to engage in political warfare in a much more 
robust fashion. I would love to see us go back to some kind of 
organization that the GEC could lead, like the USIA that we had 
in the Cold War, that actually creates a cadre of information 
warriors whose entire job it is, their entire network, their 
entire career path is in this space and engaging the fight 
against China and, of course, Russia and other places. And see 
their role and their job and their career paths developing into 
information warriors, information operators, taking it out of 
the realm of the military and putting it at the State 
Department.
    [The prepared statement of Mr. Blumenthal follows:]

                  Prepared Statement of Dan Blumenthal

    Senator Portman and Senator Booker, members of the committee, thank 
you for your attention to this very important topic. Unfortunately, 
even as we speak we are witnessing the very real costs to global public 
health and safety of China's system of disinformation and global 
censorship efforts.
    We must ask ourselves: How much more widespread is the coronavirus 
because of China's censorship? We know that Li Wenliang, Xu Zhangrun, 
Chen Qiushi, Fang Bin and countless other doctors, journalists, and 
activists who spoke out and tried to tell the truth about the 
seriousness of the virus and inept response were silenced, arrested and 
intimidated.
    Not only did the CCP silence the truth, it also pushed false 
narratives about an influenza epidemic in the United States, criticized 
the United States for ``[creating chaos] and [spreading] fear with 
travel restrictions, and lied about hospital construction.\1\ 
Authorities have shut down WeChat groups and social media discourse, 
punished individuals, and removed articles that portray the government 
response in a negative way.\2\
    The recent response to the virus shows us that censorship and 
disinformation is a ``feature'', not a ``bug,'' of the CCP's system of 
government. A war on the truth is a central pillar of the CCP's 
strategy for survival. Let me try to illustrate by naming just a few 
organizations tasked with censorship within China: \3\

  1.  The General Administration of Press and Publication (GAPP)--GAPP 
        drafts and enforces restraint regulations.

  2.  State Administration of Radio, Film, and Television (SARFT)--
        SARFT controls the content on radio, film, and TV aired in 
        China.

  3.  Ministry for Information Industry (MII)--MII regulates the 
        Chinese telecommunication, software industries, and Internet 
        related services.

  4.  State Council Information Office (SCIO)--SCIO promotes Chinese 
        media to a global audience and is also responsible for 
        restricting news that is posted on the Internet.

  5.  Central Propaganda Department (CPD)--CPD is the Party organ that 
        works with GAPP and SARFT to monitor content.

  6.  Ministry of Public Security (MPS)--MPS monitors and filters the 
        Internet and punishes and detains those who speak out.

  7.  General Administration for Customs--Customs collects books, 
        videos, and other information that China does not want in its 
        borders.

  8.  State Secrecy Bureau (SSB)--SSB enforces state secrecy laws, 
        which are often used to punish individuals who write 
        undesirable content.

  9.  Judiciary--The Judiciary does not play a direct role in enforcing 
        censorship, but it ultimately convicts and hands out the 
        sentences for those arrested on censorship related charges.

    As you can see, the CCP has constructed this massive propaganda and 
censorship apparatus because it considers the truth to be dangerous. It 
does not want its citizens to know the extent of its corruption, its 
repression, its mismanagement of the economy, and of crises such as the 
current virus, bird flu in 1997 and SARS in 2003.\4\
    And, it seeks to shut about the true nature of democracy and 
freedom in places like Taiwan or here in the U.S. It relies upon its 
massive ``lie-producing apparatus'' in attempts to rally the party 
cadre and the people to support its plans to ``rejuvenate China and 
march toward the center of geopolitics,'' or in other words, to take 
back its perceived ``rightful'' place as the world's leading power. 
This requires a narrative that the U.S. is an enemy that must be 
brought down.
    Under Xi Jinping this has all gotten much worse. In February 2016 
on a tour of Chinese media outlets, Xi announced ``all the work by the 
party's media must reflect the party's will, safeguard the party's 
authority, and safeguard the party's unity.'' \5\ The job of Chinese's 
media is not to inform the public and search for the truth. Rather, it 
is to ``report'' stories favorable to Xi and the party and censor those 
that are not.
                      ``controlling'' the internet
    PRC censorship efforts can be highly effective. There are two major 
internet censorship programs: The ``Great Firewall'' and the ``Golden 
Shield'' program rapidly censor internet content produced within the 
PRC. The PRC seeks to assert new state prerogatives in the information 
domain, such as ``internet sovereignty'' and ``data sovereignty.'' The 
PRC has also proposed an International Code of Conduct on Information 
Security (with the support of the Russian Federation) to the United 
Nations that would put states in control of the Internet. These changes 
would significantly enhance the effectiveness of PRC control of the 
Internet.
                         the ccp and the media
    Chinese media portrays specific criticism that the West has, such 
as on human rights issues, as being ``anti-China,'' as if a story about 
human rights abuses is an affront to all Chinese people. Recently, the 
Chinese propaganda machine has started manipulating Western 
sensibilities by calling any criticism of Chinese government actions 
``racist'' against all Chinese. The goal is clear: to shut down such 
criticism.
    Chinese media have long deliberately misrepresented events. For 
example, during the 2008 Olympic Torch Relay, CCTV described all 
protestors in the West as ``Tibetan separatists and members of other 
anti-China groups'' who that ``repeatedly assaulted'' torchbearers.\6\ 
This was simply not true. Almost all such protests were peaceful and 
joined by many different ethnic groups in the U.S. and other countries. 
The cause of religious and cultural freedom in Tibet has long been 
championed in the West.
    More recently, China has accused the United States of ``sinister 
intentions'' after Congress passed the Hong Kong Human Rights and 
Democracy Act of 2019.\7\ Xinhua published a statement from the Hong 
Kong Liaison Office accusing the U.S. of supporting violence and 
instability.\8\ The truth that the Congress cares about the basic 
rights of Hong Kongers and about the CCP upholding its obligations is 
simply assaulted. The CCP wants its people and targeted groups around 
the world to think that Hong Kong (like Taiwan) is simply an internal 
Chinese issue and that the U.S. acts imperialistically and with an 
unrelenting anti-Chinese bias.
    The Chinese government monitors, harasses, and bans Western 
journalists who publish content portraying China in a ``negative'' 
light. Examples include:

  1.  Recently, China kicked three Wall Street Journal journalists out 
        of the country after the Journal published an op-ed about China 
        that spoke the truth about the risks China's system of 
        government poses to the world.

  2.  China blocked access to the New York Times's website after the 
        Times published a piece on Wen Jiabao's family wealth in 
        2012.\9\

  3.  Bloomberg self-censored an investigative report on the wealth of 
        Princeling families to protect their journalists (or their 
        bottom line).\10\

  4.  The recent arrest of Jimmy Lai, the founder of Apple Daily and a 
        Hong Kong media mogul, ostensibly for participating in an 
        illegal assembly during the 2017 anti-government protests was 
        meant to silence him (he too had just written a critical op-ed 
        in the WSJ) and his paper as well as punish him for supporting 
        pro-democracy movements.\11\

    The CCP has always used access to China as a key point of leverage 
to shape perceptions. For years before these arrests China would 
blacklists scholars and analysts from entering the country if they were 
deemed to be ``anti-China.'' Recently they have upped the ante to try 
and change the way the Western media portrays the CCP or to force self-
censorship. Time will tell how well this works. It will certainly be 
harder to investigate controversial stories within China or to seek the 
truth.
    The CCP also uses physical intimidation to enforce censorship. 57% 
of respondents of a Foreign Correspondents' Club of China survey 
reported some form of interference, harassment, or violence while 
attempting to report in China, and 8% have reported manhandling or use 
of physical force.\12\ Twenty-six percent of respondents reported that 
Chinese government officials have harassed, detained, questioned, or 
punished their sources.
                    going after u.s. popular culture
    Not only does China target journalists and media in their 
territory, they have started to influence our pop culture abroad. 
Beijing knows that its people have great admiration for American sports 
and pop culture icons. It therefore believes it must control what such 
figures might say with an extreme intensity. Two examples highlight the 
level of Chinese interference: Basketball and Hollywood.
    The case of the National Basketball Association in China is a case 
of China using its market power to make Americans curtail their free 
speech. It began when Houston Rockets general manager Daryl Morey 
tweeted an image that read, ``Fight for freedom, stand with Hong 
Kong.'' This was during Hong Kong's demonstration over its basic human 
rights.
    The Chinese response was fast and furious: Chinese tech giant 
Tencent and state broadcaster CCTV suspended broadcasts of Rockets 
games, while other sponsors suspended relations with the team. Rockets 
owner Tilman Fertitta publicly rebuked his general manager. All-Star 
James Harden apologized for Morey's tweet. The NBA released a statement 
in Mandarin expressing disappointment in Morey.\13\
    Like many American businesses, the NBA is making billions of 
dollars in the China market, on viewership, digital ownership rights, 
merchandising and individual player sponsorship. To be sure, the 
Chinese do not have absolute power in disputes like this. The Chinese 
people love the ``product,'' as they do so many American products, and 
the Chinese censorship apparatus backed off eventually. But still the 
episode shows the extent the high stakes of China's censorship efforts. 
Indeed the lure of the China market is the most powerful weapon the 
Chinese have in their fight to stave off any criticism of the regime's 
practices and abuses.\14\
    Chinese censorship has also hit the heart of American entertainment 
in Hollywood. Americans have likely noticed the absence of Chinese 
villains or ``bad guys'' in American movies. No other country including 
our own is spared negative portrayals in film or television. Since 
China agreed to open their market to foreign films in 2012, Hollywood 
has had to make concessions to their Chinese censors. Producers and 
directors must coordinate with the Chinese government or lose access to 
the Chinese market.\15\ Films with Chinese characters portrayed poorly, 
such as Christopher Nolan's ``Dark Knight,'' are not even submitted for 
approval in China.\16\
    As the writer Martha Bayles has chronicled China believes that 
films are also a tool of the state and their content should align with 
the CCP's ideology. The forthcoming Top Gun: Maverick--a sequel 
financed in part by the Chinese firm Tencent--omitted the Japanese and 
Taiwanese flag from Tom Cruise's jacket . . . .'' \17\
    According to Bayles, in addition to the many censorship and 
propaganda organizations mentioned above, films now also have to pass 
muster with the State Ethnic Affairs Commission, the Ministry of Public 
Security, the State Bureau of Religious Affairs, the Ministry of 
Education, the Ministry of Justice, the Ministry of Foreign Affairs, 
and numerous other bureaucratic entities.\18\
    China has also started to make their own blockbusters for their 
domestic market. Movies made for the China market are forthright in 
their portrayal of China as brave and righteous and America as weak and 
decadent. According to Bayles:

         . . . The prime example is Wolf Warrior 2 (2017), a nonstop 
        tsunami of gun battles, massive explosions, wrenching hand-to-
        hand combat, and a spectacular tank chase, which hammers away 
        at a single message: China is bringing security, prosperity, 
        and modern health care to Africa, while the United States is 
        bringing only misery. The film broke all box-office records in 
        China and is still, at $5.6 billion, its highest-grossing film 
        ever.\19\

    The influence over the content of films is consistent with China's 
``ideological work'': its propaganda work in other forms. Hong Kong is 
not to be mentioned, Taiwan is to be wiped off the map as an 
independent entity, China is not abusing Uighur or Tibetan rights, and 
China is an ascendant power doing right by the world while America is 
weak, decadent and cowardly. As mentioned in the case of the NBA, the 
most powerful weapon China has to bend the West to its ideological 
agenda is the lure of the Chinese market. One cannot overstate how 
important these efforts are.
    American pop culture is one of its competitive advantages, enjoyed 
by billions across the globe. When repressed populations really begin 
to ask why America is so dominant in entertainment, they find the 
answer to be its freedom--its free-markets, its innovative and creative 
culture. If China can co-opt cultural icons, people lose faith in the 
power of these ideas.
        propaganda and disinformation to support foreign policy
    A key line of effort of Chinese grand strategy is to break U.S. 
alliances. Consistent with that strategy, Chinese state media attacks 
American allies as being economically dependent on the United States 
and highlights fragility in the relationships. Japan is a frequent 
target. China Daily has also described Britain as ``currying favor'' 
with the United States because it has no choice after it leaves the 
European Union.\20\ Other themes include the loss of sovereignty to the 
U.S. and economic dependency on the U.S. These themes come up in both 
Chinese and English-language articles and op-eds in media outlets such 
as China.com, Xinhua, China Daily, and Global Times, and are shared on 
social media.
                           taiwan fights back
    Taiwan is the primary target of PRC influence operations, most 
noticeably in the November 2018 elections where Nationalist Party 
(Beijing-friendly) candidates won an unexpected number of seats. 
However, PRC influence had less of an impact in the most recent 
elections in January 2020. The Taiwanese government worked closely with 
tech companies in order to counter the spread of disinformation. The 
Taiwanese government worked with Facebook's ``regional elections 
center'' to remove pages that used fraudulent methods to boost the 
popularity of their content.\21\ Twitter held training sessions for the 
Democratic Progressive Party (DPP), the Kuomintang (KMT), and Taiwan's 
Central Election Commission, and they set up a portal for feedback 
during the election. Google has partnered with volunteers and 
organizations like MyGoPen, Taiwan FactCheck Center and the Poynter 
Institute's International Fact-Checking Network to increase awareness 
of disinformation and to flag fake news on its platforms, including 
YouTube.\22\ In addition to these efforts, the Taiwanese government 
uses their own social media presence to counter disinformation through 
memes.\23\ For example, Premier Su Tseng-chang debunked a rumor that he 
will punish certain hairstyles with a humorous meme depicting his 
baldness.
    Taiwan has also passed legislation to counter political 
interference. The Anti-Infiltration Bill heightens penalties for 
Chinese-backed efforts to lobby Taiwanese politicians or participate in 
election campaigns.\24\ Finally, Taiwanese citizens and civil society 
play a prominent role in identifying fake information. The Taiwan 
FactCheck Center is a Snopes-like organization that works with Facebook 
to check disinformation on Taiwanese social network pages. CoFacts is 
another crowd-sourced fact-checking organization run by volunteers.\25\ 
Advocacy groups such as the Taiwan FactChecker center can help social 
media sites verify information.
                               what to do
    Strategic approaches to China's mass use of censorship, propaganda, 
and disinformation can be broken up into two categories: China's 
targeting of its own people and China's external efforts. There are 
offensive and defensive measures we can take. Remember, the CCP relies 
upon lies to stay in power.
    First, the U.S. should substantially ramp up its own Chinese-
language efforts (we have the broadcasting institutions already) to 
tell the truth to the Chinese people about how they are governed. The 
truth about public health, the environment, corruption, and injustice. 
We should place ourselves on the side of the Chinese people and help 
them discover the truth that could better their lives. Obviously the 
Chinese will try to block all such efforts. But multimedia campaign in 
Chinese make their way into China. Censorship is a cat and mouse game, 
and the regime needs to spend ever-greater resources to stop their 
people from learning the truth. When we had the USIA, we had career 
paths for those who wanted to be ``information officers'' or even 
``information warriors''--we need that again. Simply put, China has 
been engaging in ``political warfare'' against us for decades--all 
means other than actual warfare to undermine our global leadership. We 
have not engaged the political warfare fight.
    The GEC can fill this gap if properly funded and staffed with 
Mandarin-speakers. Such efforts should also tell America's story in 
Chinese. Public diplomacy together with multimedia campaigns should 
explain and persuade--we need to tell the story of why support basic 
democratic values in Hong Kong and Taiwan and how we would do so in 
China as well. We need not be defensive about our foreign policy. 
Relatedly, the special forces command should not be in this business 
unless tasked with very specific military-related functions. The GEC 
working with the State Department bureaus in charge of East Asia and 
public diplomacy should be the lead information operators.
    Second, we should pass suggested legislation and amend it that so 
we can do a better job of highlighting the origin of political ads, 
particularly from foreign sources as well as advertising the origin of 
content of social and regular media from countries we have deemed 
rivals or enemies in our national security documents.
    Third, we should set up a center for excellence in combatting 
disinformation in Taiwan. Taipei faced down an onslaught during its 
past election. Many countries including our own can learn from it. And 
it is a Mandarin-speaking country that knows what messages work in 
Chinese and in Chinese culture.
    Fourth, congressional leaders and administration leaders can do a 
better job in our own country explaining the exact nature of Chinese 
abuses of human rights and its censorship activities. Pressure should 
be put on U.S. entertainment icons--they will likely face a backlash 
among their own viewership and customers if the public is more informed 
about China's gross abuses.
    Fifth, Congress can continue to help set industry standards and 
best practices that guide social media companies in facilitating 
information sharing with each other and with the private and public 
sectors, including disclosing automated accounts, providing the 
locational origin or content, and providing users with more context 
when they see certain content.
    Sixth, the Administration should be encouraged to accelerate and 
broaden efforts to designate Chinese state controlled media companies 
as foreign agents who need to register as such and to make sure that 
``journalists'' working for such entities are not credentialed as 
journalists. Congress could help by publishing and widely disseminating 
easily digestible information and the Chinese mass censorship and media 
control system. The American people should know exactly where their 
information from China is coming from and who is paying for it.
    To summarize, disinformation, censorship, and propaganda are 
central to the CCP's political strategy for survival. Under Xi Jinping, 
they have become even more important lines of effort. This is because 
the truth is dangerous. The CCP cannot allow its citizens to know that 
freedom and democracy work in Taiwan and the West, that Hong Kongers 
are demanding their basic freedoms, that the U.S. is force for good in 
the world. It cannot admit any failures of governance, from 
mismanagement of the viral outbreaks to a starkly slowing economy. The 
CCP has been struggling for legitimacy and a raison d'etre since it 
began allowing markets to function (and thus undermined Maoism) and 
certainly since its violent crackdown on protestors in Tiananmen Square 
in 1989. It now coerces its people to accept its legitimacy and needs 
to protect itself in a web of lies. And, since Xi has also set very 
ambitious geopolitical goals for his country to rejuvenate and return 
to its ``rightful'' place as the Middle Kingdom, CCP propaganda targets 
the United States. It does so in its influence over movies in which the 
U.S. is portrayed as declining and decadent and in its media portrayal 
of the U.S. as greedy and overbearing.
    While the CCP has a vast apparatus to control information, arguably 
its most powerful tool is its market size. The economy may be slowing 
but the consumer market is still very large. The CCP will threaten U.S. 
media and entertainment companies with loss of market and financing if 
they deviate from the CCP party line. We need to break down and 
publicize as much as possible the specific entities that propagate the 
CCP's ideological line and stop treating Chinese ``media'' as anything 
but foreign agents.


----------------
Notes

    \1\ Singer, Peter, ``How China is Working to Quarantine the Truth 
about the Coronavirus,'' Defense One, February 9, 2020, https://
www.defenseone.com/ideas/2020/02/how-china-working-quarantine-truth-
about-coronavirus/162985/?oref=d-dontmiss.
    \2\ Zhong, Raymond. ``China Clamps Down on Coronavirus Coverage as 
Cases Surge.'' The New York Times, February 6, 2020, https://
www.nytimes.com/2020/02/05/world/asia/china-coronavirus-
censorship.html?searchResultPosition=13.
    \3\ ``Agencies Responsible for Censorship in China.'' 
Congressional-Executive Commission on China. Accessed February 28, 
2020. https://www.cecc.gov/agencies-responsible-for-censorship-in-
china.
    \4\ Richburg, Keith, ``Bird flu. SARS. China coronavirus. Is 
history repeating itself?'' STAT, January 27, 2020, https://
www.statnews.com/2020/01/27/bird-flu-sars-china-coronavirus-is-history-
repeating-itself/.
    \5\ ``Xi Jinping Asks for 'Absolute Loyalty' from Chinese State 
Media.'' The Guardian, February 19, 2016. https://www.theguardian.com/
world/2016/feb/19/xi-jinping-tours-chinas-top-state-media-outlets-to-
boost-loyalty.
    \6\ CCTV, ``Beijing Olympic Flame's Overall Journey--Light the 
Passion, Share the Dream,'' August 8, 2008, http://www.cctv.com/
program/sportsscene/20080808/104347.shtml.
    \7\ Grace Shao, Christine Wang, and Evelyn Cheng, ``China Accuses 
U.S. of `Sinister Intentions' after Trump Signs Bills Supporting Hong 
Kong Protesters,'' CNBC, November 27, 2019, https://www.cnbc.com/2019/
11/28/china-condemns-us-bills-supporting-hong-kong-protesters.html.
    \8\ Xinhua, ``Xianggang Zhonglianban Jiu Meiguo `2019 Nian 
Xianggang Renquan yu Minzhu Fa'an' Qianshu Chengfa Fabiao Shenming'' 
[Hong Kong Joint Office Issues a Statement on the Signing of the U.S. 
`Hong Kong Human Rights and Democracy Act 2019'], November 28, 2019, 
http://www.xinhuanet.com/2019-11/28/c--1125284253.htm.
    \9\ Bradsher, Keith, ``China Blocks Web Access to Times After 
Article,'' The New York Times, October 25, 2012, https://
www.nytimes.com/2012/10/26/world/asia/china-blocks-web-access-to-new-
york-times.html.
    \10\ Wong, Edward. ``Bloomberg News Is Said to Curb Articles That 
Might Anger China.'' The New York Times, November 9, 2013. https://
www.nytimes.com/2013/11/09/world/asia/bloomberg-news-is-said-to-curb-
articles-that-might-anger-china.html.
    \11\ https://www.scmp.com/news/hong-kong/politics/article/3052789/
hong-kong-protests-apple-daily-owner-jimmy-lai-arrested
    \12\ The Foreign Correspondents' Club, Hong Kong, ``Censorship and 
reporting in China: New survey reveals increased harassment and 
physical violence,'' https://www.fcchk.org/correspondent/censorship-
and-reporting-in-china-new-survey-reveals-increased-harassment-and-
physical-violence/
    \13\ Though commissioner Adam Silver backtracked, stating that the 
NBA is ``not apologizing for Daryl exercising his freedom of 
expression''
    \14\ Myers, Steven Lee, and Chris Buckley. ``American Basketball 
vs. Chinese Hardball: Guess Who Won.'' The New York Times, October 13, 
2019. https://www.nytimes.com/2019/10/13/world/asia/china-nba-
censorship.html?searchResultPosition=11.
    \15\ Cohen, David S., ```Transformers': A Splendidly Patriotic 
Film, If You Happen To Be Chinese (Opinion),'' Variety, July 3, 2014, 
https://variety.com/2014/film/columns/transformers-age-of-extinction-
patriotic-for-china-1201257030/.
    \16\ Bustan, Yuval, ``Why are there no more Chinese villains in 
American films?,'' Forbes Israel, November 18, 2018, http://
e.forbes.co.il/why-are-there-no-more-chinese-villains-in-american-
films/ and ``How China Is Taking Control of Hollywood.'' The Heritage 
Foundation. Accessed February 28, 2020. https://www.heritage.org/asia/
heritage-explains/how-china-taking-control-hollywood.
    \17\ Martha Bayles, ``Hollywood's Great Leap Backward on Free 
Expression,'' The Atlantic, September 15, 2019, https://
www.theatlantic.com/ideas/archive/2019/09/hollywoods-great-leap-
backward-free-expression/598045/.
    \18\ IBID
    \19\ Bayles, ``Hollywood's Great Leap Backward on Free 
Expression.''
    \20\ China Daily, ``UK should try to have more than one friend: 
China Daily editorial,'' September 6, 2018, http://
www.chinadaily.com.cn/a/201809/06/WS5b911253a31033b4f4654a8e.html and 
Chen, Yang, ``Is the sun setting on the U.S.--Japan alliance?,'' Global 
Times, https://www.globaltimes.cn/content/1162083.shtml.
    \21\ Wong, Chun Han and Philip Wen, ``Taiwan Turns to Facebook and 
Viral Memes to Counter China's Disinformation,'' https://www.wsj.com/
articles/taiwan-turns-to-facebook-and-viral-memes-to-counter-chinas-
disinformation-11578047403.
    \22\ https://techcrunch.com/2020/01/07/why-the-world-must-pay-
attention-to-the-fight-against-disinformation-and-fake-news-in-taiwan/
    \23\ Wong, Chun Han and Philip Wen, ``Taiwan Turns to Facebook and 
Viral Memes to Counter China's Disinformation''; Magnier, Mark. ``West 
Studies China's Disinformation Campaign in Taiwan Looking for Clues.'' 
South China Morning Post, February 17, 2020. https://www.scmp.com/news/
china/article/3045648/west-studies-beijings-disinformation-campaign-
taiwan-looking-clues-its.
    \24\ Aspinwall, Nick, ``Taiwan Passes Anti-Infiltration Act Ahead 
of Election Amid Opposition Protests,'' The Diplomat, January 3, 2020, 
https://thediplomat.com/2020/01/taiwan-passes-anti-infiltration-act-
ahead-of-election-amid-opposition-protests/.
    \25\ Su, Alice, ``Can Fact-Checkers Save Taiwan From a Flood of 
Chinese Fake News?,'' LA Times, December 16, 2019, https://
www.latimes.com/world-nation/story/2019-12-16/taiwan-the-new-frontier-
of-disinformation-battles-chinese-fake-news-as-elections-approach.

    Senator Portman. Thank you, Mr. Blumenthal. Look forward to 
following up on all that.
    Dr. Polyakova.

  STATEMENT OF ALINA POLYAKOVA, PRESIDENT AND CEO, CENTER FOR 
            EUROPEAN POLICY ANALYSIS, WASHINGTON, DC

    Dr. Polyakova. Thank you, Senator Portman and Senator 
Booker, for hosting this important hearing.
    I particularly wanted to thank you, Senator Portman and 
Senator Murphy, who could not stay for the majority of the 
hearing, for your bipartisan leadership work on this specific 
issue. I think without your efforts in expanding the role, the 
GEC would not be here today. So thank you for that.
    It is a true honor and privilege to be able to address you 
here today. Before I begin on the substantive issues, I want to 
acknowledge that even though I am the president and CEO of the 
Center for European Policy Analysis, which is a nonprofit, 
nonpartisan, independent foreign policy thinktank here in 
Washington, my views are my own and do not represent those of 
the organization, which takes no institutional position.
    President Vladimir Putin's Russia seeks to weaken Western 
governments and transatlantic institutions, discredit 
democratic and liberal values, and create a post-truth world. 
But first and foremost, Russian disinformation aims to 
undermine U.S. leadership across the world. You only have to 
watch a few minutes of Russian language state-sponsored media 
at home in Russia to understand the level of animosity that the 
Kremlin has for the United States, and it very much sees itself 
locked in a battle for world dominance with the United States.
    I want to make it clear that these kinds of campaigns, as 
we have heard in our discussions of coronavirus, are not 
limited to elections. In fact, any disruptive world event, such 
as a virus spread as we are experiencing today, is an ample 
opportunity and fertile ground for disruption and for spreading 
these kinds of disinformation influence operations.
    The spread of disinformation is just one part of a broader 
political warfare toolkit in Russia's arsenal, just as my 
colleague Mr. Blumenthal mentioned on China. I think we see a 
lot of similarity here in how disinformation fits into this 
broader foreign policy objective of Russia and China.
    Of course, it is not new. I have been working in Russian 
disinformation long before it became the issue du jour. 
Likewise, Ukraine, Georgia, the Baltic States have been the 
testing ground and the test labs for Russian disinformation 
campaigns for quite some time. And as a result, in some ways, 
they are far more resilient than us.
    Unfortunately, the United States and Western Europe woke up 
late to the challenge. But I think the good news of the wakeup 
call we had in 2016 is that we have now moved from admiring the 
problem to entering a new trial-and-error stage where we are 
trying to new efforts, including policies, social media 
activities, and research to counter and build resilience to 
this threat.
    I want to highlight three insights that have emerged over 
the last few years. One is that there is no silver bullet for 
addressing this problem. A whole of society, not just a whole 
of government approach is badly needed.
    Second, as we, meaning democratic governments, tech 
companies, and civil society, have responded since 2016, their 
tactics have evolved. My concern is that we are not keeping up 
with the evolution of the adversarial threat. In my written 
testimony, I detail that quite at length, but just to mention 
three ways in which the Russian information operations have 
evolved.
    One, the Russian information operations have gone global. 
Not only in terms of its scope, but in terms of how other 
countries are copying this playbook. The Russian playbook is 
global. The Russian information has gone global and further 
afield to Africa and also South America.
    The Russian influence operations are a full spectrum 
ecosystem approach. They operate across multiple platforms. 
They operate across multiple media platforms, not just social 
media platforms, and in direct concert and focus with their 
other tools of political warfare, including paramilitary 
groups, which you saw in Africa very recently.
    Lastly, Russia is engaged in information warfare by proxy. 
This is important because, increasingly, they are using cut-
outs, local groups and individuals, and local servers to mask 
their origins. This means that exposure, while incredibly 
important, is quickly becoming difficult, if not impossible.
    And what we de facto see today is that the line between 
authentic domestic voices, which are protected in most 
democracies by free speech rights and certainly by the First 
Amendment here, and inauthentic behavior, foreign 
disinformation that we have been talking about here, that line 
has essentially disappeared.
    Lastly, to get ahead of this threat, instead of reacting to 
disparate attacks in a whack-a-mole fashion, we have to invest 
in building long-term societal resistance at the same as 
getting on the offensive to deter future disinformation 
operations of this nature. Our response must be calibrated to 
meet these future challenges as Russia and other state actors 
will continue to use multifaceted influence operations to 
undermine U.S. credibility and global leadership.
    I can go into quite a few details in terms of 
recommendations, but in the interest of the time, I will stop 
here.
    [The prepared statement of Dr. Polyakova follows:]

               Prepared Statement of Dr. Alina Polyakova

    Senator Portman, Senator Booker, Distinguished Members of the 
Subcommittee: It is an honor and privilege to address you today on this 
critical issue for United States national security. Thank you for 
inviting me to speak.
    I am the President and CEO of the Center for European Policy 
Analysis (CEPA), a nonprofit, nonpartisan, independent foreign policy 
think-tank focused on the transatlantic alliance and the study of 
Europe. My views are my own and do not represent those of the 
organization, which takes no institutional position. In addition, I 
would like to disclose that CEPA is a sub-grantee for a Federal 
Assistance Award from the U.S. Department of State's Global Engagement 
Center (GEC) for a 2-year project that aims to provide civil society 
actors with tools and capacities to combat Russian disinformation 
throughout Central Eastern Europe. The sub-grant agreement came into 
effect in February 2019.
                          the russia challenge
    President Vladimir Putin's Russia seeks to weaken Western 
governments and transatlantic institutions, discredit democratic and 
liberal values, and create a post-truth world. Its strategic aim is, 
first and foremost, to undermine U.S. credibility and leadership in the 
world. The United States, from Moscow's point of view, is Russia's 
greatest enemy--a narrative that is frequently voiced on Russian state-
controlled media. Yet, Russia presents a unique challenge to the United 
States. It is simultaneously a country in decline and a global power 
with proven ability and determination to undermine U.S. interests in 
multiple arenas. Russia has been particularly adept at using asymmetric 
tools of political warfare--information operations and cyberattacks--to 
project power, undermine democratic institutions, and influence public 
opinion. In brief, Russia's great power ambitions supersede its 
capacity to act as a great power--militarily, economically, and 
politically. It is precisely because of this mismatch between ambition 
and ability that Moscow has sought out and developed low-cost but high-
impact tools of political warfare to challenge the United States and 
our allies.
    The spread of disinformation to undermine public confidence is one 
critical tool in the Kremlin's broader toolkit of malign influence, 
which also includes cyber-hacking, illicit finance, support for radical 
movements and parties, and the use of economic warfare, primarily 
through energy exports. These elements work together in a concert of 
chaos, each amplifying the other in various degrees, depending on the 
target of attack.
    Americans experienced Russian political warfare in the context of 
Russian disinformation and cyberattacks during the 2016 U.S. 
presidential elections. Then and now, Russian disinformation campaigns 
aimed to amplify existing social divisions and further polarize 
democracies by spreading content on divisive social issues, 
infiltrating social media groups, attempting to plant content to be 
shared by authentic users, and using automated accounts to amplify 
content.
    But Russian disinformation campaigns do not stop when the ballot 
box closes. Elections may provide an ideal high-impact opportunity for 
a disinformation actor, but the barrage of disinformation against 
Western democracies, including the United States, continues between 
election cycles. The world's democracies need to organize themselves 
now to address the challenge--the window for doing so is narrowing.\1\
    One positive consequence of Russia's brazen interference in 
elections has been to wake up Western democracies to the threat. Since 
2016, European governments, the European Union, Canada, and the United 
States have moved beyond ``admiring the problem'' and have entered a 
new ``trial and error'' phase, testing new policy responses, technical 
fixes, and educational tools for strengthening resistance and building 
resilience against disinformation. As these efforts progress, three 
insights have emerged:

    1. A whole of society approach is key. There is no silver bullet 
for addressing the disinformation challenge. Governmental policy, on 
its own, will not be enough. The private sector, specifically social 
media platforms, and civil society groups, including independent media, 
must be part of the solution.

    2. As we--democratic governments, social media platforms, and civil 
society--have responded since 2016, adversarial tactics have evolved 
along at least three threat vectors

  <bullet> The Russian playbook has gone global: other state actors are 
        deploying info-ops at an increasing rate, and Russia is testing 
        and expanding its operations globally, most notably in Africa. 
        The Russians may be leaders in state-sponsored disinformation, 
        but they will not be the last. China, Iran, and other state and 
        non-state actors have already learned from the Russian toolkit 
        and deployed it across the world.

  <bullet> Russian disinformation activities have adapted to obfuscate 
        their origins and avoid detection. De facto, it is now almost 
        impossible to distinguish between domestic and foreign 
        activities on social media platforms.

  <bullet> Russia is increasingly developing an ecosystem approach to 
        influence operations, of which disinformation campaigns are a 
        key, but not the only, element.

    3. To get ahead of the threat rather than reacting to disparate 
attacks in a whack-a-mole fashion, democracies must invest in building 
long-term societal resilience while at the same time getting on the 
offensive to deter foreign disinformation operations.

  <bullet> The response must take an ecosystem approach to match 
        Russia's ecosystem strategy, which operates across multiple 
        social media and traditional media platforms, has overt and 
        covert elements, and increasingly works in lockstep with 
        private military groups, illicit finance, and intelligence 
        operations.

    In this testimony, I draw on my recent research with my co-author 
Ambassador Daniel Fried,\2\ in addition to my research \3\ on emerging 
threats in the information space, and previous Congressional 
testimonies,\4\ to:

  <bullet> Provide an overview of Russia's disinformation machine, 
        including its evolution since 2016;

  <bullet> Provide a progress report on U.S. efforts to respond to 
        Russian disinformation since 2016;

  <bullet> Recommend steps that the United States, and the U.S. 
        Congress, in particular, should take to better defend against 
        and get ahead of disinformation threats.
                   the russian disinformation machine
    Disinformation is the intentional spread of false or misleading 
information to influence public discourse and narratives. Russian 
disinformation against democracies is multi-vectored and multi-layered, 
consisting of overt state-funded propaganda, covert social media 
entities, and a constantly evolving repertoire of fly-by-night 
websites. These elements work in concert with each other to amplify and 
distribute content across traditional and social media outlets.
    Overt Russian state-funded disinformation and propaganda includes 
RT, Sputnik, and other Kremlin-linked media outlets. Estimates suggest 
that the Russian government spends approximately $300 million on RT 
annually,\5\ and $1.3 billion on all state media.\6\ RT broadcasts in 
English, Spanish, Arabic, and German, and claims to reach 700 million 
people in 100 countries.\7\ RT, as it proudly states, is the most-
watched news network on YouTube, claiming over 8 billion views and 3.5 
million subscribers.\8\ YouTube statistics show 2.8 billion views, 
however.\9\ On Facebook, RT has 5.6 million followers \10\ and 2.9 
million followers on Twitter.\11\
    Covert social media entities include automated (``bot'') accounts, 
trolls, cyborgs, and impersonation pages, groups, and accounts used to 
carry out digital disinformation campaigns across social media 
platforms. The Department of Justice Special Counsel report,\12\ the 
investigation's related indictments from February 2018 \13\ and July 
2018 \14\ against the Internet Research Agency (IRA) and Russian 
military intelligence (GRU), and the subsequent Senate Intelligence 
Committee reports \15\ provide the most comprehensive assessment of the 
inner workings of Russia's covert disinformation operations. The IRA's 
information operations against the United States relied on 
impersonation accounts to infiltrate public discourse online; used non-
political content and issues to build an audience on Facebook, Twitter, 
Instagram, and elsewhere; and purchased ads to prop-up content on 
platforms to reach more users. Over the course of the U.S. operation, 
the IRA purchased over 3,500 ads and spent approximately $100,000--a 
small investment, which signals that advertising was a relatively small 
part of Russian disinformation operations in the United States. In mid-
2017, the most popular IRA-controlled group--``United Muslims of 
America''--had over 300,000 followers. By the end of the 2016 election, 
the IRA ``had the ability to reach millions of U.S. persons through 
their social media accounts'' on Facebook, Instagram, Twitter, YouTube, 
and Tumblr, according to the report.\16\ Facebook later estimated that 
IRA-controlled accounts reached as many as 126 million people,\17\ and 
an additional 1.4 million \18\ were reached through Twitter.
    Yevgeny Prigozhin, Putin's ally and agent, who has been sanctioned 
by the United States, is in charge of the IRA project as well as the 
private military group, Wagner (more on this below). Prior to the 2016 
elections, the Kremlin significantly expanded the IRA. In early 2015, 
the IRA had a staff of 225-250 people, which grew to 800-900 by the 
middle of the year adding new capabilities such as video, infographics, 
memes, etc.\19\ By 2016, the number of employees at the American 
department or translator project almost tripled to 80-90 people, 
representing approximately 10 percent of the total staff. The IRA's 
monthly operating budget in 2016 was $1.25 million (approximately $15 
million annually).\20\
    Four years later, we still don't know to what extent the IRA 
remains operational, the full scope of the IRA's command structure, how 
far into the Kremlin the decision-making process reached, how the 
project continues to be funded today, and if the Kremlin has 
established other similar entities. While the IRA's operations 
undoubtedly continue today, and other similar ``troll farms'' are also 
very likely operating in addition to the IRA, there is scant (if any) 
open source information about these entities' activities and funding.
                evolution of russia's tactics since 2016
    Since 2016, the Kremlin has stepped up its interference operations 
across the globe. Ukraine remains a test-lab for Russian information 
operations and the primary target.\21\ During Ukraine's 2019 
parliamentary elections, Ukraine's intelligence service arrested a man 
who confessed to being a Russian agent sent to Ukraine to recruit 
locals to rent or sell their Facebook account, which would then be used 
to spread false content or ads.\22\
    Increasingly, Russia is aggressively deploying a combination of 
disinformation, private military groups, and corruption to exert 
influence in Africa, where it has been active in Libya, Sudan, Ivory 
Coast, Cameroon, Mozambique, Madagascar, the Central African Republic, 
and the Democratic Republic of the Congo.\23\
    Prigozhin's two projects--Wagner and the IRA--came together in 
Africa as well. In October 2019, Facebook took down several 
disinformation networks that affected Madagascar, the Central African 
Republic, Mozambique, Congo, Ivory Coast, Cameroon, Sudan, and Libya. 
The broad disinformation campaign was linked to the Wagner Group, whose 
members were involved in setting up proxy media groups and contracting 
disinformation campaigns to local entities to obfuscate the link to 
Russia.\24\ In some countries, Russian mercenaries worked to establish 
local media organizations that would employ locals hired to post false 
and misleading content on social media. The Russians would also hire 
existing media companies for the same purpose.\25\ In Madagascar, the 
Russian operators carried out an expansive influence operation that 
included publishing newspapers in the local language, hiring local 
students to write articles in support of the president, buying 
television and billboard ads, paying people to attend rallies (and 
paying journalists to cover the rallies), and attempting to bully 
opposition groups to take bribes to drop out of the race.\26\ The 
Madagascar case is the most prominent example of how the Kremlin 
deploys a multi-faceted influence operation of which information ops 
are one key but not the only element. Similarly, in South America, 
Russian influence operations aim to amplify and exploit unrest in 
Venezuela, Ecuador, Peru, Bolivia, Colombia, and Chile.\27\
    Tellingly, Russian mercenaries are present in many of the countries 
where social media companies, governments, and researchers are 
identifying active disinformation campaigns. Prighozhin's Wagner Group 
is the best known but not only such group active in Africa.\28\ Wagner 
mercenaries have been pouring into Africa in recent months.\29\ In 
Libya, some estimate that up to 2,000 Russian fighters have been 
deployed to support Khalifa Hifter in the country's civil war.\30\ In 
Mozambique, an estimated 200 Russian mercenaries are thought to be 
active.\31\ Russian PMCs and advisers have also been active in the 
Central African Republic, where approximately 250 Russian mercenaries 
are training recruits,\32\ and allegedly in Venezuela.\33\
    These recent Russian activities signal new threat developments to 
which the U.S. and our allies are not well-equipped to respond:

  1.  Russian information operations pose a global threat, no longer 
        contained to the frontline states of Central and Eastern 
        Europe.

  2.  Russian influence operations form a full spectrum ecosystem 
        approach, in which disinformation campaigns work across digital 
        and traditional media and in concert with other tools of 
        political warfare.

  3.  Russia is engaged in information warfare by proxy--using cutouts, 
        local groups and individuals, and local servers to mask their 
        origins. This greatly limits our ability to identify and expose 
        covert information operations and de facto erases the line 
        between authentic and inauthentic actors or domestic and 
        foreign content.

    The U.S. response must be calibrated to meet these and future 
challenges as Russia and other state actors will continue to use multi-
faceted influence operations to undermine U.S. credibility and global 
leadership.
                  how the united states has responded
    The greatest challenge facing the U.S. government as it has sought 
to craft a counter disinformation strategy has been identifying the 
appropriate coordinating body able to carry out a politically empowered 
policy agenda. Coordination, both on operations and policy, has been 
slow. Some European countries, such as Sweden, identified the 
appropriate agency to coordinate and set policy and quickly established 
interagency communication. In the United States, responses have been 
decentralized across multiple governmental agencies, groups, and 
centers. As a result, it has been difficult to assess who in the U.S. 
government owns the problem. One reason for this is the sheer size, 
complexity, and compartmentalization of the U.S. government, which 
makes coordination slow and difficult for a problem that cuts across 
multiple regions and touches on issues of public diplomacy, election 
security, and foreign interference. This remains a problem for crafting 
a sophisticated and well executed response to the disinformation 
challenge.
                      the global engagement center
    The 2017 National Defense Authorization Act (NDAA) expanded the 
function and mandate of the State Department's Global Engagement Center 
(GEC) to counter state-sponsored disinformation. By design, the GEC, as 
a State Department center in the public diplomacy bureau, has no 
mandate to address disinformation attacks in the United States. While 
the Department of Homeland Security (DHS) is the appropriate agency to 
address threats to the United States, its main focus has been on 
securing the infrastructure of elections. U.S. Cyber Command began 
operations ahead of the 2018 congressional elections to deter Russian 
operatives from potential interference.\34\ Cyber Command, together 
with the National Security Agency (NSA), reportedly developed 
information about Russian trolls and their activities, and alerted the 
FBI and Department of Homeland Security (DHS).\35\ Cyber Command's 
mandate to develop offensive response capabilities \36\ is a welcome 
shift in U.S. policy. But on the whole, the lack of a defined long-term 
strategy to counter disinformation abroad and at home will leave the 
U.S. vulnerable to future attacks.
    The GEC, which has the mandate to coordinate operational 
interagency responses, has been hampered in carrying out its task in 
several ways:

  1.  The funding mechanism established in 2017 NDAA in which the 
        Department of Defense would transfer GEC ear-marked funding to 
        the State Department, while seemingly straightforward, led to 
        bureaucratic wrangling between State and DoD, which slowed the 
        GEC's ability to ramp up operations immediately.

  2.  The nature of U.S. federal guidelines for hiring personnel has 
        also led to a lag in building capacity. The Russia team of the 
        GEC only became strategically operational in the summer of 
        2019.

  3.  While the GEC has the mandate to coordinate operationally, there 
        is no politically empowered (i.e. Congressionally confirmed) 
        position in the U.S. government responsible for establishing 
        the policy and ensuring interagency coordination to respond to 
        disinformation. Such a position would need to be at the 
        Undersecretary level.

  4.  Multiple seemingly duplicative interagency groups have been 
        established within the U.S. government, which likely limit the 
        GEC's ability to serve as the coordinating body intended by 
        Congress. For example, there is an interagency group, the RIG, 
        for coordinating Russia related responses. The 2020 NDAA 
        authorized the establishment of a Social Media Data and Threat 
        Analysis Center within the Director of National Intelligence 
        (DNI) to enable better information sharing between the 
        government and social media companies to ``institutionalize 
        ongoing robust, independent, and vigorous analysis of data 
        related to foreign threat networks within and across social 
        media platforms [which] will help counter ongoing information 
        warfare operations against the United States, its allies, and 
        its partners.'' The Senate has reintroduced the Defending 
        American Security from Kremlin Aggression Act of 2019 (DASKA); 
        while mostly devoted to sanctions, it also ``calls for the 
        establishment of a National Fusion Center to Respond to Hybrid 
        Threats, a Countering Russian Influence Fund to be used in 
        countries vulnerable to Russian malign influence, and closer 
        coordination with allies'' (sections 704, 705, and 706).\37\ It 
        is imperative that U.S. government efforts are led by an agency 
        with a clear politically endorsed mandate rather than 
        dispersing and decentralizing efforts across multiple task 
        forces, fusion cells, or centers.

    Still, despite the slow start, the GEC has been actively funding 
independent civil society groups on the frontlines of Russian 
information operations. It has also sought to coordinate efforts with 
allied governments, work closely with researchers to expose Russian 
disinformation campaigns, provide direct support, and develop the 
capacity to follow the threat as Russian operations have gone further 
afield. Most recently, the GEC worked to expose Russian disinformation 
around COVID-19 (the Coronavirus).\38\
    The GEC should be the USG body that develops a threat assessment 
framework for the U.S. government. Such a framework would identify 
clear baselines and metrics for appropriate response. Not all 
disinformation campaigns require a governmental response, and in some 
cases, a response may serve the opposite function of amplifying a 
disinformation campaign. In cases that threaten national security and 
public safety, a USG response is not only warranted, it is essential.
    The GEC should build information sharing relationships with social 
media companies. Recognizing that there is a trust gap between 
governments and the companies means that this will take time to 
develop, but the companies must be part of the process for USG efforts 
to counter disinformation campaigns. Precedent for such public-private 
information sharing exists in the law enforcement space and the 
counter-terrorism space.
                    what the united states should do
  <bullet> Ensure consistent and continuous funding for the GEC. 2020 
        was the first year that the GEC was funded directly through the 
        State Department rather than via the DoD transfer. This should 
        continue.

  <bullet> Ensure scalability of GEC efforts to respond to a global, 
        rather than a regional threat. The GEC received approximately 
        $62 million in 2020. The President's proposed 2021 budget 
        includes an additional $76 million in funding for the GEC. An 
        increase of this level would allow the GEC to scale up its 
        operations.

  <bullet> Require regular reporting by the State Department on state-
        sponsored information operations across the world, including 
        sensitive information to be shared in a classified setting on 
        the operational capacities, command-and-control structure, and 
        funding for covert Russian operations including those carried 
        out by the GRU.

  <bullet> Consider establishing an Undersecretary level position for 
        information operations to establish and coordinate the whole of 
        U.S. government responses that is outside of the public 
        diplomacy bureau at State.

  <bullet> Develop an ecosystem approach to an ecosystem threat. The 
        GEC should work in close cooperation with U.S. government 
        agencies tracking Russian illicit finance, private military 
        group activities, and support for disruptive political groups 
        to identify high threat areas where the GEC should provide 
        direct support and expand resources.

  <bullet> Invest in developing in-house expertise in Congress on 
        disinformation and digital media. Congress's capacity for 
        detailed analysis, independent from social media companies, 
        will be critical.

  <bullet> Consider mandating that media outlets determined by the 
        Department of Justice to be acting as agents of foreign 
        governments be de-ranked in searches and on newsfeeds and be 
        barred from buying ads. RT, for example, was required to 
        register under the Foreign Agents Registration Act (FARA). 
        Governmental assessments and FARA determination should be one 
        of many variables considered in rankings for search engines. 
        However, legislators should bear in mind that mandating de-
        ranking based on governmental assessments and FARA 
        determinations could set a precedent which undemocratic regimes 
        could abuse.

  <bullet> Continue to impose sanctions on foreign officials, or 
        officially controlled or directed, purveyors of disinformation 
        and their sponsors, and to identify and prosecute violations of 
        federal elections laws (prohibitions on foreign contributions).

  <bullet> Establish a USG rapid alert system (RAS) to inform the 
        public, allied governments, and social media companies of 
        emerging disinformation campaigns that threaten national 
        security. The European rapid alert system can help the USG 
        judge the potential of this idea. Some of the challenges can be 
        anticipated: given U.S. politics and traditions, issues will 
        arise around a U.S. RAS mandate (e.g., the definition and 
        attribution of disinformation) and its composition, 
        credibility, and independence.
                      getting ahead of the threat
    The above recommendations are low-hanging fruit on which the U.S. 
Congress and the Administration should act. These steps will not turn 
the tide of disinformation attacks. Rather, these are the minimum 
actions needed to start to build resistance. The Kremlin's toolkit is 
out in the open and Russia has faced few consequences for its malign 
activities. This sends a signal to other malicious actors that they can 
act with impunity to destabilize democracies and distort public 
discourse. Other state actors with perhaps greater capabilities, such 
as China, and non-state actors, such as terrorist groups with a higher 
tolerance for risk, will adapt the disinformation toolkit to undermine 
democracies or are already doing so.
    While the democratic West is fighting yesterday's war, our 
adversaries are evolving and adapting to the new playing field. First, 
innovation in artificial intelligence (A.I.) is enabling the creation 
of ``deep fakes'' and other ``synthetic media'' products. Using video 
and audio manipulation, malicious actors can manufacture the appearance 
of reality and make a political leader appear to make remarks that they 
did not. As these tools become more low cost and accessible, they will 
become perfect weapons for information warfare. Such technologies could 
drive the next great leap in AI-driven disinformation.
    Second, disinformation techniques are shifting from the use of 
simple automated bots to more sophisticated interaction with (and 
manipulation of) domestic groups, extremist and otherwise, through 
various forms of impersonation and amplification of organic posts by 
domestic actors. Thus, it is already increasingly difficult to 
disentangle foreign-origin disinformation from domestic social media 
conversations. Rather than trying to break through and channel the 
noise, the new strategy aims to blend in with the noise--obfuscating 
manipulative activity and blurring the line between authentic and 
inauthentic content.
    The United States has fallen behind in addressing the challenge of 
foreign disinformation. But, it is not too late to change course toward 
a proactive rather than reactive approach. This critical issue concerns 
all democracies equally. Strong U.S. leadership could tip the balance 
toward ensuring that the digital space continues to facilitate and 
support democratic values of transparency, accountability and 
integrity. To do otherwise is to leave this arena open to 
authoritarians to set the rules of the game.


----------------
Notes

    \1\ ``Russian Disinformation Attacks on Elections: Lessons from 
Europe'' U.S. Congress, House of Representatives, HouseCommittee on 
Foreign Affairs Subcommittee on Europe, Eurasia, Energy, and 
theEnvironment, 116th Congress, Statement of Ambassador Daniel Fried, 
Distinguished Fellow, the Atlantic Council: https://www.congress.gov/
116/meeting/house/109816/witnesses/HHRG-116-FA14-Wstate-FriedD-
20190716.pdf
    \2\ Alina Polyakova and Daniel Fried, ``Democratic Defense Against 
Disinformation 2.0,'' (Washington, DC, United States: Atlantic Council, 
June 2019), https://www.atlanticcouncil.org/publications/reports/
democratic-defense-against-disinformation-2-0.
    \3\ See: Alina Polyakova, ``Weapons of the weak: Russia and AI-
driven asymmetric warfare,'' (Washington, DC, United States: Brookings 
Institution, November 2018), https://www.brookings.edu/research/
weapons-of-the-weak-russia-and-ai-driven-asymmetric-warfare/; and Alina 
Polyakova and Spencer Boyer, ``The future of political warfare: Russia, 
the West, and the coming age of global digital competition,'' 
(Washington, DC, United States: Brookings Institution, March 2018), 
https://www.brookings.edu/research/the-future-of-political-warfare-
russia-the-west-and-the-coming-age-of-global-digital-competition/.
    \4\ ``Five Years after the Revolution of Dignity: Ukraine's 
Progress/Russia's Malign Activities,'' U.S. Congress, Senate, Senate 
Foreign Relations Subcommittee on Europe and Regional Security 
Cooperation, 116th Congress, statement of Dr. Alina Polyakova, 
Director, Global Democracy and Emerging Technology, Fellow, Center on 
the United States and Europe, Foreign Policy Program, Brookings 
Institution, https://www.foreign.senate.gov/imo/media/doc/061819--
Polyakova--Testimony.pdf.
    ``Lessons from the Mueller Report, Part II: Bipartisan 
Perspectives,'' U.S. Congress, House of Representatives, U.S. House 
Committee on the Judiciary, 116th Congress, statement of Dr. Alina 
Polyakova, Director, Global Democracy and Emerging Technology, Fellow, 
Center on the United States and Europe, Foreign Policy Program, 
Brookings Institution, https://docs.house.gov/meetings/JU/JU00/
20190620/109668/HHRG-116-JU00-Wstate-PolyakovaA-20190620.pdf.
    \5\ Vladimir Milov, ``Stop Funding RT: Better Ways to Spend the 
Budget Money.'' Free Russia Foundation, August 5, 2017. https://
www.4freerussia.org/stop-funding-rt-better-ways-to-spend-the-budget-
money/
    \6\ ``Figure of the Week: 1.3 Billion.'' StopFake, October 1, 2019. 
https://www.stopfake.org/en/figure-of-the-week-1-3-billion/.
    \7\ Elena Postnikova, ``Agent of Influence: Should Russia's RT 
Register as a Foreign Agent?'' (Washington, DC, United States: Atlantic 
Council, August 2017), https://www.atlanticcouncil.org/images/
publications/RT--Foreign--Agent--web--0831.pdf.
    \8\ ``RT--YouTube,'' https://www.youtube.com/user/RussiaToday/
videos?app=desktop.
    \9\ ``RT--YouTube,'' YouTube. Accessed March 2, 2020. https://
www.youtube.com/user/RussiaToday/about.
    \10\ ``RT--Home Facebook.'' Facebook. Accessed March 2, 2020. 
https://www.facebook.com/RTnews/.
    \11\ account, RTVerified. ``RT (@RT--com).'' Twitter. February 21, 
2020. https://twitter.com/rt--com?lang=en
    \12\ Robert S. Mueller, III, ``Report on the Investigation into 
Russian Interference in the 2016 Presidential Election.'' (U.S. 
Department of Justice, Washington, DC, 2019), https://www.justice.gov/
storage/report.pdf.
    \13\ UNITED STATES OF AMERICA v. INTERNET RESEARCH AGENCY LLC A/K/A 
MEDIASINTEZ LLC A/K/A GLAVSET LLC A/K/A MIXINFO LLC A/K/A AZIMUT LLC A/
K/A NOVINFO LLC et al. 18 U.S.C.  2, 371, 1349, 1028A (2018). https:/
/www.justice.gov/file/1035477/download.
    \14\ UNITED STATES OF AMERICA v. VIKTOR BORISOVICH NETYKSHO et al. 
18 U.S.C.  2, 371, 1030, 1028A, 1956, and 3551 et seq. (2018). 
https://www.justice.gov/file/1080281/download.
    \15\ U.S. Congress, Senate, Committee on Intelligence. RUSSIAN 
ACTIVE MEASURE;S CAMPAIGNS AND INTERFERENCE IN THE 2016 U.S. ELECTION ' 
VOLUME 2: RUSSIA'S USE OF SOCIAL MEDIA WITH ADDITIONAL VIEWS, 116th 
Congress, 1st session. https://www.intelligence.senate.gov/sites/
default/files/documents/Report--Volume2.pdf
    \16\ Robert S. Mueller, III, ``Report on the Investigation into 
Russian Interference in the 2016 Presidential Election,'' 26.
    \17\ Mike Isaac and Daisuke Wakabayashi, ``Russian Influence 
Reached 126 Million Through Facebook Alone.'' The New York Times, 
October 30, 2017, https://www.nytimes.com/2017/10/30/technology/
facebook-google-russia.html.
    \18\ Christopher Carbone, ``1.4 million Twitter Users Engaged with 
Russian Propaganda During Election.'' Fox News, February 1, 2018, 
https://www.foxnews.com/tech/1-4-million-twitter-users-engaged-with-
russian-propaganda-during-election.
    \19\ Polina Rusyaeva and Andrei Zakharov, ``[Editor's Note: Title 
is in Russian Language and can not be displayed],'' RBC, October 17, 
2017, https://www.rbc.ru/magazine/2017/11/59e0c17d9a79470e05a9e6c1.
    \20\ UNITED STATES OF AMERICA v. INTERNET RESEARCH AGENCY LLC A/K/A 
MEDIASINTEZ LLC A/K/A GLAVSET LLC A/K/A MIXINFO LLC A/K/A AZIMUT LLC A/
K/A NOVINFO LLC et al. 18 U.S.C.  2, 371, 1349, 1028A (2018). https:/
/www.justice.gov/file/1035477/download, 7.
    \21\ Jack Stubbs, ``Facebook says it dismantles Russian 
intelligence operation targeting Ukraine.'' Reuters, February 12, 2020. 
https://www.reuters.com/article/us-russia-facebook/facebook-says-it-
dismantles-russian-intelligence-operation-targeting-ukraine-
idUSKBN2061NC
    \22\ Michael Schwirtz and Sheera Frenkel,``In Ukraine, Russia Tests 
a New Facebook Tactic in Election Tampering.'' The New York Times, 
March 29, 2019. https://www.nytimes.com/2019/03/29/world/europe/
ukraine-russia-election-tampering-propaganda.html
    \23\ Shelby Grossman, Daniel Bush, and Renee DiResta, ``Evidence of 
Russia-Linked Influence Operations in Africa.'' Stanford Internet 
Observatory, October 30, 2019. https://cyber.fsi.stanford.edu/io/news/
prigozhin-africa
    \24\ Craig Timberg, ```Putin's Chef,' Architect of Interference in 
2016 U.S. Election, Is Now Meddling in African Politics, Facebook 
Says.'' The Washington Post. WP Company, October 30, 2019. https://
www.washingtonpost.com/technology/2019/10/30/putins-chef-architect-us-
election-interference-now-meddling-politics-across-africa-facebook-
says/
    \25\ Alba Davey and Frenkel Sheera, ``Russia Tests New 
Disinformation Tactics in Africa to Expand Influence.'' The New York 
Times, October 30, 2019. https://www.nytimes.com/2019/10/30/technology/
russia-facebook-disinformation-africa.html
    \26\ Michael Schwirtz and Gaelle Borgia, ``How Russia Meddles 
Abroad for Profit: Cash, Trolls and a Cult Leader.'' The New York 
Times, November 11, 2019. https://www.nytimes.com/2019/11/11/world/
africa/russia-madagascar-election.html
    \27\ Lara Jakes, ``As Protests in South America Surged, So Did 
Russian Trolls on Twitter, U.S. Finds.'' The New York Times, January 
19, 2020. https://www.nytimes.com/2020/01/19/us/politics/south-america-
russian-twitter.html
    \28\ Candace Rondeaux, ``Decoding the Wagner Group: Analyzing the 
Role of Private Military Security Contractors in Russian Proxy 
Warfare.'' New America, 2019. https://www.newamerica.org/international-
security/reports/decoding-wagner-group-analyzing-role-private-military-
security-contractors-russian-proxy-warfare/
    \29\ Sergey Sukhankin, ``Russian Mercenaries Pour into Africa and 
Suffer More Losses (Part One).'' The Jamestown Foundation, January 21, 
2020. https://jamestown.org/program/russian-mercenaries-pour-into-
africa-and-suffer-more-losses-part-one/
    \30\ Sergey Sukhankin, ``Russian Mercenaries Pour into Africa and 
Suffer More Losses (Part One).'' The Jamestown Foundation, January 21, 
2020. https://jamestown.org/program/russian-mercenaries-pour-into-
africa-and-suffer-more-losses-part-one/
    \31\ Eric Schmitt and Thomas Gibbons-neff, ``Russia Exerts Growing 
Influence in Africa, Worrying Many in the West.'' The New York Times, 
January 28, 2020. https://www.nytimes.com/2020/01/28/world/africa/
russia-africa-troops.html
    \32\ Tim Lister and Clarissa Ward, ``Putin's Private Army Is Trying 
to Increase Russia's Influence in Africa.'' CNN. Cable News Network. 
Accessed 2019. https://edition.cnn.com/interactive/2019/08/africa/
putins-private-army-car-intl/
    \33\ Maria Tsvetkova and Anton Zverev, ``Exclusive: Kremlin-linked 
contractors help guard Venezuela's Maduro--sources.'' Reuters, January 
25, 2020. https://www.reuters.com/article/us-venezuela-politics-russia-
exclusive/exclusive-kremlin-linked-contractors-help-guard-venezuelas-
maduro-sources-idUSKCN1PJ22M
    \34\ Julian E. Barnes, ``U.S. Begins First Cyberoperation Against 
Russia Aimed at Protecting Elections,'' The New York Times, October 23, 
2018, https://www.nytimes.com/2018/10/23/us/politics/russian-hacking-
usa-cyber-command.html.
    \35\ David Ignatius, ``The U.S. military is quietly launching 
efforts to deter Russian meddling,'' The Washington Post, February 7, 
2019,https://www.washingtonpost.com/opinions/the-us-military-is-
quietly-launching-efforts-to-deter-russian-meddling/2019/02/07/
4de5c5fa-2b19-11e9-b2fc-721718903bfc_story.html?utm_term=.1cbbaf8bf3ae.
    \36\ National Cyber Security Strategy of United States of America, 
September, 2018. https://www.whitehouse.gov/wpcontent/uploads/2018/09/
National-Cyber-Strategy.pdf
    \37\ U.S. Congress, Senate, Defending American Security from 
Kremlin Aggression Act of 2019, S 482, 116th Congress, 1st session, 
introduced in Senate February 13, 2019, https://www.congress.gov/116/
bills/s482/BILLS-116s482is.pdf.
    \38\ AFP, ``Russia-linked disinformation campaign fueling 
coronavirus alarm, U.S. says,'' Radio France Internationale, February 
22, 2020. http://www.rfi.fr/en/wires/20200222-russia-linked-
disinformation-campaign-fueling-coronavirus-alarm-us-says

    Senator Portman. Great. Thank you very much. You have given 
us lots to chew on here because there is so much, and we are 
not going to have time today to go into every detail. But 
again, we appreciate your constant help on the legislation.
    Specifically, both of you were helpful in developing it, 
and we appreciate the continued briefings, and as you say, this 
is an evolving issue. And as it evolves, we have to be nimble 
and be able to change our strategies.
    Let us talk about money for a second. Because we were 
debating earlier, you know, what should the budget be? Is it 
$60 million or $130 million? Can you put that in some context 
for us?
    Mr. Blumenthal, you talked about Chinese state media. Dr. 
Polyakova, you have talked in the past about the amount that 
Russia is spending not just on state-owned media, but on media 
here within the United States and even within the District of 
Columbia. Can you give us some sense of what that would be and 
as compared to the $60 million to $130 million we are talking 
about?
    Dr. Polyakova. I would be happy to start on the Russia 
question.
    One, it is not such a straightforward question to answer 
because, of course, we do not know how much they are spending 
on the covert operations, and most of what they are doing in 
the digital domain is covert. It is these false personas. It is 
the bot networks. It is the obfuscation of the origins of the 
attack.
    These are broad estimates because the Russians do not 
publish this budgetary information, as we do--is the latest 
estimate how much Russia spends on RT, which is their global 
foreign language, meaning English and other languages network, 
is at around $300 million. But that number is several years 
old, and we have no updates since then.
    That does not include a whole swath of other overt 
government media outlets. Sputnik being one of them, Tass, and 
many, many others. And so some estimates put that number well 
over $1 billion. But again, this is an estimate. We know that 
in their local Russian language media, the Russians spend at 
least 1.3 billion in U.S. dollars.
    So on the whole, it is very difficult to judge covert and 
overt ops, but most experts say it is upwards of $2 billion to 
$3 billion a year.
    Senator Portman. That is helpful, and I have heard the $1.3 
billion number just for state-run media alone, and the $2 
billion or $3 billion, it seems me, is a conservative estimate, 
given, as you say, so much activity is covert. But again, let 
us compare that to what we are talking about in terms of $60 
million to $130 million.
    Now, Mr. Blumenthal, thoughts about that?
    Mr. Blumenthal. Yes, Chinese numbers are so opaque, and you 
just cannot trust a lot of the numbers. We do know that in the 
unclassified realm, that China now spends more on what they 
call internal security than on the People's Liberation Army's 
external missions, which, you know, they spend at least $130 
billion on external missions. So internal security is in the 
billions, if not over $100 billion.
    Now how much of that goes to censorship, propaganda, and 
disinformation is even tougher to know. I could just name some 
organizations that--so to get a movie into China, to get movie 
content from Hollywood into China, you have to go through not 
just the normal organizations that look at film, like the State 
Administration for Radio and Television and the Administrative 
Information--State Council Information Office. You also now 
have to go through the State Ethnic Affairs Commission. You 
have to go through the Ministry of Public Security, the State 
Bureau of Religious Affairs, the Ministry of Education, the 
Ministry of Justice, the Ministry of Foreign Affairs, and other 
bureaucratic entities.
    So I would say that we are looking at billions and billions 
of dollars spent on censoring content, and then within--for the 
Chinese people themselves to absorb and for the world to 
absorb. And then money spent on detaining journalists, that is 
police and internal security, money spent on kicking out 
journalists. And then I think what could be very helpful, 
perhaps even for Congress to do, is get the intelligence 
community to map out the actual funding of ``state media.''
    So Tencent, for example, which we consider a publicly trade 
tech company, funds a lot of the state media, which are 
actually Asian. So the government here in the United States and 
in Europe and in other places pushing the party line. So the 
money is gigantic.
    And then, of course, there is how do you calculate the 
money of denying access to certain companies if they do not toe 
the party line in China?
    Senator Portman. Well, again, it is staggering, and what we 
are doing pales in comparison, and our effort, again, is about 
exposing and about providing an accurate narrative. It is not 
about disinformation. It is about information. But I think that 
was helpful to put that in some context.
    On Ukraine in particular, Dr. Polyakova, you and I talked a 
lot about Ukraine, and you are expert on much of what has 
happened there. I think it might be interesting to talk a 
little about the focused disinformation efforts that continue. 
We talked about since the Revolution of Dignity in 2014 that 
Russia has been very active.
    I am the co-chair of the Ukraine Caucus, and along with 
Senator Murphy and others, we have been involved in these 
Ukraine issues. President Zelensky has got a lot on his hands 
right now, and one thing is this disinformation. Can you talk 
specifically about what the Russians are doing in Ukraine to 
try to sow confusion about the status of Crimea, about the 
Donbass, about the U.S. role there, and what we can do to help 
Ukraine in this disinformation battle?
    Dr. Polyakova. Thank you for that question, Senator.
    As I mentioned earlier, Ukraine continues to be victim 
number one and target number one for Russian disinformation and 
political warfare efforts. And it does not just stop with 
disinformation. Ukraine has also been the primary target of 
some of the most damaging cyberattacks we have seen in history 
in recent years.
    And I think what we have learned in this country is that 
what happens in Ukraine does not stay in Ukraine. All of these 
tactics eventually come to us, and they come to our other 
allies in Western Europe as well and the NATO alliance.
    What we have seen the last few years is that the kind of 
proxy information warfare I mentioned was first tested in 
Ukraine, the first instance of that that we learned about an 
open source was around the Ukrainian parliamentary elections 
last year in 2019, where the Ukraine intelligence agencies 
arrest an individual who confessed to being a Russian 
intelligence officer who was sent to Ukraine to try to convince 
domestic Ukrainians to sell or rent out their Facebook 
accounts, which they would then use as zombie accounts to 
propagate all kinds of political disinformation and post 
different kinds of ads.
    And then we saw them deployed at scale in Africa in the 
fall. So you see a very short timeline from the test you see in 
Ukraine in May. Then in October, we learned that they were 
carrying out this kind of proxy warfare at a large scale 
across, I believe, almost a dozen African countries that 
Facebook identified. So I think we need to follow these kinds 
of patterns.
    Most recently, in the coronavirus case, you have been 
discussing the Russian disinformation in this country, which 
the GEC, as we heard earlier, worked together with media to 
expose. In Ukraine, we know that Russian language media has 
been trying to sow chaos and propagate kinds of attacks on 
Asian minorities in Ukraine that there have been a few 
instances of attacks in some Ukrainian towns on people of East 
Asian origin. And this kind of narrative has been propagated.
    The other narrative that we see the Russian disinformation 
machine's overt and covert operators pushing out is that 
coronavirus was invented by the CIA, not just by Melinda and 
Bill Gates. And again, this is a pattern that we also saw back 
in the Soviet era and that we continue to see today. And first 
and foremost, that happens on Ukraine and Ukrainian soil.
    Senator Portman. Thank you much. I will have a second round 
in a minute.
    Senator Booker.
    Senator Booker. Thank you so much.
    So just I want to jump in. You guys can kick the tires a 
little bit of the GEC. You know, there is a whole bunch of 
stovepiping going on. I think you have got agencies--DoD, DHS, 
FBI, other intel agencies--trying to deal with the problem of 
disinformation, and there seems to be very centralized, highly 
funded, highly resourced state actors that we are going up 
against in this new order.
    They are not matching us tank for tank, aircraft carrier 
for aircraft carrier. This seems to be one of their main ways 
to try to undermine Western democracies. And so just tell me, 
as an outsider, do you believe the structure that we have set 
up here, and that the GEC, is this the most effective way for 
us to counter this massive state-sponsored undermining of 
Western democracies, our country, at a time where I have never 
seen in my lifetime the suspicion that Americans have now for 
institutions, how well lies and conspiracy theories seem to 
take root in our culture.
    This, to me, is weakening the bonds between us, our ability 
to come together. And meanwhile, China has built 18,000 miles 
of high-speed rail, and the busiest rail corridor in America, 
North America, from Boston to Washington, DC, runs half an hour 
slower because we cannot get together any more even as a 
society to work together and meet our common threat.
    So I just want you from outsiders, tell us, is this the 
best way to match the threat that we see growing in influence 
and strength from our foreign adversaries?
    Mr. Blumenthal. I guess I have been at this for a while. I 
think we should never have gotten rid of the USIA as an 
independent agency, which was not seated in any one department, 
could coordinate with some real power across the CIA and across 
DoD, and not only stop active measures that we used to call 
them from the Soviet Union, but take the active measures inside 
the Soviet bloc.
    So the short answer to your question is no. We are where we 
are. And I think if the GEC is properly funded and does not 
have to fight with the Special Forces Command and others about 
who has the authority. They should be in the lead. I mean 
Special Forces Command is a warfighting command. Particularly 
on the China issue, which is a strategic national-level issue 
with the kind of things that I am talking about is kicking out 
of U.S. media, trying to control the content of what we say, 
trying to stop our free speech rights, going after our allies, 
going after countries we want to win over in Africa. So it 
should not be a military lead by any stretch of the 
imagination.
    I think if they are given the proper authorities and can 
actually coordinate interagency action and have the power and 
authority to do so, have enough Chinese language linguists who 
know the culture well and not only can know the information 
environment in China well and not only can identify the 
disinformation and identify these so-called media people here 
in the United States and kick them out under the authorities 
they have, who can actually go into China and tell our story or 
tell the truth, I think we will--it will be better than what we 
have had over the last few years.
    Senator Booker. Right. And I would say that the challenge I 
have with what you are saying is I understand the China 
propaganda machine, they are affecting our companies, our 
business, undermining fair play in the economy, so forth. But 
that is a little different to me, and maybe I am wrong, than 
China's efforts to undermine our democracy, their offensive 
efforts. And so could you just help me understand that 
distinction and because I get confused when you start talking 
about Disney, who does not--I have actually talked to people in 
those industries about how if you want to have a blockbuster 
global film, you no longer have a Chinese villain.
    But that is very different than the Chinese insinuating 
fear around the coronavirus here or interfering within our 
elections so there is more chaos created.
    Mr. Blumenthal. Well, let me connect the two because I 
believe that once you start affecting the way Hollywood or the 
National Basketball Association--let us say Hollywood--does its 
content, it feeds back into the United States. And without 
noticing it, the American people are all of a sudden getting 
movies that are like Top Gun this summer, that are affected by 
what the Chinese think and not by what we think. They made 
people take off their Taiwanese and Japanese flight suits.
    But I understand your point----
    Senator Booker. That is a fair point.
    Mr. Blumenthal. Yes, yes. And getting NBA stars to kowtow 
on the Hong Kong issue. That is different than Russia. That is 
trying to affect our free speech rights here in the United 
States.
    But in terms of the specifics that you are talking about, 
so the number one, two, and three ways they do it, which is 
different than Russia, is through--we have tolerated Xinhua and 
the Global Times and the Confucius institutes, and the reason I 
am conflating them all is because they basically all work for 
the same organizations. And that is to be here posing as news 
reporters, but really, you pick up your newspaper, the 
Washington Post. You get the China Daily out of it, and it is 
really just propagating the Chinese line about their 
ideological worldview, which, by definition, undermines our own 
worldview.
    It is an authoritarian worldview. It is a deceitful 
worldview. And it just has no business being credentialed as 
media here in the United States.
    Senator Booker. Please, please----
    Dr. Polyakova. I would say the big difference between 
Russia and China is resources. The Chinese no doubt have a far 
greater ability and capability to not just play at the margins, 
especially in the digital domain, which is relatively cheap.
    It is very cheap to build a bot army. It is very cheap to 
have a troll that controls 50 accounts or so, et cetera. What 
the Chinese have been doing other parts of the world--and you 
know, Dan, please correct me if I am mistaken there--is 
actually co-opting local media organizations that are then 
putting out information in local languages that is a positive 
take on China in general.
    And that insidious process is a long-term strategy, whereas 
the Russians are playing very much a short- or medium-term 
strategy. I completely agree with my colleague that we 
completely dismantled our ability to message and to reach 
vulnerable populations on front-line states.
    We still have VOA and RFERL, of course. But these entities 
are set up to fight 20th century information wars. We are not 
in the 20th century anymore. So we may want to consider 
something like a USIA, but the USIA has to be a 21st century 
digital USIA because the place we are falling behind is in that 
digital space.
    We do not have clear coordination, as we heard earlier, 
between the tech companies. At the end of the day, it is not 
just about content, as you said earlier, Senator, it is about 
the distribution system that enables the amplification and 
magnification of that content and the precise microtargeted 
delivery of that content to specific vulnerable situations. 
That is the beast we have to fight at the end of the day.
    Senator Booker. And so the GEC--just to finish before I 
pass it back to the chairman, the GEC is not your ideal way 
of--it is important. They do important tasks. But given the 
looming threat, that is not your ideal--they are not fully 
equipped to deal with the modern crisis we are facing, both 
near term and far term?
    Dr. Polyakova. It is a good start, but we need to do so 
much more. I think, first and foremost, there is a funding 
question that we have been discussing, and second, there is a 
political mandate question. There needs to be an 
undersecretary-level position to own this problem. Until we 
have that, I do not think we are going to get the kind of 
interagency, whole of government response that we are looking 
for.
    Senator Portman. Yes, again, as I said earlier, I am 
reassured by what Ms. Gabrielle has done with that organization 
and particularly encouraged by the new budget request and her 
ambitious plans. But I think it is somewhat personality driven. 
In other words, she has been effective at getting things done 
at a higher level. So I do not disagree with you that having 
someone that has the ability to work at the interagency level 
because they have responsibility and authority would be 
helpful. So kicking it up to a higher level.
    I will say in the case of this Secretary of State, he 
testified in this room where you all are sitting about this 
very topic and was very supportive, and I think that has been 
one of the reasons again it has been successful. But that may 
not be the case in the future.
    Just quickly, I think it is fascinating what you are saying 
about the different approaches. Now we need to be cognizant of 
that. One story I have heard recently, and it may be 
disinformation, but I do not think so, is with regard to 
China's activities in Africa. We talked about this earlier.
    And I think this is one reason I am encouraged that, again, 
the GEC wants to get more involved in Africa. But it was on 
your question about media, and it was actually buying or 
acquiring media companies and then providing the people of 
these poor countries a network and nightly news and morning 
news and noon news that they did not otherwise have, but it was 
all based on China's interest in propagating their own 
narrative.
    So on the one hand, great that these communities now, 
thanks to the Chinese government, have better infrastructure 
or, in this case, media infrastructure. But not if it is going 
to be disinformation, as opposed to what you are saying about 
Russia, which is not that long view, necessarily. It is more 
taking the coronavirus, immediately creating a distrust and 
disinformation around that.
    Is that true, Mr. Blumenthal?
    Mr. Blumenthal. It is true. And it is even worse than that 
in a sense that so companies that are well funded like Xinhua 
or the Global Times or other Chinese companies that we know 
here have training programs for African journalists and 
sometimes are the only source of information, even though it is 
disinformation, in these countries. They are going out, and I 
would say it is the entire spectrum, from being able to 
propagate the Chinese line to report the way the Chinese want.
    CCTV is another one of those companies that is becoming 
even more prevalent in the rest of the world. They are 
purchasing other companies or they are providing, or they are 
just maintaining presences or opening up presences in some of 
the countries you are talking about. Training, supposedly 
training journalists and also teaching other dictators how to 
censor content is another big one.
    Senator Portman. So this is a huge challenge, and the GEC 
is not equipped to handle that. So let us take an individual 
African country that has this opportunity to have a network set 
up, and it is more partnering with, I would assume, those 
countries and regional organizations of countries to be able to 
understand what the threat is and to provide assistance so they 
do not have to rely on that.
    Is that the answer there, and is that more of a State 
Department function?
    Mr. Blumenthal. Partly. We also have great NGOs who have 
been really very ahead of the curve. Human Rights Watch and 
Freedom House, I mean, they were the ones who came out with the 
first reports and analysis on this Chinese sharp power in these 
countries that identified exactly what I am identifying, which 
is they are training generations of Africans and others to toe 
the Chinese Communist Party line or--I should say and/or to 
support dictatorships in their own countries.
    So the National Endowment for Democracy has a role. Freedom 
House has a role. The State Department has a role. Some of the 
intelligence agencies have a role. If the American people could 
get a real sort of network map of which Chinese party 
organization is funding which media organization or which 
training program for journalists, that first level of 
transparency I think would help us a lot to see the scope.
    Senator Portman. Yes, and I think that is part of the 
broader issue that we are dealing with, with China, including 
here, with regard to Confucius Institutes and the talent 
recruitment programs that we have heard a lot about recently 
with Dr. Lieber and so on.
    On the NGO issue, I know that both of you are very involved 
with the NGO community and civil society more broadly and the 
so-called ``fact-checkers,'' which I agree with you, if we can 
continue to support those kinds of organizations, some of whom 
may not be precisely aligned with the GEC on the way to 
approach this, the best practices we talked about earlier. But 
on the other hand, they are out there doing incredible work 
that we cannot afford to do as a country.
    And often, they are state actors themselves. So a small 
country in the Baltics, as you talked about earlier, can play a 
big role here. Can you talk a little about that and how we can 
leverage more of that activity both in the NGO community and 
among these smaller democracies to get them to be more 
effective?
    Dr. Polyakova. Yes, thank you for that question.
    I think one of the elements of the GEC that we have not 
discussed is their funding capabilities to local organizations, 
and I think that has been critical in jump-starting quite a bit 
of work, especially in Central and Eastern Europe with the 
Baltic states, the Balkans, and elsewhere, to give these small 
groups that do not have funding otherwise to be able to carry 
out this important work.
    And I think this signals the kind of advantage that we have 
as a democracy is that you look at Russia, you look at China. 
Their approach is top-down, at the end of the day, to any 
problem. Our approach will never be that way. So we have to 
rely on a bottom-up structure.
    We empower local organizations in an organic, but 
decentralized way, who know their local context better than we 
do, to give them the running room, the independence, to be able 
to do their work. And I think the GEC's ability to fund those 
organizations should be maintained and should be increased in 
the next budgetary request because it has been so critical in 
creating this kind of organic response to disinformation 
efforts, especially in Central and Eastern Europe.
    I will say one thing is that I mentioned earlier that these 
countries have been the target of these attacks, especially 
Ukraine and the Baltic states, have also built better 
resilience against them. And I would also point to the Nordic 
states. You know, RT Swedish tried and failed in Sweden for a 
reason. Nobody took it seriously because there was a generally 
very high level of public awareness that this was a Russian-
funded media outlet, and nobody paid attention to it.
    That kind of resilience is something that we can learn 
from. It is something that I think Western European countries 
can learn from. So I would not just look at Central and Eastern 
Europe as a place we need to support and fund. We also should 
be looking at it as a place where we can take some lessons 
home.
    Senator Portman. Great points. We probably did not talk 
about that enough earlier in terms of what GEC is doing, 
screening, but then providing help to some of these NGOs, other 
members of civil society, particularly to build that resilience 
in some of these smaller democracies.
    Senator Booker.
    Senator Booker. So they have just called votes, Mr. 
Chairman, and that means at some point, we are going to have to 
leave here. So maybe I just want to ask just general, if you 
had a chance, you have got two Senators here. Are you guys 
concerned, worried, or alarmed at the American response as it 
stands now to what China, Russia, other foreign nationals?
    You said, Dr. Polyakova, you said that the Russians' 
playbook is not just worrisome because they are getting better 
at their playbook, but also because their playbook is being 
copied by other countries. And so you can see more and more of 
these things spreading.
    So I just really want you to know like you have a moment on 
the record to say you guys are concerned, given all that we are 
doing, or worried or just like sound the alarm, the modern-day 
Paul Revere. The Chinese are coming. The Russians are coming. 
Wake up because you are not doing enough. Where are you guys?
    Dr. Polyakova. If we are talking about worry, concern, 
alarm scale--I would say that I am between concerned and 
alarmed.
    Senator Booker. Okay.
    Dr. Polyakova. I do not think we should panic. We are the 
United States. We have the greatest economy in the world. We 
have the greatest alliance structure in the world. We are so 
capable of responding to this threat.
    The reason I am concerned is not because I am concerned of 
our inability to respond. I think we are very capable as a 
country, as a government, to respond. But I am concerned that 
it has been such a polarizing, such a partisan issue that we 
have not been able to get the kind of momentum we would 
actually need to be able to respond in the way that we should.
    So I would say my concern is less about Russia destroying 
our democracy, and I do not want us to go to that panic alarm 
mode. My concern is more that we need to get our act together 
at home to be able to respond effectively.
    Senator Booker. Okay.
    Mr. Blumenthal. Senator, it depends on the day. I mean, 
sometimes concern, sometimes alarm. When I wake up in the 
morning and read that we are capping Chinese state media from 
being in the United States or using the Foreign Missions Act to 
kick them out of the United States, I am less alarmed.
    When I see that the FBI is actually and the Justice 
Department's China initiative is actually going after both 
influencers, let us say political influencers, as well as 
espionage, I am happy we are slowly waking up. But it is, I 
mean, the scope that I described is alarming also, and the idea 
that China is engaged in a comprehensive--it is not China as a 
whole, it is the Chinese Communist Party is engaged in this 
comprehensive effort to undermine our position in the world and 
undermine democracy and train others to be dictatorships and 
authoritarian and toe their line.
    And in the 19th Party Congress Report to say they want a 
whole different world order based on Chinese CCP values, it is 
alarming, and we are getting started. But again, you look at 
just American even elite public awareness of the concerted 
effort to undermine content, to undermine free speech, to 
undermine basic values, you know, we are just not there yet.
    Senator Booker. But it is fascinating to me, I am sorry, I 
know my history of the Cold War----
    Mr. Blumenthal. Yes, yes.
    Senator Booker. --where we took it very, very seriously. It 
seemed like a whole nation-state, bipartisan commitment to 
stopping the spread of the Soviet Union's influence. Now it is 
a different day.
    But this is a great story for the chairman. Jeff Flake, 
with whom I chaired a subcommittee, the Africa Subcommittee, we 
are flying over because Mugabe has just been overthrown. Coons 
was on that trip. Bipartisan group, ready to put in sanctions, 
have free and fair elections to Emmerson Mnangagwa--we land in 
Zimbabwe--honor democratic principles and ideals. He is coming 
in from China, and their message to him was we do not care what 
you do.
    And so I am alarmed, to be frank, that the Chinese are 
looking at this as a 25-, 50-year process. We are seeing this 
in election cycles. We are still not even having consensus on 
the breadth and the depth of the problem. We are still dealing 
with this with stovepiping.
    But yet the planet Earth right now is in this battle 
between authoritarian governments and free democracies. And 
frankly, what is our scorecard in the last 10 years? I mean, I 
can go through Hungary. I can start naming countries that are 
shifting more towards authoritarianism.
    Elections are being challenged. We have seen interference 
in everything from Brexit elections to EU elections to here at 
home, Madagascar, New York Times was reporting. So I do not 
know if our sophistications and capabilities are matching what 
the threat is, and as I see firsthand now, as having the 
incredible privilege to sit on this committee, from what I 
witness with my own eyes when I visit Africa or other places, I 
am really concerned about our ability to keep up right now.
    And it seems to me, even though there are great patriots in 
the Administration and great committed folks, that we are not 
taking this threat as seriously as we should.
    And with that, Mr. Chairman, unless you all would want to 
comment on anything I said for a final word in my 1 minute and 
40 seconds left.
    Mr. Blumenthal. I agree with all that, and in fact, I would 
say it is even worse because the Chinese have been doing this 
since the end of the Cold War and since the Tiananmen Square 
massacre and since they identified us as the main threat to the 
regime. This has been going on for an extremely long time.
    The one positive note I would say is that the Taiwanese 
fought back successfully on a massive disinformation campaign, 
working with Twitter and Google and Facebook, and we helped 
them. The U.S. Government helped them.
    And the Hong Kongers are still out on the streets 
protesting. The closer they are to China, the more they dislike 
the CCP, and they see the problem.
    But in general, I agree with you.
    Senator Booker. Thank you very much.
    Dr. Polyakova. Just very briefly, I agree with you as well. 
I think taking the combination of Russian and Chinese 
activities across the world, that is a cause for alarm in the 
long term of U.S. leadership in the world and the long term 
health of democracies in the world. And I think that also 
speaks to the point of why every country matters and why we 
have to be there before they are.
    And that is where we are starting to lose ground is that we 
are not identifying vulnerable areas and forming a strategy as 
to how to reach vulnerable populations, those vulnerable 
countries. And it is not just about Ukraine. It is about a 
variety of countries across the world, but it is also why I 
think countries like Ukraine really matter a lot, just like 
countries like Taiwan matter so much and deserve continued U.S. 
support on a strategic level.
    Senator Booker. And before I let you close this out, I 
think it is very important for the congressional record, for 
the senatorial record to hold it for all history to come that 
when Dr. Polyakova came here, she came serious because she 
brought her mother here to back her up. You thought this was so 
important you have generational strength here, and could you 
just say her name into the record? I think it is really nice 
that she is here. Irina?
    Dr. Polyakova. Sure. This is my mom, Irina Polyakova, and 
she brought me here from the Soviet Union. I am always grateful 
for that.
    Senator Booker. Thank you very much. It is wonderful to see 
you. What a great immigrant American story.
    Thank you very much.
    Dr. Polyakova. Thank you.
    Senator Portman. Thanks to both of you for some very 
helpful, insightful testimony, and I am going to leave on a 
more positive note, which as I look around the world, and I see 
all of these sort of non-kinetic activities and the 
disinformation campaigns, and they are troubling, to be sure. 
But to Dr. Polyakova's point about democracies, we have an 
ultimate weapon here, which is the strength of people and 
voices being heard and bottom-up rather than top-down.
    And I look at what has happened in Ukraine just in the last 
5 years. I look at what has happened in places like Bolivia 
more recently. I look at what happened in North Macedonia, 
despite massive efforts. There are some success stories, and we 
should learn from those.
    Not that we are done in any of those countries, by the way. 
We have lots of work to do. But we have to figure out how to 
better organize ourselves. That is why we started the GEC. It 
is not going to solve all the problems. As you said earlier, 
there is no one solution, Dr. Polyakova, but your testimony 
today has been very helpful for us to get a better feel for 
that.
    The one issue we did not address that I think we should 
have gotten a little deeper and which we will do more in 
response to questions I hope that we will have is with regard 
to the social media platforms. And you mentioned how Google and 
Facebook and Twitter and others have been helpful with regard 
to Taiwan, but they also have played a role that is not as 
helpful, and we have got to talk about that issue more 
honestly, I think, and figure out how to work together to push 
back and to ensure that the right information is out there for 
people to make decisions on their own and to promote more 
freedom and democracy.
    Thank you all for being here today.
    [Whereupon, at 12:10 p.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


              Responses of Ms. Lea Gabrielle to Questions 
                  Submitted by Senator Robert Menendez

              public diplomacy management and authorities
    The day after your hearing, the Department announced that Secretary 
Pompeo had ``delegated R authorities to Counselor T. Ulrich 
Brechbuhl.'' The Undersecretary for Public Diplomacy and Public Affairs 
(R) is a position that falls under the Appointments Clause of the U.S. 
Constitution, which requires nomination by the President and the advice 
and consent of the Senate. As such, the position of R is governed by 
the Vacancies Act, which is ``the exclusive means for temporarily 
authorizing an acting official to perform the functions and duties of 
any office of an Executive agency . . . for which appointment is 
required to be made by the President, by and with the advice and 
consent of the Senate'' [5 U.S.C.  3347(a)]. Section 3347 of the 
Vacancies Act states that a general statute authorizing the head of an 
executive agency ``to delegate duties statutorily vested in that agency 
head to, or to reassign duties among, officers or employees of such 
Executive agency'' will not supersede the limitations of the Vacancies 
Act on acting service [5 U.S.C.  3347(b)]:
    Question. Given that the Under Secretary for Public Diplomacy and 
Public Affairs is a senate-confirmed position, and Mr. Brechbuhl is not 
a confirmed officials, please explain the legal and policy basis for 
the delegation of authorities, including any restrictions under the 
FVRA or other relevant statute?

    Answer. The State Department Basic Authorities Act requires that 
there be an Under Secretary for Public Diplomacy appointed by the 
President, by and with the advice and consent of the Senate. 22 U.S.C. 
 2651a(b)(1) and (b)(3). Under the Act, the Secretary has the 
authority to delegate any of the functions of the Secretary or the 
Department to officers or employees under his direction and 
supervision. 22 U.S.C.  2651a(a)(4). The Secretary delegated the 
authorities of the Under Secretary to Counselor Brechbuhl ``to the 
extent authorized by law.'' Because the position of Under Secretary is 
subject to appointment by the President and confirmation by the Senate, 
the Counselor would be unable to exercise certain types of authorities, 
which are therefore not covered by this delegation. The delegation does 
not include authorities delegated by the President pursuant to 3 U.S.C. 
 301, including certain authorities under the Convention on Cultural 
Property Implementation Act (CCPIA) (19 U.S.C.  2601 et seq., as 
implemented through Executive Order 12555 (March 10, 1986)). CCPIA 
authorities were previously delegated to, and are routinely exercised 
by, the Assistant Secretary of State for Educational and Cultural 
Affairs, a position which is subject to Senate confirmation and the 
Vacancies Reform Act.
    Additionally, Counselor Brechbuhl is not serving as `Acting Under 
Secretary' for Public Diplomacy and Public Affairs (R) in the context 
of the Vacancies Reform Act but, rather, as `Senior Official' for R.

    Question. Please cite the statute that allows the Secretary of 
State to delegate the authorities of R to another employee.

    Answer. Section 1(a)(4) of the State Department Basic Authorities 
Act (22 U.S.C.  2651a(a)(4)) states the following: ``Unless otherwise 
specified in law, the Secretary may delegate authority to perform any 
of the functions of the Secretary or the Department to officers and 
employees under the direction and supervision of the Secretary. The 
Secretary may delegate the authority to redelegate any such 
functions.''
    When the R and other Under Secretary positions have been vacant, 
their authorities have generally been exercised by an individual either 
designated by the President, pursuant to the Vacancies Reform Act, or 
delegated the authorities from the Secretary to the extent permissible 
by law.
    In light of the sovereign nature of some of the duties of an Under 
Secretary of State, in addition to delegating certain authorities 
vested in the Under Secretary of State for Public Diplomacy and Public 
Affairs to Counselor Brechbuhl, the Secretary also appointed Mr. 
Brechbuhl as an officer of the United States (pursuant to 5 U.S.C.  
301, 2104, 2105 and 3101, and 22 U.S.C.  2651a(a)(3)(A).

    Question. Were all R authorities delegated to Mr. Brechbuhl? If 
not, please enumerate specifically which authorities were delegated and 
which were not, and the disposition of any undelegated authorities. 
Given that the Under Secretary for Public Diplomacy and Public Affairs 
is a senate-confirmed position, and Mr. Brechbuhl is not a confirmed 
officials, please explain the legal and policy basis for the delegation 
of authorities, including any restrictions under the FVRA or other 
relevant statute.

    Answer. The Secretary delegated to Counselor Brechbuhl, ``to the 
extent authorized by law,'' ``all authorities vested in the Under 
Secretary for Public Diplomacy and Public Affairs, including all 
authorities vested in the Secretary of State that have been or may be 
delegated or re-delegated to that Under Secretary.''
    Because the position of Under Secretary is subject to appointment 
by the President and confirmation by the Senate, the Counselor would be 
unable to exercise certain types of authorities, which are therefore 
not covered by this delegation. The delegation does not include 
authorities delegated by the President pursuant to 3 U.S.C.  301, 
including certain authorities under the Convention on Cultural Property 
Implementation Act (CCPIA) (19 U.S.C.  2601 et seq., as implemented 
through Executive Order 12555 (March 10, 1986)). CCPIA authorities were 
previously delegated to, and are routinely exercised by, the Assistant 
Secretary of State for Educational and Cultural Affairs, a position 
which is subject to Senate confirmation and the Vacancies Reform Act.

    Question. Does the Administration plan to have the R authorities 
designated to Counselor Brechbuhl indefinitely? (In The Office of 
Thrift Supervision v. Paul, 985 F. Supp. 1465, 1474-75 (S.D. Fla. 
1997), the Court stated that it ``does not hold that such a designation 
could be indefinite''.)

    Answer. By its terms, the delegation will expire upon the 
appointment and entry upon duty of a subsequently appointed or 
designated individual to serve as Under Secretary of State for Public 
Diplomacy and Public Affairs, unless sooner revoked.

    Question. Why has the administration not nominated someone to fill 
the position of R, which has been empty for nearly 2 years?

    Answer. Addressing and filling vital senior leadership positions at 
the State Department is one of Secretary Pompeo's highest and most 
immediate priorities. He continues to work with the White House and 
Senate to fill many top positions, including the position of Under 
Secretary for Public Diplomacy and Public Affairs. The Department 
continues to employ strategies and programs to mitigate any negative 
impact of staffing gaps and remains committed to seeking out innovative 
strategies to expedite recruitment at the highest levels.

    Question. Given the delegation of authorities for a senate 
confirmed position and his unconfirmed position, will Mr. Brechbuhl 
commit to quarterly meetings with the Senate Foreign Relations 
Committee, commencing immediately, to discuss his performance of 
delegated authorities as R? If not, why not?

    Answer. Counselor Brechbuhl will consider all requests to meet with 
the Senate Foreign Relations Committee, as appropriate.
                                staffing
    Question. How many Senior Foreign Service Officers currently serve 
in the Global Engagement Center?

    Answer. Of the nine total Foreign Service staff at the GEC, we 
currently have two Senior Foreign Service Officers.

    Question. Given current authorization numbers, please describe 
efforts to recruit Foreign Service and Civil Service officers to serve 
in permanent positions in the GEC.

    Answer. The GEC is vigorously pursuing many hiring options 
available in the Department and as authorized by legislation. The GEC 
now has 17 Foreign Service positions, 9 of which are currently filled. 
The remaining 8 new positions are expected to be filled during the 
summer 2020 Foreign Service transfer season. During the 2019/2020 
Foreign Service assignments cycle, the GEC had 46 Foreign Service 
candidates apply for 12 available positions. Additionally, we have 
advertised our Foreign Service positions in a widely-distributed 
Department Notice and have had a global conference call to discuss our 
mission and answer questions from interested candidates during the 
bidding season. The GEC has regularly taken advantage of opportunities 
to bring on additional talented Foreign Service Officers via temporary 
1-year domestic Foreign Service assignments (a ``Y-tour''). Other 
efforts to recruit Foreign Service Officers, as well as Civil Service 
staff, include leveraging GEC staff professional networks to identify 
highly qualified individuals who could fill positions via lateral 
transfers or non-competitive appointments.

    Question. Do you believe you have the necessary authorities and 
resources to fully operationalize your mission?

    Answer. The GEC previously had a limited term hiring authority--
known as ``3161'' authority--that allowed it to bring in experts from 
outside of government. That authority has since expired. If Congress 
could provide the GEC a similar authority to bring in experts for a 
temporary period, it would be a key improvement to the GEC's 
authorities and operational capabilities.
    In terms of funding, Congress wisely structured the new Counter 
China Influence Fund (CCIF) to provide resources to counter China 
globally. However, the resources in the Counter Russia Influence Fund 
(CRIF) can only be used for the countries in Europe and Eurasia still 
eligible for foreign assistance funding. This severely limits the 
flexibility of the interagency to address Russian influence operations 
as the global challenge they represent. For example, Africa and Latin 
America are major areas of concern. If the CRIF could be redefined to 
counter Russia globally that would be helpful to the GEC and the 
broader interagency.
                               operations

    Question. What standardized methods do you have for evaluating your 
effectiveness in fulfilling your mission?

    Answer. The GEC follows the State Department's 18FAM300 guidance 
and the Managing for Results Framework to develop and conduct 
evaluations on GEC programs. This guidance also provides a framework 
for incorporating the lessons learned and best practices from these 
evaluations into the GEC's strategic planning.
    The GEC's Monitoring and Evaluation (M&E) specialists conduct 
evaluations with academic rigor using methods such as focus groups, key 
informant interviews, desk research, and social network analysis to 
test the successful effectiveness of the programs toward achieving 
their objectives.

    Question. How many staff are currently dedicated to evaluation and 
metrics?

    Answer. Currently, the GEC has three full-time M&E specialists. 
These specialists work with the threat teams, implementing partners, 
academics, Department counterparts, and across the interagency. The 
GEC's M&E specialists work with these stakeholders to identify and 
implement best practices, assess impact, and facilitate strategic 
planning by disseminating lessons learned and supporting program 
design.
    Additionally, there is the Analytics and Research team comprised of 
approximately 20 individuals with expertise in data collection, 
analytics and research methodologies such as Social Network Analysis, 
polling, and artificial intelligence. This team produces rapid-response 
analytic products to help us understand emerging threats, current 
trends, and themes in ongoing campaigns.
    Lastly, the GEC leverages third-parties for evaluation support. 
Third-parties can provide an unbiased assessment of GEC projects and 
programs and may have local language, knowledge, and resources that may 
be necessary for data collection.

    Question. Is monitoring and evaluation built into your programs? 
Please describe the resources, tools, and staffing you dedicate to 
analytics. How are these metrics integrated into your strategic 
planning?

    Answer. Monitoring and evaluation is built into GEC programs using 
a multi-layered approach. Over the last year, the GEC's M&E specialists 
have worked to develop standardized M&E processes within the GEC and 
with implementing partners. During the application for funding process, 
prospective implementers begin the framework of the project's M&E by 
submitting a theory of change (what change the project is meant to 
create in its environment--essentially the project's hypothesis), a 
logical framework (the logical structure of a project detailing 
activities, outputs, outcomes, objectives, and goals), an indicator 
reference sheet (the metrics by which the performance of the project 
will be measured), and the monitoring and evaluation narrative (the 
description of how the project will perform M&E). These tools help the 
GEC's M&E Specialists work with the implementer to design M&E in from 
the beginning.

    Question. How do you share your evaluation and best practices with 
other bureaus in the Department and across the interagency?

    Answer. The GEC endeavors to work with all bureaus whose area of 
responsibility intersects with the location or mission of a GEC program 
or project. In doing so, we maintain continuous communication on 
projects including weekly meetings, sharing field reporting, and 
providing briefs to bureau heads. The GEC shares its research, 
tradecraft, and best practices in designing, monitoring, and evaluating 
programs with the interagency through a central online sharing 
platform. Our tradecraft for analysis and reports are available to our 
partners also to help develop and employ proper techniques in analytics 
and research for shared responsibility.
    The GEC's M&E specialists participate in a monthly Counter 
Disinformation Monitoring and Evaluation Working Group with colleagues 
from the Bureau of Educational and Cultural Affairs (ECA), the 
Evaluation Unit of the Office of the Undersecretary for Public Affairs 
and Public Diplomacy (R/PPR), and the Bureau of Conflict and Stability 
Operations (CSO). The GEC's M&E specialists also work with program 
officers from other bureaus on projects with related missions to ensure 
data sharing and collection standardization.
    Likewise, the GEC's M&E Specialists work with other bureaus on 
evaluations of programs that cover multiple lines of efforts by 
multiple bureaus. The GEC is currently participating in an evaluation 
of Department-supported media literacy programs led by the Office of 
the Assistance Coordinator for Europe and Eurasia (EUR/ACE).
R/GEC
    Question. Your mission is to direct, lead, synchronize, integrate 
and coordinate efforts of the Federal Government to combat foreign 
state and non-state propaganda and disinformation. Please describe how 
you work to facilitate interagency cooperation, what steps and 
processes you have in place to assert the Department's leadership in 
this space, and how you are not duplicating efforts?

    Answer. The GEC's coordination efforts are focused on ensuring U.S. 
government activities are complementary and align with the overall U.S. 
strategy to counter malign disinformation and propaganda, which under 
our authorities includes propaganda and disinformation aimed at 
undermining or influencing the policies, security or stability of the 
United States and our allies. To that end, the GEC is expanding its 
complement of interagency detailees and liaison officers who work to 
ensure the U.S. government's counter disinformation efforts are 
streamlined across the interagency and duplication is minimized. To 
manage this important function, the GEC has established an Interagency 
and International Coordination Cell (I2C2).
    The GEC facilitates interagency cooperation on efforts to counter 
foreign propaganda and disinformation through a number of interagency 
fora. For example, the GEC holds interagency secure video 
teleconferences every other week to identify and coordinate on key 
priorities in the information environment.
    The GEC has been working closely with the U.S. European Command 
(USEUCOM) and the Bureau of European and Eurasian Affairs (EUR) and 
other partners via the Russia Influence Group on coordinated lines of 
effort to counter Russian disinformation.
    In terms of its counter terrorism mission, in the wake of ISIS's 
territorial defeat, the National Security Council designated the GEC as 
the lead for coordinating and executing a U.S. government strategic 
communications campaign that includes the full spectrum of information 
capabilities in support of D-ISIS efforts. The GEC has completed the 
development of a strategic framework in support of this process and is 
now coordinating with the interagency and partners from the Global 
Coalition to Defeat ISIS in implementing the campaign. The first phase 
of this multi-regional campaign will target ISIS's geographic core in 
Iraq and Syria. The campaign adopts a population-centric approach that 
is designed to deny the resurgence of ISIS and restore dignity and hope 
to those vulnerable populations who have suffered under their rule.
    For countering Iranian malign disinformation and propaganda, the 
GEC informs and coordinates regularly with roughly 12 interagency 
partners to include the Iran Action Group, the Bureau of Near East 
Affairs and CENTCOM. These close partnerships have enabled us to gain 
important indications and warnings about potential Iranian 
disinformation activity abroad or to respond in real-time to emerging 
or existing disinformation narratives from abroad.

    Question. Please describe how you work with public diplomacy 
officers in HST and at Post to increase awareness about disinformation 
campaigns and malign foreign influence.

    Answer. The GEC is actively engaged across the Department with 
public diplomacy officers as well as other professionals to increase 
awareness and understanding of disinformation and propaganda. A recent 
example was our participation in the Department's global Public Affairs 
Officers workshop, PD Next, last fall. Not only did I address our 
Public Affairs Officers from our posts around the world, but GEC 
representatives participated in four other panels. The GEC also 
provided recommendations for outside experts to brief the group and 
recruited Sarah Cook, a well-regarded expert on PRC media and 
propaganda, to speak at the workshop.
    The GEC works with regional bureau public diplomacy offices and 
posts overseas to identify and refine programs funded through the GEC. 
This coordination serves to ensure that programs to counter state-
sponsored disinformation and propaganda are aligned with broader State 
Department and post priorities and are responsive to the specific 
information environment contexts at the regional and/or country level.
    The GEC regularly engages with overseas posts to provide them with 
advice and support. For example, the GEC Russia and Analytics & 
Research teams have worked intensively with our embassies in North 
Macedonia and Slovakia to help engage together in understanding threats 
to, and defending, democratic processes against Russian disinformation 
campaigns.
    In terms of countering the Chinese Communist Party's propaganda, 
the GEC and the Bureau of East Asian and Pacific Affairs (EAP) co-lead 
a monthly China Campaign Synchronization meeting to coordinate PRC-
related lines of effort and provide policy guidance to all relevant 
regional and functional bureaus. This meeting also serves as a 
mechanism to align the Department's efforts to counter the CCP's malign 
propaganda and disinformation campaigns.
    The GEC also routinely coordinates with the State Department's 
bureau of East Asian and Pacific Affairs (China Desk and Office of 
Public Diplomacy), as well as other regional and functional public 
diplomacy teams, our missions abroad, and relevant interagency partners 
to coordinate strategies and responses to this problem set.

    Question. Please describe your efforts to work with our embassies 
and consulates to help increase reporting on foreign influence and 
disinformation. How does this reporting contribute to your programs? 
Please describe in general how Post input drives your agenda.

    Answer. We work closely with regional bureaus, sharing reporting 
and assessments as well as collaborating on future projects. For 
example, the GEC recently shared our assessment of PRC, Russian and 
Iranian disinformation around COVID-19 with State Department regional 
bureaus and China Watchers overseas to help them better assess what 
they are seeing within their regions.
    The GEC's Russia Team is in constant contact with those posts 
dealing with serious Russian disinformation threats as they have first-
hand experience of the issue. The GEC Russia Team's agenda is driven by 
a combination of what posts report to us they are experiencing and what 
our in-house experts find through in-depth research.

    Question. Please describe your process for producing content and 
general procedures for moving content through the building and through 
posts (You may provide a classified addendum if necessary)?

    Answer. When the GEC focused solely on countering propaganda from 
international terrorist organizations it had a team of staff--known as 
the Digital Outreach Team--with specific cultural, linguistic and 
technical expertise who operated online and on social media platforms 
to contest the false narratives that foreign terrorists groups use 
overseas to recruit new followers and fighters.
    When the GEC subsequently transitioned to address its broader 
congressional mandate, the organization began approaching the task of 
undermining terrorist ideology and state-sponsored disinformation with 
the understanding that the people and groups closest to the battlefield 
of narratives are often the most effective in countering them. 
Moreover, as the GEC has incorporated new academic research and social 
science into its work, it has become increasing clear that responding 
``tit-for-tat'' to each individual false narrative is often not 
effective.
    Given this shift in emphasis, rather than continuing to produce its 
own content and conduct direct, attributed messaging as a primary tool 
for accomplishing its mission, the GEC has focused on working with 
foreign partners to build overseas awareness of, and resistance to, 
disinformation operations rather than specific counter messages to help 
inoculate against false narratives before they gain traction.
                              middle east
R/GEC
    Question. Please describe the metrics that the GEC uses to 
determine success regarding Iran. To what extent are these metrics 
particular to Iran or scaleable for use across the other main lines of 
effort of Russia, China and Counterterrorism?

    Answer. For FY18 and FY19, the GEC Iran Team invested resources in 
long-term efforts to inform Middle Eastern audiences about how Iran 
uses disinformation to create confusion, to distract publics from their 
malign, regional goals. As such, many of our metrics are dedicated to 
measuring the reach and engagement of our projects designed to provide 
fact-based, and positive narrative messaging to target foreign 
audiences.
    Reach and engagement metrics are a common method of assessing the 
success of messaging campaigns. For example, one of our projects 
provides free and fair media with a local partner and has produced a 
total of 174 pieces of media content which included 68 written news 
stories, 33 edited videos, 31 TV interviews, 15 written exposes, 14 
infographics, and 14 video exposes. This project, which focuses on 
audiences internal to Iran, has reached 9.7 million views on Facebook 
and had an 80% engagement rate. In less closed environments, we are 
able to conduct focus groups and opinion polling to determine attitudes 
regarding content.
    In another, recent example a GEC-funded implementer produced an 
investigative report debunking Iran's false narratives related to 
COVID-19. It reached over 245,000 people within days of being published 
in Farsi on social media and received over 300,000 impressions, 
including hundreds of comments. Most of the social media engagement 
condemns Iran and Russia for the spread of disinformation. Commenters 
indicated that they believe both Iran and Russia are intentionally 
misleading their people because they have been unsuccessful in managing 
the outbreak.
    Each of the GEC's three counter state-sponsored disinformation 
directorates have unique approaches to the unique challenges posed by 
China, Russia, and Iran.

    Question. Russian disinformation is not limited to the U.S. and 
Europe. One glaring example is the ongoing attempt to paint the Syrian 
White Helmets as a terrorist organization. Please describe the steps 
the GEC is taking to counter Russian disinformation in the Middle East.

    Answer. The GEC does not have the capacity to counter Russian 
disinformation in the Middle East given limited resources and other 
higher priority efforts.
    In the past, the GEC, in coordination with USAID, has communicated 
with the leaders of the White Helmets in Syria. The GEC suggested 
engaging a professional marketing and communications firm to train the 
White Helmets to better identify and put out content to counter Russian 
disinformation. The GEC also suggested a pilot project to use a 
private-sector blockchain-based video verification technology to 
counter claims that White Helmet issued videos were faked. Ultimately, 
the White Helmets decided not to implement any of these proposals.

    Question. Along with Europe, China has also recently pursued port 
and telecoms deals around the Middle East. Please describe the steps 
the GEC is taking to counter Chinese initiatives in the Middle East.

    Answer. The GEC recognizes the China challenge is global in scope 
and, earlier this month, officially launched its first program to 
counter China's malign influence in the Middle East and North Africa. A 
credible third-party is convening local influencers to document, 
analyze, raise domestic awareness, and offer solutions to the risks of 
Chinese malign activities in the region. We actively work with the 
Bureau of Near Eastern Affairs (NEA) and functional bureaus throughout 
the Department to coordinate and complement their programs in the 
region.

    Question. Although jihadism is at the core of all three, ISIS, al-
Qaeda and al-Shabbab are distinct groups that pose different threat. 
Please describe the different ways the GEC targets these groups.

    Answer. While each threat is different, the goal of every GEC 
program is to address the grievances of local populations and provide 
relevant, convincing, and viable alternatives to extremist narratives 
and/or activities. Depending on the language and/or culture, the 
program can take different forms. Some program content also exposes the 
heinous crimes and outright lies of each group. Exposing fallacies and 
providing alternative options can thwart recruitment.
    For example, GEC supported counter-disinformation efforts in 
Somalia to target ISIS, al-Qaeda, and al-Shabaab in a similar fashion 
because each brings ideologies and agendas that are foreign to the 
people of Somalia. The groups falsely claim they're protecting Islam 
and Somalis against foreign invaders while at the same time 
indiscriminately targeting and killing innocent Muslim/Somali civilians 
in the name of Islam. They fight to destroy the culture, institutions, 
and the fabric of the society. The GEC therefore supports activities 
that amplify atrocities done by these groups, expose their 
destabilizing lies, promote peace and democracy, and build the capacity 
of local communities to create their own alternative messaging.
    Although it is increasingly recruiting non-Somali Kenyans, Al-
Shabaab's ideology has a strong pan-Somali nationalist component. Among 
Somali Kenyans, it argues that the Kenyan state is illegitimate and 
innately harmful to the Somali minority. GEC's programming, through its 
Somali Voices project, addresses the grievances that Somali Kenyans 
have and demonstrates ways Somali Kenyans can become more successful 
within the country.
    The GEC's multi-pronged initiative in Mindanao, southern 
Philippines, is an excellent example of interagency coordination with 
both Embassy Manila and INDOPACOM. With a peace deal stalled on the 
southern Philippine island of Mindanao, more militant Islamist groups 
are emerging and aligning themselves with the so-called Islamic State. 
Among the worst are the Abu Sayyaf Group and the ISIS-linked Bangsamoro 
Islamic Freedom Fighters (BIFF). GEC programs identify and engage at-
risk populations through messaging hubs, tech camps, hackathons, and 
other local skills-building activities.
                russian influence in sub-saharan africa
    I am deeply concerned about the specter of Russian malign influence 
in sub-Saharan Africa. Russia has made it clear that it seeks to 
project its global power by increasing its influence in Africa--and 
will do so by any means necessary. This year, more than 20 African 
countries are due to hold national elections, and several countries are 
going through historic political transitions. These countries, many of 
which have fragile political systems, are prime targets for Russian 
disinformation campaigns:

    Question. Does the Global Engagement Center have a strategy to 
confront Russian disinformation campaigns in Africa that might impact 
election outcomes or otherwise fuel radicalism?

    Answer. The GEC is beginning efforts to examine Russian information 
operations in Africa and develop countermeasures. The recent finding of 
a Russian troll farm in Africa shows that this is an area of great 
interest for Russia, and we need to be able to look at it with the same 
amount of intensity that Russia does.

    Question. Facebook has removed some fake news pages associated with 
Russian operatives, which targeted countries across the continent. Does 
GEC work with social media companies on issues relating to 
disinformation in Africa? Do you believe that social media companies 
are adequately engaged on this issue?

    Answer. Most technology companies have terms of service that govern 
the use of their platforms. The U.S. government encourages companies to 
voluntarily, fairly, consistently, and efficiently enforce those terms 
of service.

    Question. Messaging apps such as WhatsApp--where disinformation can 
spread differently than on traditional social media platforms like 
Facebook--are popular in Africa. Do Russian disinformation campaigns 
target messaging apps? Is GEC able to counter disinformation on 
messaging apps?

    Answer. Our adversaries increasingly take advantage of messaging 
apps. The GEC is developing its abilities to counter this type of 
disinformation.

    Question. Across the United States Government, what agencies and 
offices are involved in countering disinformation campaigns in Africa?

    Answer. The GEC works with public diplomacy and other colleagues in 
the field, the Bureau of African Affairs, and interagency elements 
including USAFRICOM and USSOCCOM to prioritize acute risks and counter 
disinformation efforts in Africa.
      gec support for u.s. missions and u.s. government personnel
    Question. U.S. missions such as those in Sri Lanka and Nepal are 
both facing anti-MCC compact rhetoric in local politics. Chinese 
propaganda is winning in influencing local politics--not the U.S. or 
our messaging. Please describe the scope and nature of the GEC's direct 
support to U.S. Missions. Does every request for support from a Mission 
receive a response from the GEC? What `rapid response' options and 
localized, targeted tools can the GEC provide our Missions?

    Answer. Many of our missions overseas are facing complex 
information environments. Every inquiry from a Mission receives a 
response, however the GEC is unable to fund every request. The GEC 
focuses its limited resources on engagement with U.S. Missions in 
particularly vulnerable countries where our efforts can have the 
greatest impact. For example, the GEC's China team is working with 
Mission Sri Lanka to roll out two specific projects aimed at countering 
disinformation locally as well as establish best practices in 
countering malign influence that may be used more widely. We are also 
coordinating across the interagency to identify other potential 
resources that can be used to counter propaganda and disinformation in 
South Asia.
    The GEC's Russia Team focuses its attention on requests from 
Missions in countries that are uniquely vulnerable to Russian 
disinformation due to their location, their political situation, and 
their ability to protect their populations. GEC support varies from 
sending Russia Team members overseas to assist a Mission during times 
of major events that may increase the threat of destabilizing 
disinformation, to connecting the Mission with NGOs working to counter 
disinformation on the ground, to offering advice on other U.S. Mission 
communications with local audiences. The GEC's Russia Team is also 
developing a suite of programs to quickly increase the ability of U.S. 
partners and allies to engage with us in confronting Russian 
disinformation.

    Question. Does the GEC train public diplomacy Foreign Service 
Officers to recognize and counter disinformation, as part of Foreign 
Service Institute training or otherwise? If not, why not?

    Answer. The Foreign Service Institute (FSI), with the support of 
the GEC, trains Foreign Service Officers and other public diplomacy 
practitioners to recognize and counter disinformation. The GEC also has 
shared with FSI training resources employed by international partners 
to augment existing FSI courses. Additionally, FSI includes modules 
outlining GEC resources and programs in classes for Public Affairs 
Officers, Information Officers, and other public diplomacy 
practitioners. Meanwhile, the GEC engages not only with FSI but also 
with other Department entities to further the ability of Foreign 
Service Officers to recognize and counter disinformation. For example, 
GEC's China team has partnered with regional bureaus to connect posts 
with regional and topical experts on PRC propaganda and disinformation 
efforts, and GEC's Russia team worked with the Bureau of European and 
Eurasian Affairs to provide Missions with a toolkit of counter-
disinformation resources and best practice.

    Question. I understand the United Kingdom has provided its 
government and public sector communications professionals with a 
toolkit to help prevent the spread of disinformation, called the RESIST 
toolkit. Does the U.S. government have a similar toolkit for our 
government officials? If not, is there an effort underway to create 
one? What role is the GEC playing in that effort?

    Answer. Rather than creating its own toolkit, the GEC leverages the 
RESIST toolkit as the best available resource for government officials. 
This allows us to conduct joint planning with U.K. colleagues from a 
common approach, and saved U.S. taxpayers dollars by utilizing a best 
in breed tool that was already available. The GEC has translated the 
RESIST toolkit into Spanish, Arabic, and Mandarin to make it available 
to additional partners, and shared these translation with the U.K. 
government as part of our partnership with them.
                      work with the private sector
    Question. Does the GEC subcontract its work to any private sector 
companies or organizations? If so, what are the names of the entities 
and, where applicable, what is the financial value of each contract? 
What criteria does the State Department use to assess an entity prior 
to contracting?

    Answer. The GEC works through private sector companies and 
organizations to implement activities where engaging their expertise, 
credibility and networks is the most efficient and effective means of 
achieving our objectives. In terms of its programs and content 
development, the GEC works with NGOs and civil society organizations 
that operate on the ground overseas. In terms of conducting data 
analytics to inform its work, the GEC works with private sector 
companies that have the needed expertise and capability. The names of 
these organizations and companies and any further details about the 
partnerships can be provided to the committee in a classified setting.
    Additionally, the GEC established the U.S. Government's single 
dedicated effort to identify and assess private sector technologies to 
counter foreign disinformation and propaganda. The GEC uses a grant 
mechanism to support reviews and tests of technologies, in line with 
its statutory function to ``facilitate the use of a wide range of 
technologies and techniques by sharing expertise among federal 
departments and agencies, seeking expertise from external sources.'' 
GEC reviewed about 100 technologies in the past year. Some of these 
technologies are selected for further tests in support of U.S. 
Government agencies, and those tests are funded at a standard amount 
through the existing grant. About a dozen tests have been or are being 
conducted on the GEC Testbed.
                                 ______
                                 

              Responses of Ms. Lea Gabrielle to Questions 
                    Submitted by Senator Cory Booker

    Question. Can you discuss the GEC's findings in this report--who is 
spreading the falsehoods, for what purpose, and what effect has it had?

    Answer. The GEC has been tracking Chinese and Russian propaganda 
and disinformation related to COVID-19, as well as the overall impact 
of disinformation on global conversations about this situation. 
Preliminary findings highlight a key difference between Russia's and 
China's approach to messaging on COVID-19. As of early March, both 
Russian-linked and China-linked accounts are still spreading COVID-19-
themed propaganda and disinformation as one of their top themes. 
Russian-linked accounts are messaging in Spanish, English, German, and 
Italian; China-linked accounts are messaging in English, Spanish and 
Mandarin.
    The GEC's analysis indicates Russia's primary tactic has been to 
amplify disruptive disinformation narratives with no factual basis. 
Meanwhile, the data suggests China has largely sought to disseminate 
narratives that portray its reaction to the spread of COVID-19 in a 
positive light.
    Determining precisely what effect these adversarial activities have 
had is difficult. That said, there are clearly conspiracy theories and 
falsehoods about the origin and nature of the coronavirus circulating 
online worldwide.

    Question. Are these tweets part of a purposeful attempt to 
deliberately mislead the public and spread misinformation?

    Answer. Yes.

    Question. Previously, officials have signaled that some coronavirus 
misinformation on social media may be tied to Russia. But the report 
doesn't mention Russia's involvement. Is there any evidence to suggest 
that Russia was somehow involved in the spread of the misinformation 
this report identifies?

    Answer. Yes. The GEC has seen both Russian-linked and China-linked 
accounts spreading COVID-19-themed propaganda and disinformation.

    Question. Can you describe your methodology in this report--how did 
you identify what counts as a suspicious account? Why did you think 
that certain content was part of a disinformation campaign in the first 
place?

    Answer. The GEC is careful not to reveal its methodology to 
adversaries of the United States. The report, which is based on open 
sources, is unclassified, but we are mindful that nefarious actors can 
and will use any information we make public to improve their 
tradecraft. We would be happy to provide your staff with a more 
detailed briefing in a secure environment.

    Question. Did you pass along this information to the platforms 
hosting the misinformation (Facebook, Twitter, etc?) and have they 
taken any action to curtail the spread of what you've identified as 
content that is part of a disinformation campaign?

    Answer. The GEC has shared key elements of the reports highlighted 
in recent media accounts with the platforms. You will have to ask them 
about any actions they've taken. We are in touch with the platforms and 
will continue to share relevant aspects of our unclassified research 
with them. It is worth noting that the major social media companies 
have unique access and considerable resources they can bring to bear in 
order to monitor their own platforms. They should not be relying 
heavily on data analytics conducted with U.S. taxpayer dollars.

    Question. Was there a reason why the report was not published or 
made public? What was the rationale behind not commenting publicly on 
the findings of the report? Who made the decision not to make the 
report public?

    Answer. GEC analytics are primarily intended to inform policymakers 
and our partners. As a rule, we do not make them public. When we 
believe the material contained in the reports has particular relevance 
to the public, we have worked with our colleagues in the Bureau of 
Global Public Affairs to inform the media. Given the interest in recent 
reports, however, we are consulting with our colleagues on the 
advisability of a more public product.

    Question. There doesn't appear to be any classified information in 
the report. Why wouldn't this be made public? Can you commit to 
releasing the report?

    Answer. See response to the question above.

    Question. Election Security: While the State Department does not 
have authority over the homeland, the data and analysis that the GEC 
collects on Russian techniques and practices could be vital information 
for the Department of Homeland Security, the FBI and our intelligence 
agencies. How are you sharing this type of information with the 
relevant agencies?

    Answer. We do share this type of information with DHS, the FBI, and 
other interagency partners. My staff also take part in several 
interagency fora working on a coordinated government approach to 
securing the U.S. primary and general elections in 2020.

    Question. The FY2020 NDAA requires that The Office of the Director 
of National Intelligence, in coordination with several other agencies, 
develops a strategy for countering Russian cyberattacks against U.S. 
elections. What role does the GEC have in that group?

    Answer. The GEC does not have any cyber collection, analysis, or 
attack capabilities. As such, the GEC is not involved with the group 
you are referencing.

    Question. Since the Director Coats departed the post in August of 
last year, there has not been a confirmed Director to lead the DNI. In 
the absence of this leadership, has the GEC continued to feed into the 
specific efforts to counter Russian disinformation and cyberattacks 
against U.S. elections? Has acting director Grenell enabled these 
efforts to continue?

    Answer. Yes, the GEC takes part in several interagency fora working 
on a coordinated government approach to securing the U.S. primary and 
general elections in 2020. That work continues under Acting DNI 
Grenell.

    Question. To what extent are Chinese and Russian-origin 
disinformation campaigns in Africa aimed specifically at undermining 
U.S. influence or interests?

    Answer. We agree that Russia is expanding its use of disinformation 
and propaganda on the continent. The GEC is beginning efforts to 
examine Russian information operations in Africa that undermine U.S. 
interests and develop countermeasures. At our current funding levels, 
this will be a very modest effort.
    We have seen Beijing's economic and political engagement across 
Africa increase dramatically over the past decade, supported by China's 
propaganda apparatus. The PRC is leveraging its full suite of tools to 
gain support for its bilateral and multilateral priorities, build 
customers for its technologies and products, and establish permanent 
influence via strengthened military, political, development and 
cultural ties.

    Question. What is the GEC's strategic approach to countering 
Chinese and Russian disinformation in Africa?

    Answer. To fulfil its mission to ``coordinate'' efforts to counter 
disinformation, we are working with colleagues in the field, the Bureau 
of African Affairs, and other interagency elements, including 
USAFRICOM, to prioritize acute risks where the GEC can provide support.
    The GEC is in the process of launching a program that networks 
international China experts with leading local African voices to 
exchange insights and understanding of Chinese Communist Party 
influence operations there. The GEC is also supporting a local pilot 
that will reinforce positive narratives of U.S. economic contributions 
in a specific country, to limit the space where PRC propaganda can take 
root.

    Question. Besides Russia and China, are there other global or 
regional powers who are investing in disinformation ops on the 
continent?

    Answer. In the wake of ISIS's territorial losses, the National 
Security Council has designated the GEC as the lead for coordinating 
and executing a U.S. government communications campaign to prevent 
ISIS's resurgence.
    ISIS and Al-Qaeda affiliates are operating both in West Africa and 
on the Horn of Africa, to include spreading propaganda to recruit new 
followers. The GEC continues executing its original counterterrorism 
mission by executing counterterrorism programs in Africa.

    Question. In the context of Russian influence and disinformation 
operations, on which African countries do you believe Russia is most 
focused on influencing?

    Answer. While we cannot answer this question publicly, we would be 
happy to provide your staff with a more detailed briefing in a secure 
environment.

    Question. How does GEC define Chinese and Russian ``influence 
operations'' within the African context? What does it consider to be 
within the scope of ``influence operations''?

    Answer. While ``influence operations'' include a wide variety of 
activities, the GEC's mandate is to focus specifically on foreign 
propaganda and disinformation.

    Question. How is diversity and inclusion reflected in key 
leadership roles in your organization?

    Answer. At the GEC, we draw our staff from a wide range of 
backgrounds, experiences and talents. These staff include language and 
culture experts, data scientists, intelligence analysts, and people who 
worked to counter Russian disinformation during the Cold War as 
officials at the former U.S. Information Agency.
    In addition to myself, we have a number of women and minorities who 
serve in leadership roles at the GEC, including our Chief of Staff, 
Team Directors, and Senior Advisors.

    Question. Can you commit to hiring the most diverse workforce made 
of individuals from the civil and foreign service and detailees from 
the Department of Defense?

    Answer. Absolutely. At the GEC we have a number of hiring 
mechanisms that provide us more flexibility than traditional State 
Department offices. One of those mechanisms is receiving interagency 
detailees at the GEC, including from DoD.
    With these authorities we will continue to build up a staff that 
draws from a wide range of backgrounds, experiences, and talents so 
that we can effectively execute our mission. We will continue to keep 
diversity and inclusion as a key consideration in making hiring 
decisions.
                                 ______
                                 

 The Committee Received No Response From Mr. Daniel Blumenthal for the 
               Following Questions by Senator Cory Booker

                                 china
    Question. Can you describe the difference between Chinese 
disinformation and Chinese propaganda and how China uses both to 
undermine U.S. interests?

    [No Response Received]
                       china's propaganda machine
    In the past year, we have seen China's heavy handed and repressive 
responses to protests in Hong Kong and criticism regarding their 
treatment of the Uyghurs.

    Question. As you have said, China has a sophisticated censorship 
apparatus to control information inside China, but how do they create 
alternative narratives about their disgraceful actions outside China?

    [No Response Received]

    Question. How should we push back on their efforts to rewrite the 
facts?

    [No Response Received]
             state-led disinformation vs. terrorist groups
    When the U.S. first started looking at the disinformation threat 
after 9/11, we were focused on the threat posed by violent extremist 
organization and non-state actors. Today, the bulk of the work done by 
the GEC responds to state actors, like Russia, China, Iran, and North 
Korea.

    Question. Do you see that trend reversing or do you think we will 
continue to need to respond to threats by state actors?

    [No Response Received]
                           freedom of speech
    Both Russia and China try to control the message by buying media 
organization, paying off journalists, and restricting access to the 
Chinese markets for unfavorable reporting.

    Question. What does it mean for the future of freedom of speech, 
the core principle of democracy, when the media is being manipulated in 
this way?

    [No Response Received]

    Question. What steps do we need to take either through diplomacy or 
through USAID to bolster the free media in the areas where China and 
Russia have vested interests?

    [No Response Received]
                                 ______
                                 

             Responses of Dr. Alina Polyakova to Questions 
                    Submitted by Senator Cory Booker

                     is the u.s. adequately set up
    There is clearly a compelling case for why the United States 
government should pay attention to the threat posed by Russia's 
disinformation campaign.
    And there has been a proliferation of organizations within our 
agencies, including DoD, DHS, FBI, our intel agencies, etcetera to deal 
with the information space.
    However, these are all stovepiped organizations and theoretically, 
the GEC is supposed to be playing a coordinating function.

    Question. As an outsider, do you believe that this is an effective 
structure?

    Answer. The USG needs a whole of government approach to this 
problem, which includes an empowered interagency coordination function 
(similar to the NCTC) with a political and operational mandate to carry 
out and direct policy as it concerns U.S. national security at home and 
aboard. Currently, the GEC is not able to serve this function because: 
1) it has no mandate over the homeland; 2) the head of the GEC is not a 
high level Congressionally appointed role; 3) there is lack of clarity 
as to who in USG owns this issue. We need an Undersecretary level 
position to own this issue and drive policy.

    Question. Do you believe that the offices we have set up in each of 
these various agencies is able to effectively deal with the threat of 
Russian disinformation?

    Answer. These functions are highly stovepiped. For an outsider 
perspective, it's very difficult to know who is doing what and how. The 
USG is not currently set up to effectively deal with the full spectrum 
of threats presented by disinformation and malign influence more 
broadly.
             state-led disinformation vs. terrorist groups
    When the U.S. first started looking at the disinformation threat 
after 9/11, we were focused on the threat posed by violent extremist 
organization and non-state actors. Today, the bulk of the work done by 
the GEC responds to state actors, like Russia, China, Iran, and North 
Korea.

    Question. Do you see that trend reversing or do you think we will 
continue to need to respond to threats by state actors?

    Answer. State actors, especially China, have far greater resources 
than non-state actors. While we should not underestimate the threat 
posed by violent extremism and terrorism, China and Russia pose a far 
greater threat in terms of their ability to carry out multifaceted 
information operations against the United States and our allies.
                           freedom of speech
    Both Russia and China try to control the message by buying media 
organization, paying off journalists, and restricting access to the 
Chinese markets for unfavorable reporting.

    Question. What does it mean for the future of freedom of speech, 
the core principle of democracy, when the media is being manipulated in 
this way?

    Answer. Independent media are the frontline of defense and offense 
against disinformation in democratic societies. In many countries, 
including among U.S. allies, independent journalists and media 
organizations are underresourced and underdeveloped. It is these 
countries that are most vulnerable to the slow creep of Chinese and 
Russian malign influence in the media domain. Overtime, as such 
manipulations continue, free speech is effectively stifled and 
repressed. The threat to democracy is real, but the risk is that we 
will not notice the full effect until it is too late. For that reason, 
the United States should continue to support independent media in most 
vulnerable states.

    Question. What steps do we need to take either through diplomacy or 
through USAID to bolster the free media in the areas where China and 
Russia have vested interests?

    Answer. USAID should devote significant resources to supporting the 
operational capacities of independent media in vulnerable states, 
starting with U.S. allies. Reducing aid of this nature will do long-
term damage to democratic resilience, thereby undermining U.S. national 
security interests and our alliance structure.

                                  [all]
</pre></body></html>
